<html>
<title> - TEACHER EQUITY: EFFECTIVE TEACHERS FOR ALL CHILDREN</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




          TEACHER EQUITY: EFFECTIVE TEACHERS FOR ALL CHILDREN

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, SEPTEMBER 30, 2009

                               __________

                           Serial No. 111-33

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html




                  U.S. GOVERNMENT PRINTING OFFICE
52-414 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       John Kline, Minnesota,
    Chairman                           Senior Republican Member
Donald M. Payne, New Jersey          Thomas E. Petri, Wisconsin
Robert E. Andrews, New Jersey        Howard P. ``Buck'' McKeon, 
Robert C. ``Bobby'' Scott, Virginia      California
Lynn C. Woolsey, California          Peter Hoekstra, Michigan
Ruben Hinojosa, Texas                Michael N. Castle, Delaware
Carolyn McCarthy, New York           Mark E. Souder, Indiana
John F. Tierney, Massachusetts       Vernon J. Ehlers, Michigan
Dennis J. Kucinich, Ohio             Judy Biggert, Illinois
David Wu, Oregon                     Todd Russell Platts, Pennsylvania
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
Judy Chu, California

                     Mark Zuckerman, Staff Director
                 Barrett Karr, Minority Staff Director

















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on September 30, 2009...............................     1

Statement of Members:
    Kline, Hon. John, Senior Republican Member, Committee on 
      Education and Labor........................................     4
        Prepared statement of....................................     6
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Prepared statement of....................................     3
        Questions submitted to witnesses on behalf of Mrs. 
          McMorris Rodgers.......................................    75

Statement of Witnesses:
    Avila, Layla, vice president, the New Teacher Project........    17
        Prepared statement of....................................    18
        Responses to questions submitted for the record..........    76
    Daniels, Latanya, assistant principal, Edison High School....    37
        Prepared statement of....................................    39
        Responses to questions submitted for the record..........    79
    Fattah, Hon. Chaka, a Representative in Congress from the 
      State of Pennsylvania......................................     7
        Prepared statement of....................................     9
    Hess, Frederick M., director of education policy studies, 
      American Enterprise Institute..............................    42
        Prepared statement of....................................    44
    Murray, Linda, executive director, Education Trust-West......    20
        Prepared statement of....................................    22
    Price, Hon. Tom, a Representative in Congress from the State 
      of Georgia.................................................    11
        Prepared statement of....................................    12
    Roza, Marguerite, Center on Reinventing Public Education, 
      College of Education, the University of Washington.........    29
        Prepared statement of....................................    31
    Van Roekel, Dennis, president, National Education Association    24
        Prepared statement of....................................    26
        Responses to questions submitted for the record..........    86

 
                       TEACHER EQUITY: EFFECTIVE
                       TEACHERS FOR ALL CHILDREN

                              ----------                              


                     Wednesday, September 30, 2009

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 11:02 a.m., in room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Payne, Scott, 
Woolsey, Hinojosa, McCarthy, Tierney, Kucinich, Wu, Davis, 
Bishop of New York, Hirono, Altmire, Hare, Shea-Porter, Fudge, 
Polis, Tonko, Pierluisi, Titus, Chu, Kline, Petri, Castle, 
Ehlers, Biggert, Platts, and Price.
    Staff present: Tylease Alli, Hearing Clerk; Alice Cain, 
Senior Education Policy Advisor (K-12); Denise Forte, Director 
of Education Policy; David Hartzler, Systems Administrator; Liz 
Hollis, Special Assistant to Staff Director/Deputy Staff 
Director; Broderick Johnson, Staff Assistant; Fred Jones, Staff 
Assistant, Education; Jessica Kahanek, Press Assistant; Sharon 
Lewis, Senior Disability Policy Advisor; Celine McNicholas, 
Labor Policy Advisor; Stephanie Moore, General Counsel; Alex 
Nock, Deputy Staff Director; Joe Novotny, Chief Clerk; Lillian 
Pace, Policy Advisor, Subcommittee on Early Childhood, 
Elementary and Secondary Education; Kristina Peterson, 
Legislative Fellow, Education; Rachel Racusen, Communications 
Director; Meredith Regine, Junior Legislative Associate, Labor; 
Melissa Salmanowitz, Press Secretary; Dray Thorne, Senior 
Systems Administrator; Margaret Young, Junior Legislative 
Associate, Education; Mark Zuckerman, Staff Director; Stephanie 
Arras, Minority Legislative Assistant; James Bergeron, Minority 
Deputy Director of Education and Human Services Policy; Kirk 
Boyle, Minority General Counsel; Casey Buboltz, Minority 
Coalitions and Member Services Coordinator; Cameron Coursen, 
Minority Assistant Communications Director; Amy Raaf Jones, 
Minority Professional Staff Member; Barrett Karr, Minority 
Staff Director; Alexa Marrero, Minority Communications 
Director; Susan Ross, Minority Director of Education and Human 
Services Policy; Mandy Schaumburg, Minority Education Counsel; 
and Linda Stevens, Minority Chief Clerk/Assistant to the 
General Counsel.
    Chairman Miller [presiding]. The Committee on Education and 
Labor will come to order for the purpose of conducting a 
hearing on teacher equity and the effective teachers for all 
children.
    Before we begin the hearing, I want to recognize in the 
audience. I believe we have five or six members of the 
parliament from Macedonia, if they would like to stand. They 
bring a wealth of information. They represent the Committee on 
Labor and Social Policy, the Committee on Education and 
Science----
    [Applause.]
    On constitutional issues, on the European community, the 
Committee on Transport, Communications and the Environment, and 
Committee on Local Self-Government.
    Welcome to our committee meeting this morning. We are 
honored to have you. Thank you for participating in the inter-
parliamentary organization, along with Congressman Price and 
others.
    Today we are here to look at a critically important issue, 
how to fulfill the promise of providing every child in this 
country with an excellent teacher. Teachers play a pivotal role 
in shaping the next generation of innovators, engineers, 
entrepreneurs and scientists and citizens.
    We can all think of a teacher who made a difference in our 
lives and we are all grateful to all teachers for their 
dedication and their hard work. In a major speech last week, 
Secretary Duncan called education the civil rights issue of our 
generation. I believe he is absolutely right.
    At their core, our nation's education laws are civil rights 
laws. They are based upon the belief that we must give every 
child in the United States regardless of their background or 
their family income an equal shot at a world-class education.
    It is unacceptable that poor and minority students in 
schools that are struggling academically are twice as likely to 
be taught by an inexperienced teacher as their peers in an 
affluent school. The very students who could benefit the most 
from the best teachers are the least likely to get them.
    That is why No Child Left Behind requires states and school 
districts to address inequities in the distribution of teachers 
and to ensure that low income and minority children are not 
taught at higher rates than other children by inexperienced, 
unqualified or, perhaps more importantly, out-of-field 
teachers.
    But under the Bush administration, this requirement was not 
adequately enforced. In 2006, a report by the Citizens' 
Commission on Civil Rights showed that 41 states did not comply 
with the teacher equity provisions.
    While we wait for equity there are devastating consequences 
for far too many children. Take, for example, what happens in 
many math classes in schools with high concentrations of poor 
and minority students.
    Nearly half of the math classes in high-poverty high 
schools are taught by teachers who did not major in math or a 
math related field. In high-poverty middle schools, only three 
out of every 10 math classes are taught by a teacher who has a 
college major or minor in math.
    We have to do more to address the problems and we have to 
do it now. That is why, as part of the American Recovery and 
Reinvestment Act, we challenged states and school districts to 
do more in two ways.
    First, in order to receive their share of the $40 billion 
of state fiscalization stabilization fund, states are required 
to report how they are making progress on four key areas of 
reform, including improving teacher effectiveness and ensuring 
that excellent teachers are getting placed in classrooms that 
need them the most.
    Second, the race to the top will reward states that make 
progress in this area. This sends an important signal that no--
it is no longer acceptable for poor and minority students not 
to get their fair share of outstanding teachers.
    It is in the best interest of our students, our schools and 
our economic future to start treating teachers like the 
professionals that they are, with the respect that they 
deserve. This means treating them the same way we treat other 
professions.
    We have to expect the best from them and give them the 
resources and the professional development opportunities they 
need to grow. We have to do a better job of recruiting and 
retaining and rewarding excellent teachers. We have to ensure 
that states are distributing their effective teachers into the 
classrooms that need them most.
    Now, all of this is going to require a seismic shift in the 
way we think about teachers, the way we talk about teachers and 
the way we treat teachers. We have to include teachers as part 
of the discussion. We have to acknowledge that when we fail to 
distinguish a good teacher from an okay teacher or a great 
teacher from an ineffective teacher, we ultimately fail our 
students.
    This is why we are here today, for the first of several 
hearings we plan to hold on this issue. I look forward to 
hearing from our witnesses about how we can address the 
inequalities of teacher talent in this country, and I am 
pleased to know that so many of our witnesses have first-hand 
teaching experience, and I want to thank all of them in advance 
for being here.
    Now, I would like to recognize the senior Republican on the 
committee, Mr. Kline from Minnesota.
    [The statement of Mr. Miller follows:]

   Prepared Statement of Hon. George Miller, Chairman, Committee on 
                          Education and Labor

    We're here today to take a look at a critically important issue: 
how to fulfill the promise of providing every child in this country 
with an excellent teacher.
    Teachers play a pivotal role in shaping the next generation of 
innovators and engineers, entrepreneurs and scientists.
    We can all think of a teacher who made a difference in our lives.
    And we are grateful to all teachers for their dedication and hard 
work.
    In a major speech last week, Secretary Duncan called education the 
civil rights issue of our generation.
    He's absolutely right. At their core, our nation's education laws 
are civil rights laws. They are based on the belief that we must give 
every child in the U.S., regardless of their background or family 
income, an equal shot at a world class education.
    It is unacceptable that poor and minority students in schools that 
are struggling academically are twice as likely to be taught by 
inexperienced teachers as their peers in more affluent schools.
    The very students who could benefit the most from the very best 
teachers are the least likely to get them.
    This is why No Child Left Behind requires states and school 
districts to address inequities in the distribution of teachers and to 
ensure that low-income and minority children are not taught at higher 
rates than other children by inexperienced, unqualified, or--perhaps 
most importantly--out-of-field teachers.
    But under the Bush administration, this requirement was not 
adequately enforced.
    In 2006, a report by the Citizens Commission on Civil Rights showed 
that 41 states did not comply with the teacher equity provisions.
    While we wait for equity, there are devastating consequences for 
far too many children. Take, for example, what happens in many math 
classes in schools with high concentrations of poor and minority 
students.
    Nearly half of the math classes in high-poverty high schools are 
taught by teachers who did not major in math or a math-related field.
    In high-poverty middle schools, only three out of every ten math 
classes are taught by a teacher who had a college major or minor in 
math.
    We have to do more to address this problem now.
    That's why, as part of the American Recovery and Reinvestment Act, 
we challenged states and school districts to do more in two ways.
    First, in order to receive their share of the $40 billion State 
Fiscal Stabilization Fund, states are required to report how they're 
making progress on four key areas of reform, including improving 
teacher effectiveness and ensuring that excellent teachers are getting 
placed in classrooms that need them most.
    Second, the Race to the Top Fund will reward states that make 
progress in this area. This sends an important signal that it is no 
longer acceptable for poor and minority students not to get their fair 
share of outstanding teachers.
    It is in the best interests of our students, schools and our 
economic future to start treating teachers like the professionals that 
they are, with the respect they deserve.
    This means treating them the same way we treat other professions.
    We have to expect the best from them, and give them the resources 
and professional development opportunities they need to grow.
    We have to do a better job at recruiting, retaining and rewarding 
excellent teachers.
    We have to ensure states are distributing these effective teachers 
into the classrooms that need them the most.
    Now all of this is going to require a seismic shift in the way we 
think about teachers, they way we talk about teachers, and the way we 
treat teachers.
    We have to include teachers as part of the discussion and we have 
to acknowledge when we fail to distinguish a good teacher from an okay 
teacher, or a great teacher from an ineffective teacher, we ultimately 
fail our students.
    This is why we are here today, for the first of several hearings we 
plan to hold on this issue.
    I look forward to hearing from our witnesses about how we can 
address the inequities in teacher talent in this country. And I'm 
pleased to know so many of our witnesses have first-hand teaching 
experience.
    Thank you for being here.
                                 ______
                                 
    Mr. Kline. Thank you, Mr. Chairman, and good morning to you 
all.
    Thank you, Mr. Chairman, for holding this hearing. It is 
indeed not only important but a critical subject for us to 
address. I want to welcome our colleagues who make up the first 
panel. Good morning, good morning to you.
    We are here today to explore how to ensure all children are 
taught by effective teachers. Study after study has shown that 
effective, knowledgeable teachers are among the most important 
factors, when it comes to improving student academic 
achievement. High quality teachers are more important than 
state-of-the-art facilities or factors such as the student to 
teacher ratio.
    Unfortunately, the question of what makes an effective 
teacher is not easily quantifiable. There is no formula for the 
years of classroom experience or the number of degrees handing 
on the wall that can guarantee a teacher's effectiveness.
    Some of the most dynamic, engaging teachers are new to the 
profession, bringing with them the enthusiasm of a Teach for 
America participant or the unique perspective of an engineer or 
scientist offering his or her real-world experience to eager 
young minds.
    Chairman Miller convened this hearing not just to talk 
about what makes an effective teacher but to explore whether it 
is possible to put the very best teachers where they are needed 
most, in the classrooms of our students with the greatest 
needs.
    To answer that question I believe we must look first at the 
barriers that exist today. For instance, are collective 
bargaining agreements making it difficult for school districts 
to transfer teachers among schools? Are state and local laws 
and policies inhibiting school leaders from placing the best 
teachers where they are needed most?
    I will look forward to hearing the answers to these 
questions from our witnesses. One of the most promising 
strategies to promote excellence in the classroom is the 
concept of performance pay. Congressman Price will be 
testifying this morning about his legislation to foster these 
innovative pay systems that reward teachers for their success 
and the achievement of their students.
    Of course, if we want to ensure high quality teachers are 
in our neediest classrooms, we should work to improve the 
quality of all teachers. That means strengthening teacher 
colleges and professional development opportunities for current 
teachers.
    It means embracing alternative certification and training 
programs that can bring professionals from other fields into 
our classrooms. It means exploring innovative programs already 
being implemented at the local level, such as the Teacher 
Advancement Program, which we will discuss today and it means 
discarding rigid rules and practices that put adults ahead of 
students.
    The No Child Left Behind Act recognized the value of high 
quality teachers by calling for all students to be taught by a 
``highly-qualified teacher.'' It was right concept, but in the 
years since the enactment of NCLB, we have seen confusion and 
uncertainty as states try to fit their individual teachers into 
a federal definition of what makes a teacher highly qualified.
    For instance, teachers in rural communities are often 
responsible for teaching multiple subjects. Early 
interpretations of the federal requirements would have required 
these individuals to have multiple bachelor's degrees in each 
of the subject areas they taught, clearly not practical in the 
small towns in Minnesota.
    The lesson to be learned is that the federal government 
ought to proceed with caution as we attempt to improve the 
quality of our teaching workforce. We are right to shine a 
spotlight on this issue and I am glad to be having this hearing 
today, but we should be wary of a federal solution that 
attempts to dictate where teachers should teach, limits 
perspective teachers to a single path towards certification or 
define what makes a good teacher.
    As with most of the challenges in our education system, 
federal intervention carries with it the possibility of 
significant unintended consequences that could undermine the 
very policies we are trying to promote.
    With that, again, I want to thank the Chairman for holding 
this hearing. I want to thank our witnesses today for their 
testimony. I am looking forward to hearing that and engaging in 
the discussion, and I yield back.
    [The statement of Mr. Kline follows:]

   Prepared Statement of Hon. John Kline, Senior Republican Member, 
                    Committee on Education and Labor

    Thank you Chairman Miller, and good morning. We're here today to 
explore how to ensure all children are taught by effective teachers.
    Study after study has shown that effective, knowledgeable teachers 
are among the most important factors when it comes to improving student 
academic achievement. High-quality teachers are more important than 
state-of-the-art facilities or factors such as the student-to-teacher 
ratio.
    Unfortunately, the question of what makes an effective teacher is 
not easily quantifiable. There is no formula for the years of classroom 
experience or the number of degrees hanging on the wall that can 
guarantee a teacher's effectiveness.
    Some of the most dynamic, engaging teachers are new to the 
profession, bringing with them the enthusiasm of a Teach for America 
participant or the unique perspective of an engineer or scientist 
offering his or her real world experience to eager young minds.
    Chairman Miller convened this hearing not just to talk about what 
makes an effective teacher, but to explore whether it's possible to put 
the very best teachers where they are needed most--in the classrooms of 
our students with the greatest needs.
    To answer that question, I believe we must look first at the 
barriers that exist today. For instance, are collective bargaining 
agreements making it difficult for school districts to transfer 
teachers among schools? Are state and local laws and policies 
inhibiting school leaders from placing the best teachers where they are 
needed most? I look forward to hearing the answers to these questions 
from our witnesses.
    One of the most promising strategies to promote excellence in the 
classroom is the concept of performance pay. Congressman Price will be 
testifying this morning on his legislation to foster these innovative 
pay systems that reward teachers for their success and the achievement 
of their students.
    Of course, if we want to ensure high-quality teachers are in our 
neediest classrooms, we should work to improve the quality of all 
teachers. That means strengthening teacher colleges and professional 
development opportunities for current teachers. It means embracing 
alternative certification and training programs that can bring 
professionals from other fields into our classrooms. It means exploring 
innovative programs already being implemented at the local level such 
as the Teacher Advancement Program, which we will discuss today. And it 
means discarding rigid rules and practices that put adults ahead of 
students.
    The No Child Left Behind Act recognized the value of high-quality 
teachers by calling for all students to be taught by a--quote--``highly 
qualified teacher.'' It was the right concept, but in the years since 
the enactment of NCLB, we've seen confusion and uncertainty as states 
try to fit their individual teachers into a federal definition of what 
makes a teacher highly qualified.
    For instance, teachers in rural communities are often responsible 
for teaching multiple subjects. Early interpretations of the federal 
requirements would have required these individuals to have multiple 
bachelor's degrees in each of the subject areas they taught.
    The lesson to be learned is that the federal government ought to 
proceed with caution as we attempt to improve the quality of our 
teaching workforce. We are right to shine a spotlight on this issue, 
and I'm glad to be having this hearing today. But we should be wary of 
a federal solution that attempts to dictate where teachers should 
teach, limit prospective teachers to a single path toward 
certification, or define what makes a good teacher.
    As with most of the challenges in our education system, federal 
intervention carries with it the possibility of significant unintended 
consequences that could undermine the very policies we're trying to 
promote.
    With that, I want to thank our distinguished panel of witnesses--
including the Members who've taken time from their busy schedules to be 
here this morning--and I yield back.
                                 ______
                                 
    Chairman Miller. Thank you very much. If there is further 
opening statements of the members, they will be included in the 
record in their entirety without objection.
    Our first panel is made up of two of our colleagues, the 
Honorable Chaka Fattah, who is the representative from 
Pennsylvania, who is currently serving his eighth term 
representing the 2nd Congressional District in Pennsylvania.
    Congressman Fattah has long been an advocate for education 
and is an architect of the GEAR UP program, which has become 
the largest pre-college awareness program in the nation's 
history and has contributed over $2 billion toward educational 
advancement, college readiness and retention for low-income 
students. Prior to joining Congress, he served 12 years in the 
Pennsylvania legislature.
    The Honorable Tom Price is the Representative from Georgia, 
who is currently serving his third term in the House, 
representing the 6th Congressional District of Georgia. He 
serves on the Education and Labor Committee and is the ranking 
member on our Health, Employment, Labor and Pensions 
Subcommittee and prior to joining the Congress, Congressman 
Price served four terms in the Georgia state senate.
    Welcome to the committee. You have all testified before 
committees before. You know the time constraints, but we look 
forward to your testimony and thank you for participating this 
morning.
    Congressman Fattah, we will begin with you.

 STATEMENT OF HON. CHAKA FATTAH, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF PENNSYLVANIA

    Mr. Fattah. Thank you, Mr. Chairman and to the ranking 
member. It is a pleasure to be back before my old committee and 
see the great work that you are doing. I have a testimony that 
I am going to submit for the record and I just want to comment 
and elaborate on it.
    On yesterday, I had the opportunity to host former Speaker 
Gingrich and Secretary of Education Duncan and others, Reverend 
Sharpton at my alma mater in Philadelphia, a school that a few 
years ago was in the 20th percentile and now is ranking up in 
the 90th percentile in all the state assessment tests.
    And the difference is is that getting teachers in that are 
competent, that understand their field. It is run through a 
mastery, a Chartered School Program that the committee is well 
aware of and Scott Gordon has appeared before the committee.
    So we have proved--these are the same kids in the same 
buildings, but when provided with teachers who know their 
subject that have high expectations for these kids, literally, 
they have moved from the very bottom to the very top of the 
state assessment process.
    Everywhere we look the data is clear. The Arkansas school 
finance case. Roy King filed an affidavit and he says, ``Look, 
I am the entire math faculty for 200 kids in this rural high 
school. I teach calculus, Algebra 1, Algebra 2.''
    He wanted the court to know one thing. His degree was in 
physical education, he hadn't taken a math course since high 
school. He had 20 textbooks for 200 kids, that he had to 
literally do a lottery to see who could take the textbook home, 
and he said they had 4 calculators, of which the majority 
didn't work.
    This is the situation around the country. You are going to 
hear about a report done by the University of Penn professor 
later on in the testimony showing that out-of-field teachers 
across the board, when we get to high-poverty schools, across 
all of our states are aggregated in high-poverty schools.
    Yes, in areas where we have shortages, math and science, 
but also in areas where we don't have teacher shortages, we 
still have out-of-field teachers aggregating in these schools.
    In your home state of California, Ed Trust showed just a 
few years ago, 45,000 out-of-field teachers or unqualified 
teachers, teachers teaching subjects that they didn't major or 
minor in in college.
    In Chicago, the Chicago Sun Times went around school-by-
school and literally found that teachers did better. If you 
were an African American child in the City of Chicago, you were 
23 times more likely to have a teacher who failed all six of 
the basic skill tests on the Illinois teacher exam.
    I mean, so the reality is that wherever we look, the school 
board in Pennsylvania, 50 percent of what the state says are 
unqualified teachers are in one of our 501 school districts. It 
just happens to be in Philadelphia.
    Now, when we say unqualified teachers, it sounds like a 
derogatory term. It really means teachers who are not qualified 
to teach the subjects that they have been assigned to and, in 
all cases, this is not the teacher's fault.
    This is--as my alma mater at Overbrook High School, teacher 
shows up, degree in art history, ready to teach, excited. The 
principal says, ``I need an algebra teacher, go in that room 
and teach algebra.''
    At the end of the school year that teacher, featured on the 
front page of the ``Philadelphia Inquirer'' was, she was 
disturbed. She was frustrated. She quit teaching. The kids 
hadn't learned anything because she wasn't in a position to 
teach algebra. It wasn't her field.
    And this is the problem that we face across the country and 
which because of the nature of the way poor school districts, 
both rural and urban are funded, they are not in a position to 
really compete for teachers with their wealthy suburban 
counterparts, especially in areas where there are shortages, 
math and science and the like because you can make, in the 
Philadelphia instance, almost twice as much in a suburban 
classroom than you can in Philadelphia and teach half as many 
kids.
    So if you have a math degree, you can figure that out 
pretty quickly about where you might be interested in teaching, 
so we have these challenges. The committee has done some 
important work in the Recovery Act moving in this direction.
    What was in No Child Left Behind was great in terms of what 
it required but, as the chairman has mentioned almost no states 
really complied with the responsibility there.
    So it is a pleasure to be here. And now is the time, given 
our new administration, given the secretary's commitment and 
given this committee is determined leadership on this matter 
for us to make effective teaching available to all children.
    And we have to use both what we know now, which is do they 
have content knowledge? Do they have experience and do they 
have a desire to teach and what we are now putting together are 
new measurements of effectiveness in the considerations as we 
go forward.
    Thank you, Mr. Chairman.
    [The statement of Mr. Fattah follows:]

 Prepared Statement of Hon. Chaka Fattah, a Representative in Congress 
                     From the State of Pennsylvania

    Mr. Chairman and members of the House Education and Labor 
Committee, thank you for inviting me here to testify today on the issue 
of teacher quality and the equitable distribution of teacher talent. As 
research has repeatedly demonstrated, high quality teachers are the 
most reliable and powerful contributors to student academic 
achievement. This same research also shows that low-income students and 
students of color are consistently and disproportionately taught by 
teachers with the lowest pre-service predictors of teacher success. I 
would like to focus my remarks today on two issues central to this 
discussion. First, I would like to talk about measures of effectiveness 
and the role of pre-service indicators of quality, including subject 
mastery and experience. Then, I will address the pernicious challenge 
of attracting and retaining the most desirable teachers in high-poverty 
schools.
    I would like to applaud the efforts made by this Committee and our 
Senate colleagues in the American Recovery and Reinvestment Act to 
promote measures of teacher effectiveness, which are tied directly to 
student progress. Surely the objective of all teachers is to see that 
their students master the content they teach and to ensure they are 
prepared to progress to the next grade. Unfortunately, we have relied 
for years on informal and anecdotal assessments of teachers and their 
classroom performance. Parents have discussed amongst themselves which 
3rd grade teacher was best at teaching fractions, and which 6th grade 
students would be best prepared for 7th grade. Likewise, 11th grade 
teachers compare the quality of the 10th grade teachers based on what 
incoming students knew and were able to do.
    As the Department of Education and schools nationwide undertake the 
daunting task of measuring what was ``value-added'' during the school 
year, I wish them luck. This mission will require balancing the 
accuracy of assessments, fairness to teachers, and a system to support 
teacher improvement in identified weaknesses. Any system of measuring 
effectiveness must include teacher participation in development, 
student achievement data, and a means for correcting inevitable flaws 
in any first attempt. The objective of such a system must be to support 
teachers at improving their practice and to build long-term gains in 
student achievement, rather than simply to weed out bad apples.
    As these systems are being developed, however, we must not abandon 
current proxy measures of teacher quality. While teacher content 
expertise, preparation and experience do not correlate in all cases 
with student learning, they are the best indicators available to 
predict classroom success. Rigorous evaluations of Teach For America 
have shown that those teachers, overwhelmingly inexperienced and 
without school of education credentials, have dramatic effects on 
student achievement. Students of these teachers learn at least as much 
as students of better credentialed and more experienced peers. This 
said, Teach For America teachers are the exception rather than the rule 
when considering teacher experience and effectiveness. Experts agree 
almost universally that the quality of instruction improves over time, 
and that it takes at least three years before teachers begin to master 
the art and science of teaching. Teacher experience is also a broader 
indicator of school stability and management. Schools with more 
experienced teachers are better able to support long-term growth and to 
tackle long-standing challenges. While experience should not replace 
effectiveness as the measure of teacher quality, it is a worthwhile 
proxy until effectiveness measures have been put in place and tested.
    In addition to experience, we must consider teacher content 
mastery. We cannot expect students to reach high levels of subject 
understanding if the instructor him/herself lacks that very 
understanding. Naturally, this issue arises more frequently in 
secondary education. In order to prepare students for college-level 
science, technology, engineering and math, we must provide educators 
who have demonstrated mastery of these subjects. Too often, high-
poverty schools are staffed by teachers who attended the least 
selective and rigorous post-secondary institutions, who achieved the 
lowest scores on certification exams and who failed to major or minor 
in the subject they are assigned to teach. There are certainly teachers 
for whom any of these indicators of content mastery (college 
selectivity, exam scores, major/minor) bears no relation to their 
effectiveness as instructors in the subject. Once again, a fair and 
reliable system for measuring teacher effectiveness will replace the 
need for these proxy measures.
    Establishing and reporting pre-service proxy measures of teacher 
quality and reliable measures of teacher effectiveness will only get us 
halfway to our goal of providing every child a high-quality, effective 
teacher. For many (if not most) schools, this reporting will 
demonstrate what we already know. Most teachers in most schools are 
doing an excellent job of teaching their students and preparing them 
for the next grade. Nevertheless, we are also confident that this 
widespread and consistent reporting will also show (as previous 
research has done) that low-income students and students of color are 
disproportionately taught by lower-quality teachers. This is the case 
in both the remedial tracks of lower-poverty schools, and across the 
board in higher-poverty schools.
    One of the more admirable provisions of the No Child Left Behind 
Act was a requirement in Sec. 1111(b)(8)(C) that state plans include, 
``steps that the State educational agency will take to ensure that poor 
and minority children are not taught at higher rates than other 
children by inexperienced, unqualified, or out-of-field teachers, and 
the measures that the State educational agency will use to evaluate and 
publicly report the progress of the State educational agency with 
respect to such steps.'' Though this provision has been virtually 
unenforced since its inception, I was pleased that this Committee 
sought to remedy that problem in the American Recovery and Reinvestment 
Act. The Department clearly has the authority it needs to address the 
challenge of inequitable distribution of teacher talent.
    Addressing this problem will require the engagement of schools, 
districts, collective bargaining units, teachers and state and federal 
policymakers. If we are to provide low-income students the best 
teachers, we must make their schools and classrooms desirable places to 
be. While we could simply mandate the redistribution of teachers from 
the federal Department of Education, this would be absurd and 
ineffective. Merely assigning a teacher to teach in a dysfunctional 
school with ineffective leadership, community support and resources 
will not solve the problem. We must develop better ways of recruiting 
and retaining good school leadership, providing support to struggling 
teachers, and offering compensation and working conditions commensurate 
with the importance of the task we have asked these teachers to 
undertake.
    If we are to build and develop a strong 21st century teaching 
workforce, we must make greater efforts to attract people of color, 
especially men, into education. Simply relying on the status quo 
ignores the increasing diversity of our classrooms and fails to 
capitalize on the talent and dedication of diverse young college 
graduates. In order to build a pipeline of effective educators with 
diverse roots, we must instill in young children, through example, the 
sense that teaching is a possible career path for everyone. We must 
recruit students early in their college careers by providing assistance 
to those who face disproportionate challenges in funding their 
education. As one example, the ``Call Me Mister'' Program, a successful 
model for bringing more African American men into teaching, has 
recently been expanded to Philadelphia in a partnership with Cheyney 
University. In addition, we must provide the compensation, working 
conditions and professional recognition and development necessary to 
attract and retain professionals who would otherwise pursue different 
paths. As racial barriers to entry fall in many fields, it is important 
that the field of education become more competitive and proactive in 
ensuring that children are educated by teachers who are as diverse as 
their classmates.
    As I have consistently argued before this Committee and elsewhere, 
we must make better strides in ensuring that all schools have resources 
adequate to teach students to high standards. High-performing teachers 
consistently flock to high-poverty schools with good leadership, 
motivated students and adequate support. While students in high-poverty 
schools often present teachers the greatest professional challenges, 
they also offer the greatest rewards. As we begin to measure teacher 
effectiveness, I believe that contrary to the assumptions of many, we 
will see teachers can be more effective at moving students ahead years 
at a time when they start with such serious deficits. It is likely that 
teachers of the highest achieving students will face the greatest 
challenges increasing student achievement as significantly as is 
expected.
    Ultimately, we must invest in teachers, administrators and school 
systems the idea that low-income students and students of color hold 
the same potential as their higher-income and White peers and that they 
are worthy of the resources we know they need to be successful. Now is 
the time to recognize those amazing educators who are moving their 
students ahead at a stunning pace and to support more teachers to take 
up this challenge. Our students should expect and certainly deserve 
nothing less. I appreciate the attention of this Committee and look 
forward to working with you to advance this critical goal.
                                 ______
                                 
    Chairman Miller. Congressman Price.

STATEMENT OF HON. TOM PRICE, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF GEORGIA

    Mr. Price. Thank you, Mr. Chairman.
    Chairman Miller. Welcome back.
    Mr. Price. Thank you so much, Mr. Chairman, Mr. Kline and 
all my colleagues on the committee. What a great privilege and 
honor it is to testify before the committee today. I want to 
thank each of you all for your wonderfully diligent work as 
well on the committee.
    I sincerely believe that this is one of the areas where 
there is real opportunity for bipartisan work. We all have the 
same goal as Representative Fattah mentioned and it is an area 
that I think we can embrace a positive solution that will get 
the job done.
    The month of September marks the beginning of the school 
year for many communities across our land and for the next year 
the one person that will have more influence and input, other 
than a set of parents, into a child's development will be a 
teacher.
    For those with a young child, who is entering school for 
the very first time, you know that these are the most crucial 
years for learning and for growth and it goes without saying 
that teacher quality has proven to be one of the most important 
school-related factors influencing student achievement.
    Now, the goal of this particular hearing is to examine the 
progress states and localities have made toward ensuring every 
child is taught by an effective teacher. In order to accomplish 
this, some have mistakenly believed that we can only realize a 
type of equal distribution through governmental mandates.
    In fact, to the contrary, mandates combined with tenure 
rules and collective bargaining agreements make this more 
difficult. Such a framework creates rigidity in labor markets 
and puts up more hurdles and barricades. It is why Republicans 
in the House of Representatives have rejected this approach and 
embraced a much different path, a more positive path.
    For the third Congress in a row Republicans, on this 
committee, are introducing the Teacher Incentive Fund Act, a 
measure that is designed to place more high-quality teachers in 
the most hard-to-staff localities through implementation of 
performance-based compensation systems.
    The Teacher Incentive Fund permits states and local school 
districts to apply for federal grants, in order to develop, 
implement or improve performance-based compensation systems for 
teachers and principals. These systems primarily differentiate 
compensation on the basis of increases in student achievement.
    Educators may be paid bonuses and increased salaries and 
they may also be rewarded of staffing high-need subject areas, 
fulfilling additional job functions or demonstrating superior 
teaching skills. The Teacher Incentive Fund does not operate 
through a series of mandates, but rather it relies on granting 
as much flexibility as possible to local school districts to 
create their own, unique systems.
    It rejects a one-size-fits-all approach from Washington and 
places local schools and districts in a position to succeed 
without permanent interference from Congress and it is why a 
local school district may only receive a grant one time, with a 
decreasing federal match, because we want localities to own and 
administer these systems over the long-term.
    Of course, none of the success would be possible without 
local buy-in. And the success of the Teacher Incentive Fund, a 
currently unauthorized program which has received support from 
two presidents, is already well-documented.
    The testimony before this committee, just last Congress, 
from Dr. Joseph Burke the Superintendent of Schools in 
Springfield, Massachusetts said, ``The Teacher Incentive Fund 
creates the opportunity for highly motivated and courageous 
school reformers to change tightly held traditions in 
education.
    ``In fact, the Teacher Incentive Fund has served as a 
catalyst for reform in the Springfield Public Schools. Working 
in collaboration with our local teachers' union, we have 
created a way to measure teacher performance based on a 
teacher's ability to improve student achievement.''
    So creating opportunities and incentives and rewards via 
traditional market forces, not mandates, will lower teacher 
attrition rates and make teaching jobs in hard-to-staff schools 
much more attractive. If we want every child to be taught by a 
highly-effective teacher, let us create the mechanisms to do so 
through the Teacher Incentive Fund.
    I thank the Chairman and members of the committee and yield 
back.
    [The statement of Mr. Price follows:]

Prepared Statement of Hon. Tom Price, a Representative in Congress From 
                          the State of Georgia

    Good morning and thank you, Chairman Miller and Ranking Member 
Kline.
    The month of September marks the beginning of the school year for 
many localities across the country. And for the next year, the one 
person who will have more influence and input other than a set of 
parents into a child's development will be a teacher.
    For those with a young one who is entering school for the very 
first time, you know these are the most crucial years for learning and 
growth. And it goes without saying that teacher quality has proven to 
be one of the most important school-related factors influencing student 
achievement.
    Now, the goal of this particular hearing is to examine the progress 
states and localities have made toward ensuring every child is taught 
by an effective teacher. In order to accomplish this, some have 
mistakenly believed that we can only realize a type of equal 
distribution through government mandates. In fact to the contrary, 
mandates, combined with tenure rules and collective bargaining 
agreements, make this more difficult. Such a framework creates rigidity 
in labor markets and puts up more hurdles and barricades.
    It is why Republicans in the House of Representatives have rejected 
this approach and embraced a much different path. For the third 
Congress in a row, Republicans on this Committee are introducing the 
Teacher Incentive Fund Act, a measure designed to place more high 
quality teachers in the most hard to staff localities through the 
implementation of performance-based compensation systems.
    The Teacher Incentive Fund permits states and local school 
districts to apply for federal grants in order to develop, implement or 
improve performance-based compensation systems for teachers and 
principals. These systems primarily differentiate compensation on the 
basis of increases in student achievement. Educators may be paid 
bonuses and increased salaries, and they may also be rewarded for 
staffing high-need subject areas, fulfilling additional job functions, 
or demonstrating superior teaching skills.
    The Teacher Incentive Fund does not operate through a series of 
mandates, but rather it relies on granting as much flexibility as 
possible to local school districts to create their own unique systems. 
It rejects a one-size-fits-all approach from Washington and places 
localities in a position to succeed without permanent interference from 
Congress. And it is why a local school district may only receive a 
grant one time with a decreasing federal match--we want localities to 
own and administer these systems over the long-term!
    Of course, none of the success would be possible without local buy 
in. And, the success of the Teacher Incentive Fund, a currently 
unauthorized program which has received support from two Presidents, is 
already well-documented. Just take the testimony before this Committee 
last Congress from Dr. Joseph Burke, the Superintendent of Schools in 
Springfield, Massachusetts:
    The Teacher Incentive Fund creates the opportunity for highly 
motivated and courageous school reformers to change tightly held 
traditions in education. In fact, the Teacher Incentive Fund has served 
as a catalyst for reform in the Springfield Public Schools. Working in 
collaboration with our local teachers union, we have created a way to 
measure teacher performance based on a teacher's ability to improve 
student achievement.
    Creating opportunities, incentives and rewards via traditional 
market forces--not mandates--will lower teacher attrition rates and 
make teaching jobs in hard to staff schools more attractive. If we want 
every child taught by a highly effective teacher, let's create the 
mechanisms to do so through the Teacher Incentive Fund.
    Thank you.
                                 ______
                                 
    Chairman Miller. Well, thank you very much to both of you 
and thank you again for your history of involvement on this 
issue. I just sort of have two quick questions. I know you have 
other committees to go to.
    But Chaka, I think you make--Congressman Fattah, you make 
an important point that, you know, we tend to look at this as 
an issue of sort of disservice, if you will, to the student, 
but it is also to the teacher. You know, I have personal 
friends who have been put in this situation, that were informed 
over the summer because of circumstances, in some cases beyond 
the school district's control.
    But what they also do, in many instances, is pick the best 
teacher who may be out-of-field and tell that person you have 
got to get ready because in 6 weeks you are going to be 
teaching geometry or something out of your field.
    And that person, if you know them personally and you listen 
to them throughout the school year, they are doing the very 
best they can but they are not happy campers because they know 
the pressure that they are operating under to try to deliver 
that course and the content of the course the best they can, 
but that is not what they do, if you will, for a living.
    But they were drafted, they had little or no choice, in 
many instances. I mean they do have choices, but they step up, 
but it also rebounds back onto that teacher, those working 
conditions and the stress that we put on them in that 
situation.
    And I think that is an important point that this is a two-
way street and both ends can end up sort of losing out on that 
decision.
    Congressman Price, I appreciate your support for the 
Teacher Incentive Fund and you are pushing it as hard as you 
have. I think, you know, what we have seen in the value there 
is that in most instances, teachers and school districts and in 
many instances the unions come together and the first step is 
to say we need some money to figure out how to make this work 
for us, not for the people down the road, but for us.
    And I think that is starting to demonstrate that part of 
the success is that a lot of the acrimony is taken out of that. 
That hasn't happened in every instance, but I think we are 
seeing it more often than not, so I think as this has evolved, 
as we have struggled to keep it on the books, we are seeing 
that the attitudes are changing and people believe that they 
can construct a more effective workplace for themselves and 
clearly for the students.
    So I just want to thank you both for your leadership.
    Congressman Fattah?
    Mr. Fattah. Mr. Chairman, the thing I want to emphasize the 
most is that what we know in the research, without 
contradiction, is that if a kid gets a highly qualified teacher 
that there is no other circumstances that are going to have a, 
you know, whether we talk about socioeconomic circumstances, 
all of that held to the side, they will achieve at grade level, 
so what we need to do is be focused on that.
    And you know, we look at our international competitors. 
China just announced on yesterday, they have cut the number of 
unqualified teachers by more than half. It is a national 
imperative that they want to get qualified teachers in their 
classrooms.
    Sweden has just decided what we allow under all of our 
state laws is well if you can't produce a teacher who can teach 
science, so you apply for a waiver and then you get this waiver 
and then you get this waiver and then it is--you know, sort of 
you allow the teacher who doesn't have the qualifications to go 
into that classroom. They are going to disallow this whole 
process.
    So we are in a competition economically that requires us to 
get these children an education and I just want to re-
emphasize, you know, I had a--Speaker Gingrich out yesterday in 
a school where the kids, the same kids, who were scoring in the 
20th percentile are now 85 plus percentile, almost 90 percent 
in Philadelphia.
    And it is a matter of whether we are determined to get this 
done or not and, if we are, then we can--you know, we don't 
have to have this disparate impact throughout our country. And 
this happens in rural and urban school districts where these 
children are being confronted everyday with teachers who may 
care about them.
    I mean Roy King's affidavit, he said he loved these kids, 
he just was in no position to teach them math, you know, at 
all. And the fact that we didn't want to have those children, 
you know, compete for all of the prizes in life, college and 
jobs and everything, based on an education in which not that 
they were inadequate, but that we provided inadequate 
instruction.
    And so, you know, I heard my colleagues say, you know, we 
want to have this local flexibility and so on. That is 
wonderful, except that is the system in which we have arrived 
at, at this moment, which provides this disservice throughout 
our country.
    So we have to be cautious as we go forward, especially as 
we compete internationally that we don't continue to do the 
same thing expecting to have a different result.
    Chairman Miller. Thank you.
    Mr. Kline?
    Mr. Price. If I may respond for a moment----
    Chairman Miller. Oh, excuse me, excuse me.
    Mr. Price. And I want to we were almost about to have a 
love fest, but the goal is the same without a doubt. It is 
obviously to have a highly-qualified teacher in every subject 
in every classroom. The question is how do you get there and 
the fact of the matter is that it isn't local flexibility that 
has caused the problem.
    It is that we either have mandated things from on high that 
requires teachers to do certain things that don't necessarily 
result in higher outcomes and performance by the student. Or we 
haven't provided appropriate incentives for teachers to go into 
either the schools that are most challenging or the courses 
that are the most challenging.
    So that is why we would suggest that a different way, a 
positive way, a way that would result in higher performance by 
students and greater reward to the teachers and the 
administrators who are gaining that greater performance is 
through a system of incentives that we could certainly open up 
here through the Teacher Incentive Fund and other programs.
    Mr. Kline. Thank you, Mr. Chairman, I want to thank both of 
the witnesses for being here and for not only your interest but 
your passion. I think that this is one of those times when 
every one of us absolutely agree on the outcome that we are 
trying to get to.
    We really do want highly qualified, effective teachers 
teaching our children. And we have been focusing on the 
children with greatest need. We are going to have some 
differences on how we get there, but I am actually fairly 
optimistic that we can work together in a pretty bipartisan 
way.
    Clearly there are differences between school districts in 
the Twin Cities in Minnesota or in Chicago than in Le Center, 
Minnesota, where they are--it is a very small town, just very 
difficult to get a teacher with a degree in every subject to 
show up.
    So I think we have to recognize that there are differences 
and we have to allow, I believe, for some flexibility and so it 
will be interesting how we come together to try to reach this 
common goal. Again, I want to thank you for being here and the 
chairman for holding this hearing and I am really looking 
forward to the rest of the hearing. I yield back.
    Chairman Miller. Thank you. Are there other members that 
have questions for our panel, burning question, can't wait 
until you see them on the floor? No questions.
    Thank you very much. Thank you for your participation, and 
thank you for your history of involvement here.
    If our second panel would come forward now? Our second 
panel will be made up of Layla Avila, who is a vice president 
of the Teaching Fellows Program at The New Teacher Project, a 
national nonprofit that works to place outstanding teachers in 
high-need schools, where she helps school districts hire 
approximately 3,000 high quality teachers a year.
    Prior to joining The New Teacher Project, Ms. Avila taught 
the bilingual and ESL elementary school students and served on 
a leadership team at August A. Mayo Elementary School in 
Compton, California. She also worked as an analyst to the White 
House initiative on educational excellence for Hispanic 
Americans.
    Dr. Linda Murray is the interim executive director, 
Superintendent Residence Education--for Education Trust West. 
Ms. Murray serves on the California's P-16 Commission, where it 
recently appointed the American Diploma Project Alignment Team 
for the state of California.
    Prior to joining Ed Trust, Ms. Murray was a superintendent 
at San Jose public schools where she led school districts' 
effort to become the first urban school district in the state 
of California to raise graduation requirements to meet entrance 
requirements to post secondary institutions in the state.
    Mr. Dennis Van Roekel is the president of the National 
Education Association and is a 23-year veteran of teaching. 
During his tenure at president of the NEA, he helped produce 
the very recent report entitled ``Children of Poverty Deserve 
Great Teachers,'' and announced the launch of a brand new 
campaign by NEA to increase teacher effectiveness in high-needs 
schools.
    Mr. Van Roekel has also served as many capacities at the 
NEA including vice president and secretary treasury prior to 
taking the leadership roles at NEA. Mr. Van Roekel taught in 
math in Phoenix, Arizona.
    Dr. Marguerite Roza is a research associate professor of 
the University of Washington's College of Education where her 
research focuses on education finance including the inequities 
and inefficiencies in education spending at all levels.
    Dr. Roza has written extensively on teacher equity 
problems, comparability and most recently a report on how 
seniority-based layoffs will exacerbate the job loss in public 
education. Dr. Roza previously served as a lieutenant in the 
United States Navy and taught thermodynamics at the Nuclear 
Power School.
    Latanya Daniels is the associate principal of Edison High 
School in Minneapolis, Minnesota. Ms. Edison participated, 
excuse me, Edison High School participates in a teacher and 
student advancement program, which aims to attract, retain and 
develop talented people in teaching profession.
    Ms. Daniels has previously taught middle school math for 6 
years and served as Math Department Chair. While teaching, Ms. 
Daniels completed her education specialist degree with a 
license in administration. Ms. Daniels is featured in ``Who's 
Who Among America's Teachers'' and ``The Women's Press.''
    Dr. Frederick Hess is the resident scholar and director of 
Education Policy Studies and the American Enterprise Institute 
for Public Policy Research. Dr. Hess is author of several books 
including ``Common Sense School Reform and Revolution at the 
Margins.''
    And prior to joining the American Enterprise Institute, Dr. 
Hess taught high school social studies and served as a 
professor of Education Policy at Georgetown, Harvard, Rice and 
University of Virginia and the University of Pennsylvania. Wow, 
glad you found time to drop by here. [Laughter.]
    Thank you, we look forward to all of your testimony. As you 
know, when you begin testifying, a green light will go on. You 
will have 5 minutes to summarize your written testimony. Your 
written testimony will be placed in the record of this hearing 
in its entirety.
    Please testify in the manner in which you are most 
comfortable. An orange light will go on, which suggests you 
have about a minute to summarize and to finish your testimony. 
And then a red light will go on, which your time has ended and 
then when the panel is done, we will come back to you with 
questions.
    Ms. Avila, welcome.

   STATEMENT OF LAYLA AVILA, VICE PRESIDENT OF THE TEACHING 
           FELLOWS PROGRAMS, THE NEW TEACHER PROJECT

    Ms. Avila. Good morning, everyone. My name is Layla Avila 
and I am the Vice President of The New Teacher Project. We are 
a national nonprofit dedicated to ending the injustice of 
educational inequality by ensuring that poor and minority kids 
in this country get excellent teachers.
    The New Teacher Project was started in 1997 by teachers in 
order to help school districts and states solve their teacher 
quality challenges. Thank you so much for giving me the 
opportunity to address the committee today.
    We all know from our own lives and we all know from the 
growing body of research that teachers have a greater impact on 
educational learning, on outcomes, much more so than a lot of 
other school factors.
    The New Teacher Project helps school districts with teacher 
effectiveness by developing scalable solutions that will allow 
them to recruit and certify teachers. But also to help them 
dismantle some of the policy barriers that currently prevent 
them from providing poor minority kids in this country the very 
best teachers.
    Today we work with some of the highest need school 
districts across this country, school districts like the 
Oakland Unified School District, like the Recovery School 
District in New Orleans, in Chicago and New York City.
    In the last 12 years, The New Teacher Project has recruited 
and trained more than 33,000 teachers across this country. 
These are teachers that have had an impact on an estimated 4.2 
million students. But today I also want to bring my own 
personal experience in addition to my professional experience.
    I bring the experience of growing up in a poor family, from 
an immigrant family and being raised by a single mother who was 
also disabled. We lived in East Los Angeles, California. And 
growing up I remember hearing that not much was to be expected 
of me because I didn't have a father and because I was a girl.
    And in an area where the neighborhood schools see 
educational outcomes where as many as one out of two kids drop 
out of high school, the odds were really stacked against me. 
But despite very challenging circumstances, I was able to 
attend both Columbia and Harvard Universities.
    And I have no doubt in my mind that I owe my success to a 
small group of highly-effective teachers like Michelle Simbers, 
who when I was in the sixth grade was already teaching me 
algebra. And like Mr. Mitchell, who when I was 13 years old 
said to me, I am going to send you to a prep school and by 
doing so, you are going to have your pick as to which college 
you want to attend.
    I am certain that these teachers put me on a different path 
in life. And the problem is that my story is really the 
exception. I was one of the lucky ones as I often hear people 
say. And in a system where we treat teachers like 
interchangeable parts, there are millions of kids across this 
country who don't get teachers that are going to give them a 
fair shot at a brighter future.
    And we all know that teachers matter. We all know that they 
change lives every single day. We know that they have the power 
to raise kids like me out of poverty. And so based on our 
recent report, the ``Widget Effect,'' we asked ourselves the 
following question.
    If teachers are so important than why don't we act like it? 
In the ``Widget Effect'' we found that the underlying reason is 
because we treat teachers like widgets, like one teacher is 
just as good as another, even though all the research tells us 
just the opposite.
    In this report, we used methodology that is slightly 
different than what might you see in another educational 
report. We actually assembled an advisory panel of more than 80 
stakeholders across four different school districts--I am 
sorry, four different states. And we surveyed more than 12,000 
teachers.
    We reviewed more than 40,000 educational evaluation reports 
and we did this in 12 school districts. Now the results were 
absolutely astounding. The results were the following, number 
one, all teachers were either rated as good or great. Less than 
1 percent of teachers across these 12 school districts received 
an unsatisfactory rating. Even though year after year, there 
were students who were not meeting even basic academic 
standards.
    Number two, excellence is going unrecognized in our 
schools. When you have a system where you are rating everyone 
either good or great, you are failing to identify your truly 
outstanding teachers. In fact, we treat our outstanding 
teachers just like we treat our ineffective teachers.
    Number three, the professional development that we 
currently offer is not very useful. Three out of four teachers 
said that they weren't given any meaningful feedback to really 
improve their performance. Number four, novice teachers are 
ignored.
    Number five, poor performance is being unaddressed right 
now. In half of the districts that we studied, not a single 
district had dismissed a tenured teacher in the last five 
years. And this is even though the majority of teachers said 
that there was a poor performing tenured teacher in their 
school right now.
    Now, we know what it takes to change child's lives. We know 
that we need to number one, create evaluations where we are 
truly differentiating our great teachers from our good, our 
good from our fair and our fair from our poor.
    We need to create fair, accurate and evaluations that 
really are rigorous. We need to ensure that teacher 
effectiveness actually matters by making sure that the data 
that we collect is actually informing practice, like how we 
train, who we retain and how we pay teachers. And we need to 
address poor performance because the stakes are too high not 
to.
    So in closing, we cannot provide effective teachers to each 
student if we don't know who our most effective teachers are. I 
urge you to implement our recommendations as swiftly and to the 
greatest extent possible. Thank you.
    [The statement of Ms. Avila follows:]

           Prepared Statement of Layla Avila, Vice President,
                        the New Teacher Project

    Good morning. My name is Layla Avila. I am Vice President of The 
New Teacher Project, a national nonprofit dedicated to ending the 
injustice of educational inequality by ensuring that poor and minority 
students get outstanding teachers. The New Teacher Project was founded 
by teachers in 1997 to help school districts and states solve their 
teacher quality challenges.
    Thank you for the opportunity to address the committee about how to 
ensure ALL children have highly effective teachers. As we all know from 
our own lives as well as a growing body of research, teachers have a 
greater impact on student learning than any other school factor.
    The New Teacher Project helps school districts with issues of 
teacher effectiveness by developing scalable solutions: we recruit and 
certify teachers and we design reforms for policies that prevent school 
districts from giving poor and minority children access to great 
teachers.
    Today, we work with some of the highest need districts across the 
country. We find and train great teachers for schools in Bedford-
Stuyvesant in Brooklyn; West Oakland, California; Englewood in Chicago; 
the Ninth Ward of New Orleans, and many other struggling communities.
    In the last 12 years, we have recruited or trained more than 33,000 
teachers, who have touched the lives of an estimated 4.2 million 
students.
    But I also bring my own experience today: my experience as a 
daughter of immigrants who grew up poor and was raised by a single, 
disabled mother in East Los Angeles.
    Growing up, I remember hearing that not much should be expected of 
me as I didn't have a father, and I was a girl.
    And if you look at outcomes in the local schools, the odds were 
stacked against me; in my neighborhood anywhere from 1 in 3 to 1 in 2 
students dropped out of high school
    Despite very challenging circumstances, I was able to attend both 
Columbia and Harvard. And I have absolutely no doubt that I owe my 
success to a succession of highly-effective teachers. They include Ms. 
Simmers, who taught me Algebra in the 6th grade and to Mr. Mitchell, 
who told me at age 13 that I would attend a prep school and have my 
pick of colleges.
    My teachers put me on a different path in life. They inspired me to 
become a teacher myself, in Compton, CA, and then to dedicate my career 
to education.
    The problem is that my story is an exception. I was one of the 
lucky ones.
    In a system where we treat teachers like interchangeable parts, 
millions of kids do not get teachers who can give them a fair shot at a 
better future. And it shouldn't be that way. There should be tens of 
thousands of students like me.
    We all know how much teachers matter. They lift kids like me out of 
poverty. They change lives every day. They are the subject of tributes 
and speeches, and testimony like this.
    But as our recent report, The Widget Effect, showed, our actions do 
not match our words. In school systems across the country, we are 
largely indifferent to teacher effectiveness.
    With The Widget Effect, we asked this question: If we believe 
teachers are so important, why don't we act like it?
    The underlying reason is because teachers are treated like widgets, 
as though one teacher is just as good as another--even though all the 
research tells us just the opposite.
    The methodology for this project was unlike almost any other 
educational report. We created an advisory panel of almost 80 
stakeholders across four states, including 25 union leaders. We 
surveyed over 15,000 teachers and looked at 40,000 evaluation records 
in 12 school districts.
    The results were astounding:
    <bullet> All teachers were rated as good or great: less than 1% of 
teachers were rated as unsatisfactory even when, year after year, 
students failed to meet basic academic standards and schools entered 
into program improvement.
    <bullet> Excellence goes unrecognized: By rating all teachers 
``good'' or ``great,'' we fail to recognize our truly outstanding 
teachers; in fact, we treat them no differently than we treat the most 
ineffective teachers.
    <bullet> Professional development is inadequate: Almost 3 out of 4 
teachers didn't receive any meaningful feedback to improve their 
performance.
    <bullet> Novice teachers are neglected, and tenure becomes a 
meaningless achievement.
    <bullet> Poor performance goes unaddressed: Half of the districts 
studied did not dismiss a single tenured teacher for poor performance 
in FIVE years, even though a majority of teachers say there is a poorly 
performing tenured teacher in their school RIGHT NOW.
    When our report was released, it was praised by an extraordinary 
range of voices, from the Secretary of Education to the National 
Education Association to the New York Times Editorial board to a number 
of sitting governors. We believe that for such groups to agree, the 
report must be saying something relevant.
    I owe my success to a small group of excellent teachers. I'm proof 
of how much teachers matter. So I find it shameful that we treat them 
like they don't matter, like widgets. If we care about the success of 
our students, we have to start caring about the success of their 
teachers. And that means acknowledging the real differences between 
teachers in their effectiveness, and taking action to ensure that all 
children get the same kinds of teachers that I did.
    We know what it takes to change a child's chances. Let's:
    <bullet> Create evaluations that differentiate great teaching from 
good, good from fair, and fair from poor. And use student growth as a 
critical component.
    <bullet> Ensure evaluations are done fairly and with accuracy and 
rigor
    <bullet> Make teacher effectiveness matter; the data should drive 
decisions that affect the quality of the teacher workforce, from how 
teachers are trained to how they are developed, paid and retained.
    <bullet> Address poor performance, because the stakes are too high 
to allow ineffective teaching to hold back class after class of 
students.
    In closing, we cannot provide effective teachers to each student if 
we cannot determine who our most effective teachers are. As long as the 
widget effect persists, poor and minority children will continue to get 
the short end of the stick in terms of access to excellent instruction, 
and kids like me will be celebrated as rare exceptions, not the norm. 
It doesn't have to be that way. I urge the committee to move 
aggressively to ensure that the recommendations in our report are 
implemented as widely as possible in the shortest timeframe possible.
                                 ______
                                 
    Chairman Miller. Dr. Murray?

   STATEMENT OF LINDA MURRAY, INTERIM EXECUTIVE DIRECTOR AND 
       SUPERINTENDENT IN RESIDENCE, EDUCATION TRUST-WEST

    Ms. Murray. Chairman Miller, members of the committee, 
thank you very much for providing me with the opportunity to 
talk with you this morning about the importance of strong 
teaching to the efforts to boost achievement and close 
achievement gaps.
    My name is Linda Murray, and I currently serve as the 
Executive Director of the Education Trust West in Oakland, 
California. Prior to joining the Trust, I was for 11 years, 
superintendent of schools in San Jose, California and before 
that, an associate superintendent in Broward County, Florida. 
And it is my experience as a district leader that convinced me 
years ago that there is nothing more important to our students 
than strong teachers.
    The San Jose Unified School District is an urban district 
of 32,000 students, 51 percent Latino, 45 percent come from low 
income families, and there are approximately 1,800 teachers in 
that district.
    When I first got there in 1993, there was a long history of 
distrust and even outright hostility between the central office 
and the teachers' union. I saw quickly that any real progress 
on improving student achievement and closing gaps depended on 
reversing the destructive relationship that paralyzed us and 
hurt our students.
    Over time and with lots of effort from all parties, we 
became partners in improving student learning and our students 
reaped the benefits. Together we raised expectations and 
substantially narrowed gaps.
    San Jose Unified became the first district in California to 
set the goal of college readiness for all students and to 
require all students, even the poorest, to take the toughest 
high school classes, and our teachers were with us every step 
along the way.
    So I can tell you from firsthand experience that it is 
possible to work with teachers' unions to improve outcomes for 
students. But I can also tell you that getting strong teachers 
to the teachers who desperately need them is so important that 
we have got to do it regardless of whether union leaders, or 
for that matter district leaders, drag their feet.
    This is where you come in because done right federal law 
can provide the excuse that education leaders need to question 
the longstanding practice of assigning our weakest teachers to 
our poorest children and the leverage that we need to act on 
patterns of unfairness.
    Nothing is more important to closing gaps than getting more 
of our most effective teachers teaching our most vulnerable 
students. Doing this right will require replacing outmoded 
methods of teacher evaluation with evaluation methods that draw 
upon longitudinal data systems that provide linkages between 
teachers and the growth they get from the students they teach.
    And now thanks to the push from Washington, we are building 
those systems state by state; not fast enough but we are 
building them. And yet many states can't yet or simply won't 
include teacher-student longitudinal data to evaluate much less 
assign, compensate, tenure or remove teachers.
    And my state, California is certainly no example of 
vigilance around this matter. Teacher evaluation systems are 
weak and have nothing to do with the effectiveness in producing 
student learning. In fact, I fear we may be a poster child for 
irresponsibility in this regard.
    With a legislated firewall between the student and teacher 
data systems, Secretary Duncan has seen our firewall for what 
it is, an intentional barrier to better serving our students, 
and he has put tremendous pressure on the state to tear the 
wall down. That pressure needs to continue.
    So even as we continue this pressure to build good, 
longitudinal data systems and begin to evaluate teachers based 
on student learning, we cannot abandon research-based measures 
of teacher quality, especially experience and content knowledge 
when determining whether schools enrolling our most vulnerable 
students are getting the teachers they most need.
    You knew this when you crafted the requirement contained in 
both NCLB and ARRA that low income students and students of 
color must not be taught at higher rates than other students by 
out-of-field, inexperienced, uncertified teachers.
    The measures you chose show a strong connection to outcomes 
for students. Value added research consistently finds that 
teacher effectiveness improves with the first few years of 
experience and experience enhances teacher productivity across 
grades. And not surprisingly studies also consistently suggest 
that content knowledge matters, particularly in math.
    So while not perfect, these research based proxies provide 
strong basis for public policy. But despite this clear evidence 
and despite federal law, most school systems continually assign 
disproportionate number of rookies along with disproportionate 
number of out-of-field teachers to the very children who are 
most dependent on their teachers for learning. And the result 
is instead of catching them up, students fall further and 
further behind.
    In short, right now and in fact for years, we have much 
information about inequities in teacher assignments. We can't 
wait a year, a month, a week, a moment longer to use what 
information we have to begin to right the wrong that we have 
done for so many years to our students.
    And to do that we don't need new laws or new investments. 
We need this administration to enforce the laws you already 
passed so state and local educational leaders have the leverage 
they need to move in the right direction right now. Thank you.
    [The statement of Ms. Murray follows:]

        Prepared Statement of Linda Murray, Executive Director,
                          Education Trust-West

    Chairman Miller, members of the committee: Thank you very much for 
providing me with the opportunity to talk with you this morning about 
the importance of strong teaching to our effort to boost student 
achievement and close achievement gaps.
    My name is Linda Murray. Currently, I am serving as Executive 
Director of the Education Trust--West in Oakland, California. Prior to 
joining the Trust, I was--for eleven years--superintendent of schools 
in San Jose, California (and, before that, assistant superintendent in 
Broward County, Florida). It's my experience as a district leader that 
convinced me years ago that there is nothing more important to our 
students than strong teachers.
    The San Jose Unified School District is an urban district of 32,000 
students. Fifty one percent are Latino and 45 percent come from low-
income families. There are approximately 1,800 teachers in the 
district.
    When I began my tenure as superintendent in 1993, there was a long 
history of distrust--even outright hostility--between the central 
office and the teacher's union. I saw quickly that any real progress on 
improving student achievement and closing achievement gaps depended on 
reversing the destructive relationship that paralyzed us and hurt our 
students.
    Over time and with lots of effort from all parties, we became 
partners in improving student learning and our students reaped the 
benefits. Together, we raised expectations and substantially narrowed 
achievement gaps.
    San Jose Unified became the first district in California to set the 
goal of college readiness for all students and to require all 
students--even the poorest--to take the toughest high school classes.
    Our teachers were with us every step of the way.
    So I can say to you from first-hand experience that it is possible 
to work with teachers' unions to improve outcomes for students.
    But I can also tell you that getting strong teachers to the 
children who desperately need them is so important that we've got to do 
it even when local union leaders (or, for that matter, local 
administrators) drag their feet.
    This is where you come in. Because, done right, federal law can 
provide the excuse that education leaders need to question the 
longstanding practice of assigning our weakest teachers to the poorest 
children--and the leverage that we need to change a pattern of 
unfairness that, frankly, common decency and American devotion to the 
ideal of a level playing field should have prompted us to act on a long 
time ago.
    Nothing is more important to closing longstanding achievement gaps 
than getting more of our most effective teachers teaching our most 
vulnerable students. Doing this right will require replacing outmoded 
methods of teacher evaluation with evaluation systems that draw on 
longitudinal data that link teachers and the growth of the students 
they teach. And now--thanks in part to a push from Washington--we are 
building those systems, state by state.
    But many states either can't yet--or simply won't--include teacher/
student longitudinal data to evaluate--much less to assign, compensate, 
tenure, or remove teachers.
    My state, California, is certainly no example of vigilance on this 
matter. Teacher evaluation systems are weak and have nothing to do with 
effectiveness in producing student learning. Our lowest-performing 
schools up and down the state have more than their fair share of the 
weakest teachers. In fact, I fear we may be a poster child for 
irresponsibility in this regard, with a legislated firewall between the 
student and teacher data systems. Secretary Duncan has seen our 
firewall for what it is--an intentional barrier to better serving our 
students--and has put tremendous pressure on the state to tear the wall 
down. His insistence that states with firewalls be excluded from Race 
to the Top got the attention of our legislature. A special legislative 
session is underway to deal with this and other barriers to our 
eligibility. The pressure needs to continue so that State policy 
leaders have the leverage they need to overcome politics as usual and 
do the right thing.
    As Secretary Duncan said last week, our students have been waiting 
for far too long for our education policies to live up to our national 
promise. Neither our kids nor our nation can afford further delay.
    This means that, even as we continue to pressure states to build 
and use better data systems, we cannot abandon research-based measures 
of teacher quality--especially, experience and content knowledge--when 
determining whether the schools enrolling our most vulnerable students 
are getting the teachers they need.
    You knew this when you crafted the requirement contained in both 
NCLB and the ARRA that low-income students and students of color not be 
taught at higher rates than other students by out-of-field, 
inexperienced, or uncertified teachers.
    So far, however, that requirement has not been getting much 
attention. Some say that's because the proxy measures are imperfect. 
They are not all wrong: We all know of first-year teachers who are 
spectacular and veterans who should not be in the classroom at all. We 
also know of teachers with deep content-area knowledge who simply 
cannot teach.
    On the whole, however, the measures you chose show a strong 
connection to outcomes for students:
    <bullet> Value-added research consistently finds that ``teachers' 
effectiveness improves with the first few years of experience'' \1\ and 
``experience enhances teacher productivity at all grade levels in 
reading and in both elementary and middle-school math.'' \2\
---------------------------------------------------------------------------
    \1\ Charles T. Clotfelter, Helen F. Ladd, and Jacob L. Vigdor, 
``Teacher Credentials and Student Achievement in High School: A Cross-
Subject Analysis With Student Fixed Effects'' (Washington, D.C.: The 
Urban Institute, 2007), www.urban.org/url.cfm?ID=1001104.
    \2\ Douglas H. Harris and Tim R. Sass, ``Teacher Training, Teacher 
Quality, and Student Achievement'' (Washington, D.C.: The Urban 
Institute, 2007), http://www.caldercenter.org/PDF/1001059--Teacher--
Training.pdf.
---------------------------------------------------------------------------
    <bullet> And, not surprisingly, studies also consistently suggest 
that, especially in math, content knowledge matters: Secondary 
mathematics teachers with bachelor's or master's degrees in mathematics 
are more likely to produce high student achievement than their 
colleagues who lack such a degree.\3\
---------------------------------------------------------------------------
    \3\ Dan Goldhaber and Dominic Brewer, ``Evaluating the Effect of 
Teacher Degree Level on Educational Performance,'' in William J. Fowler 
Jr., ed., Developments in School Finance, 1996 (Washington, D.C.: U.S. 
Department of Education, National Center for Education Statistics, 
1997), (ED 409 634), p. 197-210. http://nces.ed.gov/pubs97/97535l.pdf.
---------------------------------------------------------------------------
    So, while not perfect, these research based proxies provide a 
strong base for solid public policy.
    But despite this clear evidence and despite federal law, most 
school systems continue to assign disproportionate numbers of rookies--
along with disproportionate numbers of out-of-field teachers--to the 
very children who are most dependent upon their teachers for academic 
learning.
    Nationally, core academic classes in our high-poverty secondary 
schools are twice as likely as classes in low-poverty schools to be 
taught by a teacher with neither a major nor certification in their 
assigned subject. Students at high-minority-schools are assigned to 
inexperienced teachers at a higher rate than students at schools 
serving mostly white.\4\
---------------------------------------------------------------------------
    \4\ The Education Trust, ``Core Problems: Out-of-Field Teaching 
Persists in Key Academic Courses and High-Poverty Schools,'' 
(Washington, D.C., 2008), http://www2.edtrust.org/NR/rdonlyres/
0D6EB5F1-2A49-4A4D-A01B-881CD2134357/0/SASSreportCoreProblems.pdf.
---------------------------------------------------------------------------
    The result is that, instead of catching up with their more 
advantaged peers, students who enter behind fall further and further 
behind over time. Not because they couldn't learn. But because, all too 
often, we didn't bother to teach them.
    Interestingly, this practice also has the effect of diverting state 
and federal dollars intended for poor children from the very schools 
with concentrations of such children. Why? Because teachers with more 
degrees and more experience are paid more. As they gain experience, 
teachers typically transfer to schools with fewer poor and minority 
children, taking their higher salaries with them.
    The Education Trust--West did a groundbreaking study of this 
practice several years ago. Called ``Hidden Gaps,'' our work exposed 
glaring differences in average teacher salaries between high- poverty 
and low- poverty schools in the same school district! Perhaps this 
might be acceptable if the schools with the most inexperienced teachers 
got lots of extra teachers or extra funding to provide teacher coaches. 
But they don't. Both kids and teachers suffer.
    Yes, better data systems that measured teacher effectiveness would 
certainly provide more precise information about the strengths and 
weaknesses of individual teachers. Such systems would allow us to 
identify and celebrate fabulous teaching, get struggling teachers the 
support they require, and better match teacher ability with student 
need.
    However, as much as we may want and students may need 
suchinformation, many states and districts are still years away from 
having their data systems up and running. Moreover, while such data 
systems will certainly provide a finer grained analysis of who is 
teaching whom, they will only paint a richer picture of the inequities 
in access to strong teaching that have been documented time and again 
using other metrics.
    In short, lacking value-added data we may not have the best 
information possible, but we have right now, and in fact for years, 
have had too much information about inequities in teacher assignments 
to wait a year, a month, a week, a moment longer to begin righting the 
wrong that has been done to so many of our students.
    And to do that, we don't need new legislation or new investments. 
We need this administration to enforce the laws you already passed--so 
state and local education leaders have the leverage they need to move 
in the right direction now
    Thank you.
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Van Roekel?

 STATEMENT OF DENNIS VAN ROEKEL, PRESIDENT, NATIONAL EDUCATION 
                          ASSOCIATION

    Mr. Van Roekel. Thank you, Chairman Miller and members of 
the committee, it is a pleasure and honor to be here as 
President of NEA 3.2 million people who work in public schools 
all across this country from pre-K to graduate. And I come to 
you as a high school math teacher for 23 years. That is my real 
job for many, many years.
    One of the things that is very exciting to me is to listen 
to all of the people speak and how we really do have agreement 
on what it is we need to do, that the status quo is not 
acceptable, that high-needs schools must become priority 
schools and that we must have change.
    We just recently did a report at NEA and the title of that 
report was, ``Children of Poverty Deserve Great Teachers, One 
Union's Commitment to Changing the Status Quo.'' But when we 
talk about change, I want to point out two very important 
things.
    Number one, in systems change, it says it is not enough to 
do one little piece. You can't change one part of the whole 
system and expect the whole system to change. The other thing 
about system change that always really just drives me each and 
every day is when they say that in any system, the results it 
produces are the exact results it was designed to do, which 
says to us in America that we have designed a system for high 
poverty students that year after year after year are treated in 
a way they should not be treated. So the question then is how 
do we change that system?
    The second thing about change is people's reaction. Some 
say it causes stress, some say that resisting change causes 
stress. Gilbert says, ``Change is good. You go first.'' Which 
is kind of everyone's expectation that if someone else would 
change then I wouldn't have to.
    But the truth is we all must change. My own personal 
philosophy is that it has a lot to do with satisfaction. For 
those who are satisfied with the current system, there is no 
demand for change or call for change.
    And so I would hope that you are not only dissatisfied but 
you are gloriously dissatisfied, that you will not tolerate a 
system in America that for too many of our youth, 1.2 million a 
year are exiting the system without a high school diploma.
    The other thing about reaction to change is the reaction is 
very different if it is done to you or with you. The other 
thing that is such in agreement here today is the effect of 
teachers on students and learning. It is absolutely the key.
    And from my point of view there is not enough attention 
paid to the practice of teaching. It is a profession. I do not 
believe that anyone with a degree in math can do what I do in a 
classroom. I would hope no one would walk into the classroom 
without that knowledge.
    But you know in some of the toughest classes I teach, my 
master's degree in math really isn't at issue, I know how to do 
all the problems in the book. The issue is how do you translate 
that to a group of students who have challenges way beyond the 
problems in the book?
    It is about practice in law, in medicine and in Congress. 
We don't devaluate the effectiveness in any of those 
professions by a single measure. We take into account multiple 
things that define effectiveness. The good part about this 
problem is it is within our power to change it.
    For NEA a couple of years ago, we started talking to a 
nationally board certified teachers to say--and they held 
summits in six different states, talked to more than 2,000 of 
them saying what it is that we would have to do differently to 
entice you to come to these schools of high need, priority 
schools.
    What they said is they need to have good principals who 
know how to lead and support teacher leaderships. There must be 
a commitment to creative teaching and learning inquiry, not 
handing a teacher a script to read in front of first graders.
    There must be the opportunity to participate in a team of 
qualified people who collectively take the responsibility for 
student learning. And there must be sufficient resources, 
whether it be technology, libraries, supplies, connection to 
health and public services.
    But the number one overall thing, more than money, more 
than anything is that the working and learning conditions 
matter most. When you look at this system we are trying to 
change, it has an oversupply of teachers who are inexperienced, 
unlicensed and assigned out-of-field.
    Forty percent of all core subject teachers are out-of-
field. Two to three times the turnover rate of other schools in 
the same district, it is a revolving door where there is a new 
group of people there almost every 2 years.
    The teacher evaluation system is either nonexistent or not 
used. And many administrators are ill-trained and have 
inadequate tools and skills in order to do it. They have no 
ability to distinguish between an excellent, an average or a 
poor teacher.
    Teacher evaluation, I remember from my first involvement, 
state statute in Arizona said ``teacher evaluation is for the 
improvement of instruction.'' If that is its purpose, how dare 
you design a system where someone came into my room for 15 
minutes once during the year?
    How in the world does that impact the improvement of 
instruction? We need to design new systems. And that teacher 
evaluation system, you need to know what its purpose is. It is 
not to find a few inadequate teachers. It is to improve the 
practice of all teachers, which means it must be directly tied 
to a professional development system.
    When we find weaknesses, if the person can't or won't 
improve they shouldn't be there but it must be a system to get 
them to be effective teachers, focus on practice. So with that 
I would say to you the good news is this is something we can 
change and the NEA is committed to make that change happen.
    Thank you, sir.
    [The statement of Mr. Van Roekel follows:]

          Prepared Statement of Dennis Van Roekel, President,
                     National Education Association

    Chairman Miller and members of the Committee, thank you for the 
opportunity to speak with you today about ensuring effective teachers 
for all children. I commend the committee for convening a hearing on 
this very important issue.
    The vision of the National Education Association (NEA) is ``a great 
public school for every student.'' Unfortunately, despite the intense 
commitment of NEA members, too many students in high poverty 
communities do not enjoy the benefits of a great public school because 
their schools are often chronically under-funded, under-staffed, and 
unsupported. This is simply unacceptable.
    Each day, countless dedicated, talented teachers and support 
professionals report to work in these challenging and low-resourced 
schools, knowing they will face students with a sobering array of 
social and economic disadvantages, working conditions that impede the 
highest possible levels of teaching and learning, and a revolving door 
of administrators and teachers. These heroes and heroines perform 
amazing tasks, often with the least amount of support and resources.
    Nevertheless, we cannot cover up the fact that too often schools 
with the greatest needs are filled with the most inexperienced and 
least skilled teachers. As a result, talented teachers in high-needs 
schools work alongside colleagues who lack training, are unprepared for 
the challenges they encounter, and who, due to revolving-door staffing 
patterns, are banished to high-needs schools without any support.
    NEA is here today to say ``No more.'' We will not participate in or 
turn away from this shame. We will be active partners with this 
Administration and this Congress to assure every student in America 
does indeed attend a great public school.
    Everyone is talking about supporting students in their ``race to 
the top.'' The key to turning out great students is great teachers. 
Great teachers, with the right policy supports, are the ideal agents of 
meaningful and sustainable change in our most challenged schools. NEA 
believes that solutions are at hand if policymakers, parents, and 
teachers themselves promote thoughtful and comprehensive strategies to 
address working conditions, school leadership, and teacher quality.
    This month, NEA and the Center for Teaching Quality released 
Children of Poverty Deserve Great Teachers, a groundbreaking report 
presenting solid, proven strategies and policy recommendations that can 
make a difference. It also offers solutions to recruiting, preparing, 
supporting, and compensating teachers for high-needs schools and 
highlights NEA's commitments to ensure great teachers are in every 
classroom.
    I would like to take you through some of the highlights of this 
report as well as the actions NEA and our state affiliates are taking 
to implement the report recommendations.
The Reality in High-Poverty Schools
    From the White House to local communities, our nation is 
recognizing teacher quality as a key factor for strengthening U.S. 
public schools for all children. Many influences, including home and 
community life, play a role in student achievement, but no school-based 
issue may be as critical and within our power to fix as the inequitable 
distribution of qualified and effective teachers.
    Many highly skilled and dedicated teachers struggle daily to keep 
the ship of learning afloat in our most challenging schools. 
Nonetheless, children of poverty and those of color are far less likely 
to be taught by qualified, effective teachers than are students from 
more affluent families. This daunting reality hovers like an albatross 
over those who work daily, against the odds, to improve student 
achievement in our low-income communities.
    The research is sobering:
    <bullet> High-poverty schools are much more likely to have special 
education and math teaching vacancies and are forced to staff 
classrooms with out-of-field and inexperienced teachers, according to 
the National Center for Education Statistics.
    <bullet> In New York City's high-poverty schools, 20 percent of 
teachers have less than three years of experience, compared to only 11 
percent in more affluent schools, according to a recent study. 
Furthermore, qualified teachers in high-poverty schools (credentialed, 
experienced teachers who are teaching in their field and who score well 
on tests of academic and teaching ability) are more likely to leave 
teaching than their less qualified peers in those schools.
    <bullet> Study after study has shown that teachers associated with 
high ``value-added'' student achievement gains and teachers who are 
National Board Certified are relatively unlikely to be teaching 
economically disadvantaged and minority students.
    <bullet> Asking high-needs schools to rely on relatively 
inexperienced, poorly prepared teachers--or better qualified teachers 
who quickly exit their classrooms--creates a chronic condition that 
undermines long-term, school-based strategies to improve teaching and 
learning.
What do Teachers Need to Be Effective?
    Teachers cannot do it alone. Every member of the community has a 
role and is responsible for the conditions of our schools and for 
providing a safe and secure learning environment for our children. 
Teachers want to be successful, and we should do what we can so that 
they are not set up to fail.
    It's not about the money. Nobody enters teaching for financial 
security. They enter the profession because they care passionately 
about educating children and preparing them to succeed.
    NEA has worked with more than 2,000 of the nation's best teachers 
who told us what will attract and keep our most effective teachers in 
our most challenging schools:
    <bullet> Good principals who both know how to lead and support 
teacher leadership;
    <bullet> A commitment to creative teaching and inquiry-based 
learning, not scripted instruction;
    <bullet> The opportunity to team with a critical mass of highly-
skilled teachers who share responsibility for every student's success;
    <bullet> Improved working conditions; and
    <bullet> Additional pay to recognize the difficult work in turning 
around a struggling school.
    Working conditions are of paramount concern when it comes to 
decisions about working in high-needs schools. Teachers, like surgeons, 
require a well equipped environment in which to do their best work. We 
cannot expect them to be successful if we do not provide the tools and 
resources needed to do the job. The data are clear: a child's learning 
environment is a critical factor in his or her long-term success. We 
cannot hold teachers accountable for substandard conditions beyond 
their control and must acknowledge that conditions of teaching and 
learning are essential to achieving high levels of student learning.
    We need to support teachers in their early years and throughout 
their careers. It is important that we not only recruit new teachers to 
work in high-needs schools, but that we foster an environment that 
encourages professional development and continual learning 
opportunities for teachers within our schools and districts to help 
meet the needs of students. We also must ``grow our own'' accomplished 
teachers and not rely solely on new recruits for our staffing needs.
    Too often, school district recruitment and hiring practices rest on 
outdated mid-20th century organizational assumptions about teaching, 
learning, gender roles, and the career mobility patterns of young 
adults. Few systems are developing new teachers from within their own 
high-needs communities. Additionally, few are partnering with 
universities and nonprofits to make strategic investments in new 
teacher residency programs that can both drive improved working 
conditions and assure a steady supply of well-prepared, ``culturally 
competent'' teachers for high-needs schools.
NEA's Strategies and Commitments
    NEA's Children in Poverty report describes four strategies that 
will move us past the usual ``either/or'' thinking about the future of 
teaching toward research-driven policies that can transform every high-
poverty school in America into a high-performing school, fully staffed 
by effective teachers.
    <bullet> Recruit and prepare teachers for work in high-needs 
schools.
    <bullet> Take a comprehensive approach to teacher incentives. 
Lessons from the private sector and voices of teachers indicate that 
performance pay makes the most difference when it focuses on ``building 
a collaborative workplace culture'' to improve practices and outcomes.
    <bullet> Identify working conditions that serve students. We need 
to fully identify the school conditions most likely to serve students 
by attracting, developing, retaining, and inspiring effective and 
accomplished teachers.
    <bullet> Define teacher effectiveness broadly, in terms of student 
learning. We need new evaluation tools and processes to measure how 
teachers think about their practice, as well as help students learn. 
For example, in the Performance Assessment for California Teaching 
(PACT), new teachers are expected to demonstrate their knowledge of 
content and how to teach it in real life circumstances and context. 
PACT is now spreading to other states. Seen as a valid measure of 
individual teacher competence, it is useful for teacher licensure and 
as a powerful tool for teacher learning and program improvement. Such 
performance assessments have the potential of focusing teacher 
evaluation on student learning without the distortions caused by the 
singular use of standardized test scores.
    NEA, as part of an initiative it will launch called The Priority 
Schools Campaign, has committed significant resources to ensuring a 
great public school for every student. Those commitments include 
investing $1 million per year over six years to pursue comprehensive 
strategies and policies that will increase teacher effectiveness in 
high-needs schools. NEA takes its union leadership role seriously and 
is committed to raising the bar and requiring our members to meet a 
standard of excellence that will help us achieve great public schools 
for every student by 2020.
    Through the Priority Schools Campaign, NEA commits to:
    <bullet> Address barriers in collective bargaining agreements by 
requesting that every local NEA affiliate enter into a compact or 
memorandum of understanding (MOU) with its local school district to 
waive any contract language that prohibits staffing high-needs schools 
with great teachers. These compacts should also add commitments that 
would enhance this goal. Similarly, NEA would promote compacts or MOUs 
for its non-collective bargaining local affiliates that have high-needs 
schools in their districts.
    Several NEA affiliates have addressed, in collaboration with school 
districts, collective bargaining barriers to addressing staffing needs 
in high-needs schools. The MOUs that have resulted from these 
collaborations are producing positive results.
    <bullet> Launch a major member outreach effort using its union 
advocacy and leadership position to encourage the most accomplished 
teacher-members to start their teaching careers in high-needs schools, 
remain teaching there, or transfer to high-needs schools.
    <bullet> Support the establishment of locally based recruitment and 
support programs that encourage teachers to devote at least five years 
of service to strengthening teaching in high-needs schools.
    <bullet> Establish a national recognition program to support and 
publicize the efforts of teachers, schools, and districts to strengthen 
quality teaching in high-needs schools.
    <bullet> Work with the philanthropic community and with local, 
state, and national policymakers to expand the depth and breadth of 
NEA's initial investments.
    <bullet> Support mentoring programs for new teachers in high-needs 
schools that offer a wide array of support and resources needed to 
teach effectively in high-needs schools.
    <bullet> Work in partnership with local and state affiliates to 
implement programs in high-needs schools to grow teacher quality and 
effectiveness through National Board Certification.
    NEA also continues to support and promote incentives for National 
Board Certification as an essential tool for improving teacher quality 
and for staffing high-needs schools.
    Where and when possible, NEA will support local and state 
association development of appropriate incentives through collective 
bargaining and other state/local policy avenues. We will also support 
our state and local affiliates who partner in pursuit of innovative 
incentive and compensation programs (through funding streams such as 
the TIF grant program).
    And NEA will develop resources and strategies to help its 
affiliates expand the scope of collective bargaining to pursue 
collaboratively at the bargaining table multiple measures of student 
learning and teacher quality.
Conclusion
    History has shown that a one-size-fits-all regulatory regime for 
teacher recruitment and preparation is unreasonable. As Stanford 
University Professor Linda Darling-Hammond has noted, staffing and 
supporting high-needs schools with truly highly qualified and effective 
teachers will require the equivalent of a Marshall Plan for teaching. 
It is time to listen to our teacher leaders, learn from them, and go 
beyond current ``either/or'' policy thinking in favor of multiple 
approaches to teaching quality.
    Our nation has the capacity to make sure every child in every high-
needs school has great teachers. President Obama has called for the 
nation to ``treat teachers like the professionals they are while also 
holding them more accountable.'' Doing so means not only looking 
carefully at the research evidence, but also listening to our most 
accomplished teachers and acting on their advice. As the President has 
suggested, they are ready to ``lift up their schools.'' They are ready 
to maintain the promise of great public schools for our nation. It is 
time to hear their voices and embrace their ideas for recruiting, 
preparing, rewarding, and supporting great teachers--the teachers that 
all students deserve.
    I have included with this testimony a complete copy of our Children 
of Poverty report. Thank you again for the opportunity to contribute to 
this important discussion.
                                 ______
                                 
    Chairman Miller. Dr. Roza, welcome.

  STATEMENT OF MARGUERITE ROZA, RESEARCH ASSOCIATE PROFESSOR, 
        UNIVERSITY OF WASHINGTON'S COLLEGE OF EDUCATION

    Ms. Roza. Thank you for having me, and as many of you may 
know, I have been at the University of Washington studying 
resource allocation among schools in districts for over a 
decade. I have looked at dozens of states, hundreds of 
districts in too many thousands of schools now to really add 
them up for you.
    But I want to go back to the beginning of this trek and 
just tell you for a moment how it started off. I have been 
looking at money from the beginning and when I looked at 
district budgets, I thought what is missing in here are the 
actual salaries of the teachers at schools.
    And so on a whim I picked up the phone and called about 12 
different districts around the country, including Baltimore and 
Atlanta and Cincinnati and Seattle, where I live, and Los 
Angeles and a bunch more.
    And said hey, you know I am kind of wondering do the 
salaries match across all these schools or are you finding that 
you have very senior teachers at some schools and junior 
teachers in another one? And without fail, every single person 
that answered the phone said in slightly different regional 
accents, we don't have that problem here.
    Our teachers--we actually have people who want to teach in 
inner city schools. We have people who want to teach in poor 
schools and our distribution is really good. And while being 
confident that they believe what they were answering, I went 
ahead and dug up the data and did Freedom of Information 
requests.
    And certainly found that in all of those 12 districts and 
in every other district that I have come across, with the 
exception of a very small few, that they were wrong, that we do 
have a mal-distribution of teacher salaries across schools.
    And so I want to share six major findings that I have had 
with you in that trek over the last 12 years. So the first is 
that teachers in schools with more poor and minority students 
are paid less than teachers in schools with predominantly white 
and wealthier students in the same districts, off the salary 
schedule.
    So this has nothing to do with property taxes or access to 
resources or how much revenues were obtained. This is about 
money that came to the school district and then was deployed 
and paid out to teachers across schools. And we are paying 
these teachers over here to teach these white kids a lot more 
money than we are to teach these poor minority kids, off the 
same salary schedule.
    So here is how it works. You know, teachers come in to poor 
schools and that might be the only spot they get an opening, 
and they work there for a year or two. And they transfer across 
the district to a school with a more stable teacher population 
and then they stay there for the rest of their career.
    And so this revolving door process, what it does is it 
brings one set of teachers in through the opening in poor and 
minority schools. They transfer over to another school and end 
up staying. Some of them leave the district or leave teaching 
along the way.
    The poor and minority schools have a harder time recruiting 
teachers and that is one of the things we will find out more, 
but I want to show you the financial impact of this and so I 
brought some slides. And this is a first slide, will come up 
now, which is how this gets buried into district budgets.
    On the panel on the left, what you see are two schools, 
Wedgewood and Martin Luther King--these are in my school 
district in Seattle, and this is some old data so Martin Luther 
King doesn't even exist anymore, but Wedgewood is a school with 
just--in a neighborhood with great views of Lake Washington. I 
don't know if you are from Seattle.
    But anyway the district reports that it spends $3,700 per 
pupil in Wedgewood. And if you drive south to higher poverty 
and higher minority areas across the ship canal, you would find 
Martin Luther King where the district reported it spent more, 
about $3,900.
    But in reality, those budgets are built off something we 
call an average district salary. We will just assume that every 
teacher makes $50,000 and we will plug in that $50,000 number. 
And it is off now, but on the right panel you will see that it 
actually reverses when you put in the real salaries of those 
teachers, where it turns out that we are spending a lot less in 
Martin Luther King, the school where the kids have much higher 
needs than in Wedgewood.
    So this happens all the time and it is hidden. We can't 
find it. You have really got to do some forensic accounting to 
find it. And while salaries are not the most important thing, 
they are indicative of other differences that do matter.
    First of all, schools with lower salaries have fewer 
applicants per opening. We find that sometimes they will have a 
handful, maybe two or three. And across the district, you will 
find another school in the same district where they will have 
30 or 40 or 100 or 300 applicants per opening.
    So the salary differences are indicative of the labor 
market differences. In the next slide that I brought, we also 
know that certain schools, those with high minority and high 
poverty populations have very high turnover, and high turnover 
is something that affects kids.
    So when the teachers are leaving all the time, the kids 
have a different experience, the families have a different 
experience, and the teachers there have fewer mentors. So in 
this one study where they looked at schools where 70 percent of 
the teachers stayed after 5 years, you can look at the 
demographics of that school. It is very low minority and low 
poverty and the opposite is true where you find schools where 
30 percent or fewer of the teachers are retained.
    So moving on then, another variable that differs is the 
increased turnover that these schools are having with 
seniority-based layoffs, which is something that hit hard this 
last year in especially schools in California but in other 
states as well.
    Where are all the junior teachers that got laid off? They 
are in these high-minority, high-poverty schools. So those 
schools again had more turnover.
    So the fourth point I want to talk about is another slide 
that we have brought which shows that it is not just across 
schools but also within schools. And this is really a new 
finding that I found looking at the schools in staffing surveys 
which is, if you look at the average salary of teachers 
teaching remedial classes, it is about $6,000 less than the 
average teacher salary teaching AP or honors classes.
    And we know who is taking each of those classes. Again, you 
are separating--the students are being separated out across 
classes and we are paying people more to teach the ones who are 
further along academically; the absolute opposite of what we 
say we are about to do, that we are all about.
    So obviously there is several district policies that are 
contributing to this. There are salary schedules and seniority 
rights and seniority preferences and district allocation 
practices, but the last slide I wanted to bring to you shows 
you something that comes back to the federal level which is 
that the Title I policy, intended to demand equity in spending, 
doesn't work.
    As you see on the left, this is in one district, the lower-
poverty schools have a certain amount of money that they get 
from state to state and local resources and the higher poverty 
schools on the right get Title I also. But the Title I works to 
fill in that hole that is created by the inequitable allocation 
of the state and local resources created by these patterns.
    And that is what I have to show you. Thanks very much.
    [The statement of Ms. Roza follows:]

  Prepared Statement of Marguerite Roza, Center on Reinventing Public 
     Education, College of Education, the University of Washington

    The mal-distribution of teachers across schools and courses hurts 
poor and minority students.
    Thank you for the opportunity to testify. In my university 
researcher role, I have studied school district expenditures across 
hundreds of districts in dozens of states for over a decade. In tracing 
funds from different governmental units all the way down to schools and 
classrooms, my colleagues and I have unearthed a pervasive mal-
distribution in teachers across schools and classrooms. Here are the 
highlights of our findings:
    Teachers who teach in schools with more poor and minority students 
are paid less than teachers who teach in schools with more wealthy, 
white students, in the same districts.
    While they are both paid off the same salary schedules, very often 
teachers in high poverty, high minority schools have lower salaries 
because they have fewer years of experience or fewer graduate credits. 
While high cost teachers congregate in the most affluent schools, the 
highest poverty schools have a more difficult time drawing in the best 
teacher candidates. Often, new teachers start their career at a high-
poverty school and, as they gain experience and move up the pay scale, 
will transfer to a more affluent school.
    The result, school districts routinely spend a larger share of 
state and local funds intended to support basic instruction on schools 
with fewer poor students. Since in most districts the way resources are 
deployed to schools is via the staff allocations, the result is that 
schools with lowered salaried teachers receive fewer state and local 
public funds.
    Salary differences across schools are indicative of other 
differences that likely map to effectiveness. While experience and 
graduate credits are not by themselves good predictors of quality, 
there is reason for concern. Schools with lower salaried teachers also 
have:
    a. Fewer teacher applicants per opening. While more affluent 
schools have dozens or more applicants for each vacancy, the highest 
poverty schools typically have only a few. Schools with fewer 
applicants have a smaller talent pool from which to select teachers.
    b. Higher turnover. Teachers tend to leave higher poverty schools 
at higher rates, ensuring a steady stream of new teachers. Higher 
turnover means fewer relationships between teachers and families, fewer 
teacher mentors for new teachers, and greater induction implications 
for school leadership.
    c. Increased turnover during seniority based layoffs. When the 
highest poverty schools have more junior teachers, their teacher 
receive more pink slips creating more turnover as teachers are 
reassigned around the district.
    Some of these same patterns also play out among teachers across 
courses inside high schools. In research on a sample of high schools 
from different parts of the country, teachers teaching higher level 
honors or AP classes consistently earned more than those teaching 
remedial or regular courses. In our sample, remedial and regular 
classes served disproportionately higher percentages of poor and 
minority students, and thus the same mal-distribution patterns applied.
    Several district policies and practices contribute to the mal-
distribution of teachers inside districts and schools:
    <bullet> Teacher salary schedules that do not reflect to workload, 
school or student needs, course topic, etc.
    <bullet> Seniority rights for transfer and layoffs.
    <bullet> Seniority preferences honored among courses inside high 
schools.
    <bullet> District budget and allocation practices that are driven 
by teachers, not students. By ignoring the effect of salary on 
expenditure differences across schools, current resource allocation and 
accounting practices allow for such inequities.
    <bullet> Comparability provision in Title I. While this provision 
demands that districts allocate state and local funds equally across 
schools before accepting federal funds, the provision permits the 
exclusion of inequities in teacher salaries.
    There are many remedies that districts could pursue (and some are 
in practice in a few districts), but local politics serve as a 
formidable barrier in most.
    Thank you.
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                 ______
                                 
    Chairman Miller. Ms. Daniels?

STATEMENT OF LATANYA DANIELS, ASSISTANT PRINCIPAL, EDISON HIGH 
                             SCHOOL

    Ms. Daniels. Good morning. Thank you for inviting me to 
testify today concerning the importance of highly-effective 
teachers in high schools, high-need schools, as the mechanism 
to increase student achievement. My name is Latonya Daniels, 
and I am the assistant principal at Thomas Edison High School 
in Minneapolis, Minnesota.
    Thomas Edison is a high-needs high school with 
approximately 88 percent of the student body qualifying for 
free and reduced lunch. This year begins the 9th year of my 
educational career. I spent the first 4 years of my educational 
career as a middle school math teacher and served in many 
leadership capacities.
    My school began implementing the TAP program or the Teacher 
Advancement Program, a comprehensive school reform program that 
provides opportunities for career advancement, professional 
growth, instructionally-focused accountability and performance-
based compensation for educators.
    I served as a TAP coach, also known as a mentor, across the 
country for one semester and a TAP mentor, also known as a 
master teacher, across the country for 2 years. These 
experiences were very empowering for me, the teachers, and the 
students that I supported.
    I chose to be an assistant principal in a TAP high school 
because I see myself more so as an instructional leader rather 
than as a manager. With the academic impediments our students 
face within Thomas Edison, it is imperative that I know the 
best practices of instruction and the most current professional 
development to accelerate student learning.
    TAP provides me this opportunity, as well as the 
opportunity to develop and coach our TAP mentors and teachers 
to greatness. Finally, TAP teaches the main thing, the main 
thing, and that is academic achievement which is ultimately my 
mission.
    Thomas Edison is an urban high school within an urban 
district. It is a highly diverse school made up of primarily 90 
percent minority students. It was also deemed a Fresh Start 
school because it was performing in the lower 25 percent of 
district high schools.
    In the past several years, Thomas Edison has received the 
lowest achieving ninth grade students entering all Minneapolis 
high schools with the challenges of ninth graders not being at 
grade level, the demanding needs of our ESL population and 
students' lack of self efficacy and other challenges.
    Our staff continues to choose the TAP program because it 
provides a formidable professional development program to move 
novice teachers to effective teachers and experienced teachers 
to teachers of excellence, a structure to analyze data and to 
set measurable and attainable goals for the school and for each 
individual student, a standard space evaluation system that 
identifies areas of strength and development for our teachers, 
a career ladder that provides opportunity for advancement for 
teachers while concurrently supporting the professional 
development in the building, and finally, a performance-paid 
bonus system to reward student success, thus school success.
    For a school with high needs such as Thomas Edison High 
School, TAP is what is needed to shift from low student 
achievement and low expectations to a culture of academic 
excellence and high expectations amongst all students and 
staff.
    In Minnesota, 87 percent of the TAP schools met or exceeded 
growth projections for the 2007-2008 school year. Our school 
has had positive results as well. From 2006 to 2007, the 
graduation rate at Thomas Edison improved from 61 percent to 77 
percent.
    And last year, our first Fresh Start year, 80 percent of 
our ninth and tenth grade students made 1 year's growth or more 
in math and over 50 percent of our ninth and tenth grade 
students made 1 year's growth or more in reading.
    Prior to Thomas Edison's Fresh Start, the school 
experienced a 70 percent teacher turnover over a 2-year period. 
With the Fresh Start, we retained 60 percent of our staff and 
have 40 percent new hires.
    We began the school year with all teachers in place which 
was a first and it felt great to staff, students, parents and 
the community. The support for the TAP program helped us retain 
the strongest talent we were able to recruit during the 
interview and select process.
    In interviews, we always share with candidates that Thomas 
Edison is a TAP high school and explain what that means and 
what that looks like. Overwhelmingly, teacher candidates choose 
Thomas Edison over other Minneapolis schools and over even 
suburban schools because of the embedded support.
    In our annual survey of teacher attitudes, we found that 
over 81 percent of teachers in Thomas Edison report high levels 
of collegiality and satisfaction due to TAP. The Minneapolis 
School Board and the Minneapolis Teacher's Union settled upon a 
memorandum of agreement that allow Fresh Start schools to move 
away from the seniority process to filling teacher vacancies to 
a more interview and select process.
    This process allowed us to recruit some of the best talent 
in the Twin Cities to Thomas Edison. Our most novice teachers 
accepted their teacher positions because of the layers of 
support they would receive in the classroom and professional 
development through TAP. Teachers value TAP's professional 
support because although it is a national model, it is 
specifically structured to help improve the performance of our 
particular students.
    In conclusion, in a high-need high school, there is a 
tremendous need to create an ongoing support structure that 
enables teachers to continually improve the effectiveness of 
their instruction if students are going to continue to improve 
academically.
    And at Thomas Edison High School in Minneapolis, TAP has 
provided that structure, excuse me, for us to improve. Thank 
you for this opportunity and I will be happy to answer any 
questions.
    [The statement of Ms. Daniels follows:]

      Prepared Statement of Latanya Daniels, Assistant Principal,
                           Edison High School

    Thank you for inviting me to testify today concerning the 
importance of teacher effectiveness to student achievement growth.
    My name is Latanya Daniels and I am the Assistant Principal at 
Thomas Edison High School in Minneapolis, Minnesota. Thomas Edison is a 
high needs school with approximately 88% of students eligible for free 
and reduced price lunch. I appreciate the opportunity to share with the 
Committee how we have used a comprehensive performance pay reform at 
Thomas Edison to increase student achievement and teacher 
effectiveness.
My Career in Teaching
    This year begins the 9th year of my educational career. For the 
first four years of my career, I was a middle school math teacher and I 
served in many leadership capacities. My school began implementing the 
Teacher Advancement Program or ``TAP''--a comprehensive school reform 
system that provides powerful opportunities for career adcancement, 
professional growth, instructionally focused accountability and 
competitive compensation for educators. I served as a TAP coach (which 
is called mentor elsewhere) for one semester and a TAP mentor (which is 
called master elsewhere) for two years. In a TAP school, there is 
approximately one mentor for every 15 career teachers and one coach for 
every 8 teachers. These experiences were very empowering for me, the 
teachers, and the students I supported through mentoring, coaching, and 
providing professional development.
    I chose to be an assistant principal in a TAP high school because I 
see myself as an instructional leader in this role. With the academic 
impediments our students face within Thomas Edison, it's imperative 
that I know the best practices of instruction and the most current 
professional development research to accelerate student learning. TAP 
provides me this opportunity as well as the opportunity to develop and 
coach our TAP mentors and career teachers to greatness. Finally, TAP 
keeps the main thing--student achievement--the main thing, and that's 
my mission.
Implementing a Performance Pay Program in a High Needs High School
    Thomas Edison is an urban high school within an urban district. It 
is a highly diverse school made up of approximately 40% African 
American, 19% East African immigrants, 20% Hispanic, 11% White, 9% 
Asian and 2% Native American students. Thomas Edison was deemed a Fresh 
Start school, meaning it was in the bottom 25% of district high schools 
in terms of student performance.
    In the past several years, Thomas Edison has received the lowest 
achieving 9th grade students entering all Minneapolis high schools. 
With the challenges of 9th graders not being at grade level, the 
demanding needs of our ESL population, students' lack of self-efficacy, 
and other challenges, our staff continues to choose the TAP program 
because of its comprehensive approach of improving teacher quality and 
student achievement. TAP also provides:
    <bullet> A formidable professional development program that embeds 
professional development to move novice teachers to effective teachers 
and experienced teachers to exceptional teachers;
    <bullet> A structure to analyze data to set measurable and 
attainable goals for the school and each individual student;
    <bullet> A standards-based evaluation system that identifies areas 
of strength and development for all teachers;
    <bullet> A career ladder that provides opportunity for advancement 
for teachers while concurrently supporting staff in school-wide 
professional development; and
    <bullet> A performance pay bonus system to reward student, thus 
school success.
    For a school with high needs such as Thomas Edison, TAP is what is 
needed to shift from low student achievement and expectations to a 
culture of academic excellence and high expectations amongst all 
students and staff.
Student Achievement Growth
    In Minnesota, 13 out of 15 or 87% of TAP schools met or exceeded 
their growth projections for the 07-08 school year. Our school had very 
positive results:
    <bullet> From 2006--2007, the graduation rate at Thomas Edison 
improved from 61% to 77%.
    <bullet> Thomas Edison was the only Minneapolis high school to give 
the MAP test in 2008--2009 school year to our 9th and 10th grade 
students. The MAP test is a leveled test that measures student growth.
    <bullet> 80% of our 9th and 10th grade students made one year's 
growth or more in math.
    <bullet> Over 50% of our 9th and 10th grade students made one 
year's growth or more in reading.
Increased Teacher Retention
    TAP the system for teacher and student advancement, with its strong 
support system of professional development led by master and mentor 
teachers in the school, has helped to reduce teacher turnover. Prior 
the Thomas Edison's fresh start, the school experienced a 70% teacher 
turnover over a two-year period. With the fresh start, we retained 60% 
of our staff and had 40% new hires. Last year, we only lost one teacher 
due to layoffs. We began the 2009--2010 year with all teachers in place 
for the school year, and it felt great to staff, students, parents, and 
the community. The support from the TAP program helped us retain the 
greatest talent we were able to recruit during the interview and select 
process.
Attracting Talented Teachers to High Poverty Schools
    TAP provides a strong recruitment incentive for encouraging 
outstanding educators to teach in high-need schools. In interviews, we 
always share with candidates that Thomas Edison is a TAP high school 
and explain what that means. Overwhelmingly, teacher candidates choose 
Thomas Edison over other Minneapolis high schools and even suburban 
high schools because of the embedded support. Our ability to offer 
annual performance based stipends to coaches and mentors also provides 
a strong recruitment and retention tool for highly effective educators 
to take on leadership work at our school.
Building Collegiality
    In our annual survey of teacher attitudes, we found that over 81% 
of teachers in Thomas Edison TAP report high levels of collegiality and 
satisfaction. We believe these results are a natural outgrowth of TAP's 
ongoing applied professional growth. Whatever concerns teachers have 
over the shift in culture to performance based compensation and 
rigorous accountability is tempered by the weekly professional 
development ``cluster groups'' that naturally facilitate collegiality.
Challenges in Building and Retaining a Talented Staff in a High Needs 
        High School
    Teachers have a greater impact on student learning that anything 
else in schools. Yet current policies offer few incentives for strong 
teachers to take on tougher assignments.
    Thomas Edison is in it second year as a Fresh Start school. The 
Minneapolis school board and the Minneapolis teachers' union settled 
upon a Memorandum of Agreement that allowed Fresh Start Schools to move 
away from the seniority process for filling teacher vacancies to an 
``interview and select'' process. This process allowed us to recruit 
some of the best teacher and candidates to Thomas Edison.
    Our most novice teachers accepted their teaching positions because 
of the layers of support they would receive in the classroom and 
professional development through TAP. Also, the new teachers shared our 
values and beliefs.
Summary
    Even though TAP is a national program, it is structured to allow 
each school and district to focus on their particular student needs. 
For example, teacher professional development provided weekly in group 
meetings, and individually in the classroom, is driven by the needs of 
Thomas Edison students that we see in the data. We also take into 
account the strengths and weaknesses of our teachers--as demonstrated 
through multiple classroom evaluations--in structuring our professional 
support. Teachers value this professional support because it is 
specifically structured to help them improve the performance of their 
students.
    I encourage the members of the Committee to support strategies and 
policies that have proven effective in addressing the need for 
effective educators in high need schools and districts. Performance pay 
programs that include opportunities for career advancement, standards 
based evaluation and professional support, such as TAP, have 
demonstrated their effectiveness in increasing student achievement, as 
well as increasing recruitment and retention of effective educators in 
high need schools.
    In a high need school, there is a tremendous need to create an 
ongoing support structure that enables teachers to continually improve 
the effectiveness of their instruction if students are going to 
continue improving academically. At Edison High School in Minneapolis, 
TAP has provided that structure for us to improve. I would be happy to 
answer any questions you may have.

                              Attachment A

                        Description of TAP \TM\

    TAP \TM\: The System for Teacher and Student Advancement--is a 
performance pay and professional development system that is increasing 
student achievement, and improving teacher recruitment and retention in 
high need schools.
    TAP is a comprehensive, research-based reform designed to attract, 
retain, support, and develop effective teachers and principals. It 
combines comprehensive teacher support with performance pay incentives 
to create an instructional environment that is continually focused on 
advancing student learning. Attracting, developing, and supporting 
excellent teachers is crucial to our mission because our student 
achievement goals are simply not attainable without a high quality 
faculty.
Unique Solutions Provided by the TAP
    TAP counters many of the traditional drawbacks that plague the 
teaching profession: ineffective professional development, lack of 
career advancement, lack of accuracy or differentiation in classroom 
evaluations, and low, undifferentiated compensation. TAP provides an 
integrated, comprehensive solution to these challenges--changing the 
structure of the teaching profession within schools while maintaining 
the essence of the profession. TAP is a whole school reform intended to 
recruit, motivate, develop and retain high quality teachers in order to 
increase student achievement.
    1. Building the Capacity of Teachers and Principals through 
Professional Development that is directly aligned to content standards 
and elements of effective instruction and takes place during the 
regular school day, so educators can constantly improve the quality of 
their instruction and increase their students' academic achievement. 
This allows teachers to learn new instructional strategies and have 
greater opportunity to collaborate, both of which will lead them to 
become more effective teachers. The TAP Leadership Team of master and 
mentor teachers, as well as school administrators guide the 
professional development which addresses the individual needs of 
teachers and their students.
    2. Additional Roles and Responsibilities allow teachers to progress 
from a Career, Mentor and Master teacher--depending upon their 
interests, abilities and accomplishments. This allows good teachers to 
advance without having to leave the classroom and provides the expert 
staff to deliver intensive, school-based professional development that 
supports more rigorous coursework and standards.
    3. A Fair, Rigorous and Objective Evaluation Process for evaluating 
teachers and principals. Teachers are held accountable for meeting 
standards that are based on effective instruction, as well as for the 
academic growth of their students, and principals are evaluated based 
on student achievement growth as well as other leadership factors. 
Classroom evaluations are conducted multiple times each year by trained 
and certified evaluators (administrators, Master and Mentor teachers) 
using clearly defined rubrics which reduces the possibility of bias or 
favoritism.
    4. Performance-based Compensation Based on Student Achievement 
Gains and Classroom Evaluations of Teachers throughout the Year. 
Student achievement is measured using ``value-added'' measures of 
student learning gains from year to year. These learning gains are 
determined using the same assessments that are used to calculate 
progress under NCLB. TAP changes the current system by compensating 
teachers according to their roles and responsibilities, their 
performance in the classroom, and the performance of their students. 
The new system also encourages districts to offer competitive salaries 
to those who teach in ``hard-to-staff'' subjects and schools.
    By combining these elements in an effective strategy for reform, 
TAP is working to turn teaching, especially in high need schools, into 
a highly rewarding career choice.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    Dr. Hess?

 STATEMENT OF FREDERICK M. HESS, RESIDENT SCHOLAR AND DIRECTOR 
OF EDUCATION POLICY STUDIES, AMERICAN ENTERPRISE INSTITUTE FOR 
                     PUBLIC POLICY RESEARCH

    Mr. Hess. Mr. Chairman, ranking member Kline, and members 
of the committee, the committee has asked what it will take to 
provide every child with access to effective teachers. This 
question raises a number of interrelated issues, but this 
morning, I will address collective bargaining and the 
potentially adverse consequences of clumsy efforts to 
redistribute teachers.
    I provided more comprehensive testimony in written form to 
the committee.
    Collective bargaining agreements substantially hinder the 
ability of system leaders to make decisions that deliver 
teachers where they will be most effective or most needed. 
These agreements now regulate virtually all aspects of 
schooling including how teachers are paid and assigned to 
schools.
    I do not believe that union officials are malicious in any 
sense. However, while they claim to be advocates for children, 
the truth is that they are elected and obligated to protect the 
interests of union members.
    As Robert Barkley, former executive director of the Ohio 
Education Association has explained, the fundamental and 
legitimate purposes of unions are to protect the employment 
interests of their members.
    Moreover, contracts are geared to the industrial labor 
model that prevailed in mid-20th century America when employees 
were valued less for their knowledge or skills than for 
longevity. Today's contracts promote security rather than 
excellence.
    Polling for Public Agenda has reported that 78 percent of 
teachers say their school has at least a few teachers who 
``fail to do a good job and are simply going through the 
motions.'' In a 2008 study, Jacob Loop and I examined 
collective bargaining agreements and associated school board 
policies in the nation's 50 largest school districts.
    We reported that only 14 out of 50 district agreements 
provided that teachers could earn additional pay on the basis 
of performance. Similarly, just 14 out of 50 agreements 
provided for teachers to earn additional pay for working in 
schools classified as high needs. Just 13 out of 50 stipulated 
that student performance could be one factor employed in the 
evaluation of non-tenured teachers.
    At the same time, no agreement expressly prohibited the 
practice meaning districts could do far better than many 
currently do. These data suggest two things. First, contracts 
limit the ability of district officials to make smart personnel 
decisions.
    Second, schooling suffers from a culture of timid 
leadership. Even where boards and superintendents have the 
authority to act, professional norms and risk aversion make 
inertia the rule.
    Sensible federal action to promote transparency, reward 
reform-minded state and local leaders and prod district and 
union officials to unwind problematic contract provisions, can 
play an important role in spurring progress on this count.
    That said, there are three cautions for Congress to keep in 
mind when contemplating action. First, redistributing effective 
teachers may shift teachers from schools and classrooms where 
they are effective to those where they are not.
    To take one example, there is reason to think that the 
skills which make a teacher effective with proficient affluent 
students will not necessarily translate to schools and 
classrooms serving disadvantaged populations.
    The evidence on this count is shaky, to say the least. But 
there is substantial reason to believe that teacher quality is 
contingent and depends in some substantial part on context.
    Second, ill-conceived efforts to move effective teachers to 
more disadvantaged schools may prompt them to leave the 
profession at higher rates. Teachers in high-poverty schools 
are almost twice as likely to leave teaching as those in 
medium-poverty schools.
    It would be self-defeating to systematically push out of 
profession exactly those teachers we most want to retain. To 
avoid such unintended consequences, strategies to direct 
teachers to new schools must be pursued with careful attention 
to incentives, retention and context.
    Third, while we know that good teachers have an enormous 
impact on student learning, we don't have reliable ways to 
consistently identify effective teachers from state capitals 
much less from Washington.
    The highly qualified teacher provision of No Child Left 
Behind does not identify effective teachers but those with 
particular credentials, though there is compelling evidence 
that those credentials do not predict performance.
    Using value-added gains or other metrics as a component of 
a smart system-specific strategy to identify effective teachers 
makes good sense. But prescribing the use of these metrics from 
Washington is another matter.
    Finally, securing effective teaching first and foremost 
requires increasing the total number of good teachers. This 
entails lowering the barriers represented by licensure, 
encouraging districts to tap the skills of those who are not 
full-time educators and using pay, professional opportunities 
and training to attract and cultivate talent.
    Efforts to more evenly distribute effective teachers are 
laudable but ought to be pursued in a fashion that will not 
compromise effective schools or bolder efforts to attract and 
retain more good teachers. Thank you.
    [The statement of Mr. Hess follows:]

 Prepared Statement of Frederick M. Hess, Director of Education Policy 
                 Studies, American Enterprise Institute

    The views expressed in this testimony are those of the author alone 
and do not necessarily represent those of the American Enterprise 
Institute.

    Mr. Chairman, Ranking Member Kline, and members of the Committee: 
The Committee has asked the witness today to address a single question: 
What it will take to provide every child with access to effective 
teachers?
    Today, all children do not have access to effective teachers. Our 
critical task is to expand the supply of such teachers, but the scope 
of the challenge is breathtaking. There are approximately 3.4 million 
teachers in the U.S., representing about 10% of the college-educated 
workforce. There are compelling reasons to think that our current 
arrangements unnecessarily limit the population of potentially 
effective teachers. But given the focus here on ``comparability'' and 
teacher assignment, I will not here address licensure and teacher 
education.
    Instead, I will briefly address three topics deserving attention: 
collective bargaining, the potentially adverse consequences of ill-
conceived federal efforts to redistribute those teachers who seem to be 
effective, and our limited ability to systematically identify 
``effective'' teachers for purposes of federal policy.
    Established rules and contract language governing staffing 
practices may have made sense when we lacked the ability to track 
actual expenditures or student learning, or when we worried less about 
the quality of schooling of schooling, but they no longer make sense 
today. Existing arrangements lead to thoughtless allocation of 
resources and violate Congressional intent.
    Collective bargaining agreements may be the greatest obstacle 
hampering efforts to boost the supply of quality teachers and enable 
system and school leaders to get teachers where they will be most 
effective or are most needed. Some four decades after the advent of 
collective bargaining in public education, these contracts now regulate 
virtually all aspects of schooling, from how teachers are paid and 
assigned to schools, to the conditions under which they can be 
disciplined or fired.
    Let me be clear. I do not believe that union officials are 
malicious. However, while they claim to be advocates ``for children and 
public education,'' the truth is that they are elected--and obligated--
to protect the interests of union members. As Robert Barkley, the 
former executive director of the Ohio Education Association has 
succinctly explained, ``The fundamental and legitimate purposes of 
unions [are] to protect the employment interests of their members.'' He 
elaborated, ``It is the primary function of management to represent the 
basic interests of the enterprise: teaching and learning.''
    Today's contracts are geared to operating schools on the industrial 
model that prevailed in mid-20th century America, where assembly line 
workers and cadres of low-level managers were valued less for their 
knowledge or skills than for longevity and a willingness to follow 
orders. These arrangements prevent educators from making the changes 
necessary to transform schools into lean, nimble organizations focused 
on educating students.
    Managers seeking to assign or remove teachers on the basis of 
suitability or performance are hobbled by extensive contract language. 
Frequently, however, contract language does not flatly prohibit 
managers from making sensible decisions. Rather, the ambiguity of 
provisions, the time required to comply with required procedures, the 
desire of administrators to avoid the grievance process, and managerial 
timidity add up to management by paralysis.
    In 2005, an Illinois reporter filed 1,500 Freedom of Information 
Act requests to obtain data on the removal of tenured teachers, after 
Illinois Education Association President Ken Swanson dismissed as an 
``urban legend'' the notion that tenured teachers are rarely fired. The 
reporter obtained data showing that Illinois school districts, which 
collectively employ more than 95,000 tenured teachers, had dismissed an 
average of two teachers a year for poor performance between 1986 and 
2004. Just 38 of Illinois's 876 school districts dismissed even one 
teacher for poor performance between 1986 and 2004.
    The polling firm Public Agenda has reported that 78 percent of 
teachers say that their school has at least a few teachers who ``fail 
to do a good job and are simply going through the motions.'' Public 
Agenda has quoted a New Jersey union representative confessing in a 
focus group, ``I've gone in and defended teachers who shouldn't even be 
pumping gas.''
    In a 2008 study, The Leadership Limbo, Jacob Loup and I examined 
twenty-six elements of collective bargaining agreements and associated 
board policies in the nation's fifty largest districts. These data 
actually understate the extent to which collective bargaining 
agreements are binding because they include not only collective 
bargaining states, but also analogous policies produced through ``meet-
and-confer'' processes in ``right-to-work'' states. We examined how 
restrictive these agreements are when it comes to teacher compensation, 
personnel policies, and work rules. Overall, more than a third of 
districts struggled with quite restrictive agreements and just one in 
ten had policies that could be deemed even moderately flexible.
    In 25 of the 50 districts, the contract specified that internal 
applicants were to be given priority over new hires for vacant 
positions--greatly restricting the ability of principals to select 
promising new faculty. In 17 of the 50 districts, if it is necessary to 
lay off teachers, district officials were required to select the most 
junior teacher in a certification area. Only 14 out of 50 district 
agreements provided that teachers could earn additional pay on the 
basis of performance. Similarly, just 14 agreements provided for 
teachers to earn additional pay working in schools classified as 
``high-needs.''
    Just eight of the 50 agreements stipulated that the district could 
use students' achievement test results as one component of evaluation 
for tenured teachers. Just 13 of 50 stipulated that student 
performance, however measured, could be one factor employed in the 
evaluation of untenured teachers. At the same time, no agreements 
expressly prohibited the practice--meaning that reform-minded 
superintendents and school boards could do far better on that score 
than many do currently.
    These data suggest two things. One is that a substantial number of 
contracts formally limit the ability of district officials to make 
smart personnel decisions. The second is that district officials often 
have the ability to do substantially better in managing personnel.
    Collective bargaining agreements frequently prohibit leaders from 
acting. Equally troubling though is that agreements are murky and send 
mixed signals regarding the bounds of permissible action. The ambiguity 
has been made especially problematic by risk-averse principals, central 
office administrators, school boards, and superintendents who are 
applauded for ``collegiality'' and strongly encouraged to avoid 
unseemly conflict. In no small part, this timidity is the handiwork of 
local teacher associations, which exert enormous influence politically 
and in school district affairs and which can make life complicated for 
unpopular superintendents and principals.
    In short, even in those districts where boards and superintendents 
have the authority to act, professional norms and risk-aversion make 
timid and ineffectual leadership the rule.
    As an example of what disciplined reformers can accomplish, 
consider John Deasy, former superintendent in Prince George's County, 
Maryland, who earned national notice for overseeing substantial 
achievement gains in his low-performing schools while shifting hundreds 
of teachers to new schools and initiating a voluntary pay-for-
performance system. His response to the naysayers is that 
superintendents posses ``extensive tools [available] that are generally 
unused.'' He explains, ``Why does it not happen? * * * [It's because] 
most people see the contract as a steel box. It's not * * * You've just 
got to push and push and push.''
    Mitch Price, of the University of Washington, reported in a 2009 
study of districts in California, Ohio, and Washington, that, ``Because 
so many administrators, union leaders, and others perceive contracts as 
inflexible, the perception overtakes the reality * * * lead[ing] to 
practices that may be more rigid than the actual language of the 
contracts require.'' Simple tales of victimhood told by 
superintendents, school boards, and principals may reflect more than a 
hint of blame shifting and exaggeration--or at least present an overly 
simplistic account of the forces at work.
    We should not expect John Deasy to be the norm. Rather, the 
question is what kinds of policies might help other superintendents be 
similarly proactive.
    Sensible federal action to promote transparency, reward reform-
minded state and local leaders, and prod district and union officials 
to unwind problematic contract provisions can play an important role in 
spurring progress.
    That said, there are a few key cautions worth keeping in mind. In 
general, it is appropriate to be skeptical of the federal government's 
ability to constructively and directly address the issue of teacher 
distribution: It would require gross definitions of ``effectiveness'' 
and implementing broad policy interventions in states and districts 
with profoundly different contexts. The remedy provisions of No Child 
Left Behind illustrate how good ideas can disappoint when pursued in 
this fashion.
    There are three particular concerns. One is the risk that ill-
conceived policies will encourage districts to move teachers from 
schools and classrooms where they are effective to situations when they 
are less effective. The second is the risk that heavy-handed efforts to 
reallocate teachers will drive good teachers from the profession. 
Either course promises to ``shrink the pie'' of good teaching in the 
effort to redistribute it. And the third concern is that we are far 
less able to identify ``effective'' teachers in any cookie-cutter 
fashion than many who call for federal action might wish.
    First, efforts to redistribute effective teachers may shift 
teachers from schools and classrooms where they are effective to 
environments where they will be less effective. These are especially 
valid due to concerns that the skills and expertise that make a teacher 
effective in one school or with one population may not necessarily 
transfer to another.
    There is good reason to think, as Florida International 
University's Lisa Delpit has noted, that the skills which make a 
teacher effective with proficient, affluent students will not 
necessarily translate to schools serving disadvantaged populations. 
More anecdotally, many have observed that the highly structured 
learning strategies employed successfully with low-income students by 
charter schoolproviders like KIPP or Achievement First would be far 
less welcome in more affluent environs. To date, there is no meaningful 
evidence to help us determine which teachers might prove more or less 
effective when moved.
    However, there is substantial evidence that teacher effectiveness 
may be contingent. Scholars including Swarthmore College's Tom Dee and 
Stanford University's Eric Hanushek have reported, for instance, that 
students appear to benefit from having a teacher of the same race, 
suggesting that the matching of teachers and students contributes to 
the pattern of overall achievement gains. The University of 
Washington's Dan Goldhaber has observed that the ability of National 
Board certification to predict teacher quality varies dramatically by 
subject and grade. Three Duke University economists observed in 2004 
that the effects of teacher experience in North Carolina varied with 
student race and family income. If efforts to redistribute teachers 
proceed without attention to context and constraints, they could 
readily reduce the overall quality of teaching.
    There is simply no meaningful evidence on this score to date. But 
there is good reason to believe that teacher effectiveness is partly a 
function of some teachers being better suited for some students, 
schools, and contexts. To the extent that this proves true, 
redistribution of teachers threatens to generate a lot of disruption 
for little gain. This does counsel against finding ways to steer 
teachers to disadvantaged schools; it does suggest that such efforts 
should be driven by carefully calibrated incentives and executed with 
an appreciation for local context, which means they should not be 
directed from Washington.
    A second concern is that ill-conceived efforts to move seemingly 
effective teachers from more comfortable schools to more disadvantaged 
ones may prompt them to leave the profession at higher rates. The 
consequence would be to push out exactly those teachers we most want to 
retain.
    The University of Pennsylvania's Richard Ingersoll has used the 
federal School and Staffing Survey to calculate that teachers in high-
poverty schools are almost twice as likely to leave teaching as 
teachers in medium-poverty schools. This is a well-documented finding. 
In the Review of Educational Research, scholars reported in 2006, ``The 
research revealed fairly consistent evidence that schools with higher 
proportions of minority, low-income, and low-performing students tended 
to have higher attrition rates.'' It would be a self-defeating, short-
sighted strategy to systematically shift effective teachers to the 
schools where they are most likely to leave the profession. Again, to 
avoid unintended consequences, strategies to direct teachers to new 
schools must be pursued with careful attentions to incentives, 
retention, and context.
    Third, in determining the allocation of ``effective'' teachers, we 
quickly encounter a substantial problem. We know that good teachers 
have an enormous impact on student learning, and we have justifiable 
confidence in our ability to identify good teachers observationally and 
through their work at the school level. The problem is that we don't 
have any reliable way to consistently identify good teachers from state 
capitals, much less from Washington.
    The ``highly qualified teacher'' provision of NCLB does not, in 
fact, identify effective teachers. It identifies those with particular 
credentials, though there is much evidence that those credentials do 
not predict performance. Dan Goldhaber has observed that more than 95% 
of the variation in student gains from one teacher to the next cannot 
be explained by observable characteristics, including seniority, 
credentialing, and college attended.
    Why not just judge teachers using value-added scores? A small but 
growing number of states can perform ``value-added'' calculations based 
on grade three-to-eight reading and math assessments. However, such 
scores are only available for a minority of teachers, even in states 
with the requisite data systems. A more fundamental problem is that 
these measures are imprecise and of uncertain reliability when just a 
few years worth of data are being used to judge individual teachers. 
Finally, equating effectiveness boosting basic math and reading 
proficiency with broader teacher effectiveness presumes that these 
teachers will also predictably excelling their other charges. To date, 
there is no evidence supporting this notion and much cause for sensible 
caution.
    Enabling district and school officials to use value-added gains and 
other metrics as one component of a smart, system-specific strategy 
makes good sense, but prescribing the use of such crudely drawn metrics 
from Washington is an entirely different matter.
    Ultimately, we would do well to focus on empowering system leaders 
to make good hiring and placement decisions. The desire to more 
equitably distribute effective teachers is an admirable one. But let us 
take care not to undermine successful schools along the way. Let us 
avoid policies that will casually or reflexively strip-mine effective 
teachers from some schools in order to push them into others, 
especially if this will hobble schools that have been working well.
    In places like New Orleans, New York City and Baltimore, 
superintendents are relying on programs like Teach for America and The 
New Teacher Project to provide new, effective teachers to help 
turnaround school and district performance. Congress would be well-
advised to take care that federal law does not impede the ability of 
superintendents to pursue this strategy. If the real issue is 
attracting excellent teachers to high need schools, the focus ought to 
be on devising the right combination of incentives to get them there, 
rather than relying on equalization strategies that employ imperfect 
proxies. The federal government can help in this effort by promoting 
transparency, encouraging reform-minded local leaders, and rewarding 
states and districts that are devising smart solutions to securing and 
smartly deploying effective teachers.
    The challenge of securing effective teaching is first and foremost 
one of increasing the total number of good teachers. This entails 
supporting alternative licensure models, lowering the barriers 
presented by licensure requirements, encouraging districts to tap the 
expertise and skills of those who are not full-time educators, and 
using pay and professional opportunities to attract and cultivate 
talent. Even more ambitious strategies, such as rethinking the shape of 
the teacher's job and the use of technology to deliver instruction, 
will require new strategies to funding and monitoring provision. In the 
meantime, efforts to ensure that effective teachers are evenly 
distributed are laudable, but ought to be pursued in a fashion that 
will not compromise bolder efforts to attract and retain more good 
teachers.
                                 ______
                                 
    Chairman Miller. Thank you very much and thank you, all of 
you for your testimony. My position is pretty well-known on 
this subject so I don't want to take a lot of time because we 
are going to have votes, and I would like to get to as many of 
my colleagues as we might. But let me just make a couple of 
comments.
    Dr. Hess, I agree with most of what you said. What you 
raise are cautions that we cannot let become excuses for non-
action. But clearly the teacher has to fit. And I noticed Ms. 
Daniels was shaking her head when you raised the issue about 
whether or not somebody that is effective in one school would 
necessarily be effective in another school.
    And I think one of the things that TAP shows us is how you 
can create these environments. And maybe in fact that by 
creating that environment you can welcome a broader spectrum of 
teachers who might succeed in that school, but you also want to 
grow your own teachers in those situations.
    Dr. Roza, it is a conversation to be continued because your 
testimony is from a conversation a long time ago with Paul 
Hill. But in fact what you have, is it not, that districts are 
charging Title I for the average teacher or some scale of which 
they are not paying in those Title I schools.
    And so that is going to pay other teachers and other 
arrangements. We can argue about what the real impact is and, 
if you change that, what other resources would leave that Title 
I school, but there is something perverse going on here in 
terms of the kinds of incentives you would be able to offer if 
you really had that average salary available at that particular 
school.
    Certainly in schools where you have 14 out of 14 new 
teachers every year, you might be able to get some of them to 
stick for a while if you had that sum of money available in 
that school.
    Dennis, I want to thank you very much for being here today 
for your testimony. But I also want to draw attention to two 
things, one of which is in your testimony, which I can't say 
how much I welcome this statement, but when you said that you 
are requesting, and I understand the request, I understand the 
dynamics of the institution, that every local NEA affiliate 
enter into a compact, a memorandum of understanding with its 
local district to waive any contract language which prohibits 
staffing high-needs schools with great teachers.
    I thank you very much for that. And I think it is very 
important that we acknowledge that NEA made that statement and 
put it into their testimony today. And I think it falls on the 
report. I am encouraged also because you affirm that districts 
should be using the American Recovery Act that the secretary 
has to address this problem along with the Teacher Incentive 
Fund.
    And I know Mr. Price. He is not here, unfortunately, but 
Mr. Price will appreciate that and it really opens avenues for 
us to work together that I deeply appreciate. Dr. Murray, I 
have followed you for many years. I think you bring a 
perspective to this issue because you have managed a large 
complex diverse school district where these needs compete with 
one another and I think having your input as we continue this 
conversation is very important.
    Ms. Avila, I have a question for you now. When you take 
these highly efficient effective teachers and you talk about 
trying to find them and sorting it out, when you said--what are 
they asking you about the workplace that they want to go to? 
How do they describe that workplace?
    Ms. Avila. So in our recruitment, we look for predominantly 
career changers but also recent college graduates who didn't 
major in education and want to make the transition. More often 
than not, what they talk to us about is they want to know what 
it is really like to teach in a high-needs school.
    And I think this is one of the things that has really 
distinguished the New Teacher Project and our teaching fellows 
programs from the way school districts have traditionally 
approached teacher recruitment because we have very up front 
about the challenges in high-need schools.
    In the past, you will see that if you visit a district Web 
site in a high-needs community, you will find lots of pictures 
of smiling children with apples and school buses and pencils 
and it doesn't really portray the reality of teaching in a 
high-need school.
    And so we are very honest about the fact that oftentimes 
our children are two, three, four, even five grade levels below 
where we need them to be, but that is why we need the best and 
the brightest to enter the teaching profession and join the 
ranks of teachers who are working every day to improve.
    More often than not, that is what they ask us. What is it 
really like to teach there, because there are people who are 
compelled by the idea of teaching specifically in a high-needs 
school.
    Mr. Kline. Thank you, Mr. Chairman. I too want to thank all 
the witnesses. You were terrific. This is just a fantastic 
panel of real experts and I want to thank you for being here. I 
am very grateful for your testimony.
    Of course, I am going to get back to Ms. Daniels in just a 
minute because she is from Minnesota, and I am very proud of 
her and her school on things that they have been doing. I 
congratulate her on picking a good weather day to come to 
Washington, D.C. We didn't hold this hearing in July and it is 
actually raining back in Minnesota, so welcome to you all.
    What, what is apparent in the earlier panel with our 
colleagues and with those of you here, experts have been 
looking at this for many years in some cases, is that there is 
a sort of universal recognition of the problem, that you really 
do need highly-effective teachers.
    You need them everywhere I would argue, but clearly in 
schools with the greatest need for them we are not getting them 
there, and great research Dr. Roza has put forward and all of 
you, we are not succeeding in getting them there.
    We all want that to happen and we need to figure out how to 
do that and you have different approaches in your testimony. 
And I am not going to go through and ask all of you questions 
except I think that we as a committee, we as a Congress, all of 
you, everybody in the room needs to really start looking at how 
do we break down barriers?
    And Dr. Hess talked about collective bargaining barriers. 
And Mr. Van Roekel I appreciate that you are being here, and I 
join the chairman in congratulating you for looking at ways at 
starting to break down some of those barriers that stop 
superintendents and principals and officials from being able to 
move those teachers around and reward them appropriately for 
their assignments.
    Ms. Daniels, I do want to come back to you now if I could 
because one of the problems in this whole business of getting 
highly-effective teachers in the right places is how do you 
identify them and how do you identify those that aren't 
performing well, and then how do you approach them? You know, 
are there things that you can do to help them get to be better? 
And if not better, how are there ways to remove them?
    So Ms. Daniels, I wonder since you have got TAP in your, 
you know, it seems to be working very well, how do you identify 
those teachers? What metrics are you using? What methods are 
you using to identify those teachers who aren't measuring up? 
And then what are you doing about it?
    Ms. Daniels. Fortunately, I work in a district that is 
committed to teacher excellence, and that has been a shift that 
has been very overt and explicit the last few years. And they 
support what we are doing at the building level and they are 
holding us accountable as administrators to identify 
ineffective teachers and instead of shuffling around the 
district, moving them out of the district.
    With the TAP program, the funding has allowed the structure 
of our building to alleviate a lot of pressure from me of 
managing students, managing inappropriate behavior. That 
responsibility has become the responsibility of our dean of 
students.
    And as an instructional leader, I am at the table 
discussing professional development. I am able to get into 
classrooms and observe teachers myself for more than a 15-
minute snapshot one time per year but I am constantly--I am the 
assistant principal of the 10th grade academy and also for 11th 
grade students, so I am constantly in my 10th and 11th grade 
classrooms observing teachers.
    And there is a collaborative effort with the TAP mentors 
who, with the Fresh Start, they had to reapply or apply for a 
job. We completely Fresh Started our TAP leadership team and 
put highly qualified teachers who had the specific content area 
needed in order to move the staff in the professional 
development in the direction we should be moving in.
    And there is a collaborative effort with the TAP leadership 
team and the administrators to be in classrooms collecting 
evidence of what is happening in the classrooms and having 
conversations about teachers that we need to take action upon 
to support or to possibly move to an action plan.
    So in our building, we have TAP mentors in classrooms, we 
have--in the classrooms we have the building mentor in the 
classroom, which is just a building mentor that is provided by 
the district, and then we also have administration in the 
classroom.
    And we get together every Tuesday after school and we meet 
and we talk about what we are seeing in classrooms and that is 
how we monitor and adjust the practice of our teachers and the 
achievement of our students. I hope I have answered your 
questions.
    Mr. Kline. You have indeed, and thank you very much and 
again, thanks to all of you, and I will yield back, Mr. 
Chairman.
    Chairman Miller. Mr. Hinojosa?
    Mr. Hinojosa. Thank you. I thank you for holding this 
important hearing. In a moment, I want to ask about how we are 
expanding our capacity for STEM and also on bilingual teachers 
across the country.
    Congressman Raul Grijala from Arizona and I spent the last 
3 days in my congressional district at the Hispanic Engineering 
Science Technology Eighth Annual Conference, and we were very 
pleased to see so many geared up students participating as they 
have in the past.
    But the end result is that since its inception 8 years ago, 
we have made significant strides in graduating Hispanic 
students in the STEM fields and we saw and heard about the 
1,000 Hispanic students in engineering that have graduated from 
UT Pan American in Edinburg. So I know we can do more to 
improve math and science literacy in our high school.
    So my first question is going to go to NEA president Van 
Roekel. I greatly admire our teachers who work tirelessly to 
make a difference in the lives of children, but I find it 
troubling that about 70 percent of math classes are taught by a 
teacher who does not have a college major nor a minor in math 
or mathematic-related fields in our high-poverty, high-minority 
middle schools.
    What initiatives is NEA working on to increase those 
numbers and how soon do you think we are going to correct that?
    Mr. Van Roekel. One of the initiatives that we are working 
on that deals with the whole issue of the quality of teaching 
in high-poverty or high-need schools and also addresses the 
fact, the conditions that you are talking about is that one of 
the strategies in our report is to recruit and prepare teachers 
for these high-need schools.
    We found great success in that some of these schools have 
started programs where they grow their own. You already have 
committed caring individuals who have chosen to live and to 
work in that area, why not build your own from within?
    So if your need is for greater math teachers, if that is 
the shortage area, then develop programs to encourage them to 
do that. Another program that has had a lot of success is where 
teachers collectively work on national board certification 
together. It is a great powerful professional development 
activity. And what it does is they collectively are working 
together focusing on all of the students in the school.
    So this focusing on building your and growing your own is a 
very important strategy. And the second thing is we just have 
to something about our recruitment. The compensation for 
teachers is not what it needs to be. We compete with other 
professions that require college.
    And if you happen to be a math major who has good grades, 
there are a lot of opportunities. And we have got to make it so 
that it is competitive to recruit those into the teaching 
professions.
    Mr. Hinojosa. We have found that there is also a shortage 
in our IB and AP programs, International Baccalaureate and the 
Advanced Placement programs. Do you think that the answers that 
you gave me for the first question would apply towards getting 
those persons certified to teach those courses?
    Mr. Van Roekel. I think it would assist in the first part, 
but another thing we need to do is--what we have found under 
the narrow testing under No Child Left Behind, the Elementary 
Secondary Education Act, as we go toward reauthorization I 
think we have to expand that so that we expect and assess in a 
much broader area so that the curriculum isn't narrowed and 
that it makes sense for a school district to focus on STEM and 
other issues.
    Mr. Hinojosa. Thank you.
    Mr. Van Roekel. As long as the measurement is that narrow 
that is what they focus on.
    Mr. Hinojosa. Thank you. My last question I want to ask Ms. 
Layla Avila. I congratulate on your perseverance and very 
impressive accomplishments. I was very impressed with your 
presentation. I understand that the New Teacher Project has 
helped school districts recruit and certify teachers across the 
country.
    Can you tell us about the work you have done in school 
districts with disproportionate numbers of limited English 
proficient students, and also, what have you done on that same 
problem in Texas?
    Ms. Avila. Actually in the state of Texas, we run a program 
called the Texas Teaching Fellows and we serve approximately 18 
school districts in the areas of El Paso, Dallas, Austin and 
San Antonio.
    And actually, in Texas, we have had a tremendous amount of 
success both recruiting and certifying our teachers there. We 
recruit a large number of bilingual teachers for the state of 
Texas, and we actually have had a lot of success in recruiting 
math and science teachers for those districts as well.
    I think this is connected to your previous question which 
is how do you expand the pool of math and science teachers and 
bilingual teachers as well? One of the things that we know is 
if you look at the supply out there, our schools of education, 
while they are doing a lot of work to prepare teachers, don't 
actually prepare enough teachers in these fields, and so one of 
the ways that you can grow the pool is by recruiting career 
changers who have that strong content knowledge, in math, in 
science to join the teaching profession.
    And I wholeheartedly agree that this is not the path for 
everyone. We need people who are exceptional and who go through 
a very selective process, but we also train them over the 
course of the summer in the East Texas districts, and so they 
get a real world sense of what it is like to teach at in a 
high-needs school.
    Mr. Hinojosa. Thank you, my time has run out. I wish we 
could talk longer.
    Thank you, Mr. Chairman.
    Chairman Miller. Thank you.
    Mr. Platts?
    Mr. Platts. Thank you, Mr. Chairman. I want to add my 
thanks to all the witnesses, just a great wealth of knowledge 
that you share with us on a critically important topic here, 
and I certainly share the comments of several of you and the 
impact that teachers have had on your lives.
    I regularly say behind the upbringing of my mom and dad, my 
teachers in New York suburban school district, from Mrs. 
Willowby my kindergarten teacher to Mrs. Mirtz third grade 
teacher, who is now 97 and amazing. To as a math teacher, Miss 
Snell who was the Dean of Math at our school and taught me 
calculus, as best she could, meaning from my learning side on 
calculus.
    But they gave me a great foundation to build on. And so the 
focus here of making sure that every child has that same 
opportunity is so important, and I am very thankful to be able 
to say my children fifth and seventh grade sons are now in the 
same school district I grew up in and getting, I would contend, 
an even greater opportunity than I had because of the 
excellence of the teachers in that district.
    I wanted to say up front that as we focus on the 
effectiveness of teachers, we have talked about salary, we have 
talked of a number of issues, but a couple that I just think we 
want to keep in our thoughts is the broader school environment 
and a couple of--specific example is class size.
    When I was in third grade with Mrs. Mirtz, we had, I think, 
16 children in our class. Today the school district doesn't 
have 16, but my kids had, I think at most 20 in their class in 
that same school district. A half mile away, my cousins taught 
in the city school district and 32, 33 was probably typical 
class size for third and fourth grade.
    A great teacher has got half the time with each student if 
they have twice as many students, and that is certainly going 
to affect they ability to teach no matter how dedicated, how 
qualified they are. The issues that go beyond just the teacher 
qualifications, I think impact the effectiveness of the 
teacher.
    One in particular was mentioned was the issue of tenure. 
And when I was in the state house, I served on the education 
committee and we had a hearing on the specific issue of tenure. 
And I will always remember a testimony of a principal from 
Pennsylvania who, when he came before us, said, ``The issue is 
not tenure. It is the enforcement of the rules of tenure and 
the administrators doing their job.''
    And his message was very clear. He said, ``If you have a 
bad teacher in a classroom, it is because the supervisor, 
principal, is not doing his or her job and getting rid of 
that.'' The rules allow for you to get rid of a bad teacher if 
the administrators want to.
    So I think we need to look at the effectiveness of teachers 
and include the effectiveness of administrators who are 
overseeing those teachers, and specifically, Ms. Avila, in your 
testimony, you talked about the 12 school districts and half of 
them in 5 years did not dismiss a single teacher.
    The other half apparently had at least one or more 
dismissals. Was there any follow on to look at the difference 
in the approach or the evaluation of teachers of why half was 
getting rid of those versus those that were not?
    Ms. Avila. One of the things that we find, and I think that 
this is echoed in Dr. Hess' testimony is that a lot of it has 
to do with the leadership and the culture that is built in that 
school. If there is a culture of feedback, if there is a 
culture also, not just of feedback, but is the principal going 
to be supported by the administration when they make those 
evaluations that are honest and rigorous?
    That is one of the things that really defines them, and in 
a lot of school districts where the evaluations don't happen 
and the dismissals don't happen, there really is this culture 
of evaluations just being another process that you have to sort 
of check off your list, where it really is not used as a tool 
to improved teacher performance.
    It is something that H.R. tells them they have to do, and 
so they go ahead and they do it. But then there are other 
schools where the principal will build a culture and will have 
the support of the administration to be able to give honest 
feedback.
    Mr. Platts. And it kind of dovetails with, Mr. Van Roekel, 
with your statements where our teachers cannot do it alone is 
that you need tone set up at the top with the superintendent, 
administrators, principals, teachers and parents at home of 
what is expected in the classroom and what is going to be 
supported, that the teacher or principals know that they have 
the support of both the families and the school administrators 
so that we are all working together.
    If I can quickly squeeze in, Dennis, you talked about the 
California evaluation process, and--oh, I thought in your 
testimony you talked about the performance assessment for 
California teaching.
    Yes, and I was wondering if you could expand on because 
you--by the way I read that is as a valid approach to assessing 
a teacher's qualifications and abilities versus a simple test 
score which I agree with because, as one who wasn't very good 
on standardized tests versus essay tests, I wouldn't have 
reflected well on my teachers perhaps.
    Mr. Van Roekel. I think as you go across the country, you 
will find many examples of excellent teacher evaluation systems 
that have been done through the bargaining process with 
management and the teachers.
    In California, it was several years ago that they put that 
together and it does. It used multiple assessments to determine 
both the effectiveness of student learning and the 
effectiveness of the teacher. And when done in collaboration, 
it can be done.
    My point is that it is too few to compared to the number of 
school districts we have that have a good evaluation or 
appraisal system, and those that have bad ones, they don't even 
use those.
    And it is an important part of the system. It is there is a 
recruitment--who are your recruiting into the classroom? The 
induction part of the system is very critical. We lose 30 to 50 
percent of our teachers in the first 5 years. Much of that is 
due to their frustration of not being successful.
    And in that first 3 years, if you take the time to figure 
out what it is that is lacking, for some it may be classroom 
management, for some it is not good planning skills, and it 
could be a variety of things, but you build them into the 
professional development to build those particular skills so 
that by the end of the third or fourth year when they are 
granted tenure status or the right for due process, that they 
have met a very high standard.
    And that is what so important be that it continue then and 
that it is an ongoing process, part of a larger system. Thank 
you, sir.
    Mr. Platts. Okay, and I am out of time.
    Thank you Mr. Chairman, and thank you to all the witnesses 
again.
    Chairman Miller. Thank you.
    Ms. Hirono?
    Ms. Hirono. Thank you, Mr. Chairman. Something that you 
just said, Mr. Van Roekel, really caught my attention. You said 
that there are excellent teacher evaluation systems in 
different schools but that very schools have them.
    Is that a role for the federal government that we encourage 
if not force--I like to encourage--every school or systems to 
have an appropriate evaluative system in place because we are 
now focusing very much, of course, on effectiveness which are 
more output evaluations as opposed to quality which are, you 
know, input. So what is the role for the federal government 
here?
    Mr. Van Roekel. I don't think it is to mandate to school 
districts what they ought to do, or rather, how. It is 
important that it could be from the federal government in your 
role that you say that is one of the things that needs to be 
there, but to tell them exactly how to do that----
    Ms. Hirono. Yes.
    Mr. Van Roekel [continuing]. I don't think that is a 
federal role. One of the other things that the federal 
government I think can play a very important role and that is 
doing the research that shows what makes a good system, the 
models.
    For example, on the National Board for Professional 
Teaching Standards, over 20 years, they spent about $200 
million developing very good assessments for teachers in all 
areas from early childhood to high school in all of the 
different academic areas.
    That research is available and those processes are there. 
We don't spend that much money on developing good assessments 
for students. So Secretary Duncan has about $350 million, as I 
recall to--hoping that a collaborative effort will be to 
develop good assessment.
    If the federal government spent $200 million a year for the 
next 10 years, $80 million a year for the next 10 years, on 
developing really good, solid assessments to determine student 
learning, I think that would be a great assessment for every 
single state.
    Ms. Hirono. It is just that I think that in other contexts 
the federal role should be more on the R&D side, you know, to 
enable our school districts to find out what the best practices 
are and what works, and then to be able to incentivize our 
systems to use those practices.
    Ms. Daniels you mentioned that the Minneapolis school board 
and the Minneapolis teachers union settled upon an MOU that got 
away from using seniority as a way to place teachers. Can you 
just talk a little bit about the dynamics of that?
    And then Mr. Van Roekel, I would like to ask you how many 
other school districts the NEA or your teachers' unions have 
had these kind of MOUs?
    Ms. Daniels. Well, like I said, fortunately I work in a 
district where the leadership has changed and it is a shift 
toward every--right now, the mantra is by 2012, every child 
college ready. So every child will have the opportunity whether 
they see themselves going to college or not, but being prepared 
for post-secondary opportunities.
    And in order to ensure that every child is college ready, 
the district has to put together a strategic plan, excuse me, 
and part of that plan was recruiting teachers, effective 
teachers and also training them, and also a part of that was 
training administrators to look for effective teachers.
    The Minneapolis Public School District has one of the 
stronger unions in the country, and so in order for, again, 
this collaborative effort to take place, there had to be a 
middle ground. And so since the school board was committed to 
student achievement and the teachers' union also was committed 
to student achievement, they came to agree that we move from 
seniority--which is important, which is valued--to more of an 
interview and select process.
    Where in that particular--in our district, you still have 
to interview the most senior people, the five most senior 
candidates for the job, but you also get a chance to interview 
five other candidates that are not tenured, that are outside of 
the district, and it is ultimately our choice of who is most 
qualified for that position.
    So that is what we have done. We began the recruitment 
outside of the building, of course, and through different 
mediums like newspapers and stuff like that, and we begin as 
Ms. Avila I think shared, that the recruitment and the 
understanding, the transparency begins at the interview.
    This is what you are getting into. This is what we are 
about. What are your core values and beliefs? This is the 
direction that we are moving in, and fortunately we have 
teachers to commit to where Edison is going where our district 
is going. And again, I see my role as an instructional leader, 
and I am not just hired from my school.
    I am hiring for the district, and I am hiring for some of 
the students who have overwhelming needs. So I am very happy 
that this district was able to afford the relationship----
    Ms. Hirono. How critical to this process was establishing 
that 2012 goal to just pushing everybody along?
    Ms. Daniels. How--could you please----
    Ms. Hirono. How critical was this setting 2012, a very 
specific goal, how critical was that agreement to pushing 
everything along?
    Ms. Daniels. I think it was very critical because we know, 
as everyone has reiterated on this panel, that it is the 
teachers. If you look at in school, what impacts student 
achievement, it is teachers. And you know, we could talk about 
all that extraneous variables outside of the building, but in 
schools, it is the teachers.
    And we had to collaborate, we had to agree, that in order 
to meet such an aggressive goal, and it is aggressive, that we 
come to an agreement as a district school board of educators 
and as a teachers' union who both have, hopefully, the 
student's best interest in mind, that we have to agree that 
seniority may not be the best in all situations.
    And as I explained, with Edison having 90 percent minority 
students and 88 percent free and reduced lunch, we need the 
best teachers for our students.
    Ms. Hirono. Thank you. My time is up. Perhaps I can talk 
with you later.
    Chairman Miller. Thank you.
    Mrs. Biggert?
    Mrs. Biggert. Thank you, Mr. Chairman and thank you for 
holding this hearing. I think that it kind of made me think 
back to my school board days and the things that we discussed 
and how we were going to have the best school. And I have to 
say that one of the reasons that I think a lot of people go on 
the school board is kind of a selfish reason and that is to 
make sure that our kids get the best teachers.
    I don't know if that is--that should be proper, but it 
probably is something that we all, you know, we soon get to 
know who the best teachers are from being around there.
    But--and I think that was that was the best job I ever had 
was being on the school board, and I think, you know, it is 
really being able to contribute to the education process in 
your community is worth everything.
    But a couple--and I really have been interested in all the 
things that you have had to say because so many things go back. 
And one of the things that always troubled me so much was that 
there was kind of this ``we, they'' atmosphere between the 
administration and the teachers. And that always bothered me 
because when that wasn't apparent when it coalesced, I think, 
that, you know, the school made great schools and the district 
made great strides.
    And I think that is so important that--and we always talk 
about how the community needs to be involved and the business 
community, everybody, to make great schools.
    And I think that is one of the problems of trying to get 
the teachers into some of the, you know, the areas of highest 
poverty because there isn't that coalescence of everybody 
working together, and particularly it may be the parents is 
always something that is a problem.
    But Ms. Avila, you talk about the new teachers, and I know 
that is how--when you are making an assessment and you have got 
somebody you are training to go into the classroom, how do you 
decide that that person is really going to be a good teacher 
and give them the--I know you can give them the tools, but so 
many times it--you know, we have young people that get into the 
profession--and I do call it a profession.
    And I think that is something that is most, most important 
that this is a very high, you know, valued profession. And we 
need to make sure that that is always gets across. But how do 
you know that somebody is going be a good teacher?
    Ms. Avila. Well, we believe that actually the selection 
process begins at recruitment. So you have to make sure that 
you are very honest and forthright with your recruitment 
messages about where it is that people are going to be 
teaching. I think second of all, we do have a very rigorous 
selection process. We have seven competencies where we assess 
individuals.
    There are a few things that we have seen correlated with 
effectiveness in the classroom. There are things like whether 
they have a record of achievement, whether they are committed 
to teaching in a high-needs school, whether they have what we 
call personal responsibility.
    Do they understand that fundamentally they are a teacher? 
Their role as a teacher is to insure gains in student 
achievement. It is not to be their friend. It is not to have 
them like you. It is to ensure that students are making gains 
in student achievement.
    There are several others that we look at, and using that 
process we probably select out anywhere between 50 to 65 
percent of people who actually apply. But the one thing to 
remember about selection models, and the research bears this 
out, is that no selection model is perfect.
    If you look at a lot of the teacher pipelines out there, 
including our own, the effectiveness of a teacher, as measured 
by value add and their impact on student learning, looks like a 
bell curve, which means that every pipeline, including teaching 
fellows, will bring teacher who are not so effective, people 
who are very effective and then a lot of people in the middle.
    So what is important is that we are able to develop systems 
where we can eliminate the bad performers who are just not a 
good fit for the classroom, push up the middle to insure that 
we are supporting and providing development and retaining the 
very best teachers.
    Mrs. Biggert. Thank you. Thank you, and I do want to ask 
one question of Mr. Van Roekel. In the school system we have 
developed that I was in, we developed the master teachers and 
those that became mentors for the new teachers and to make sure 
that they would be in the classroom longer than 15 minutes. And 
actually one of the things was to always--to film a class, 
actually, with a teacher.
    And not just the new teachers, so that they were, you know, 
how they could help them to become better teachers. And 
sometimes it was just some annoyance, you know, that they 
didn't realize that they were doing whether they were, you 
know, waiving their arm all the, you know, or something that 
really the kids took offense to.
    So do you think--have you been in schools where this has 
been used? Do you think this is a good idea to use?
    Mr. Van Roekel. Yes, there are several districts around the 
country who have really gone to develop this career advancement 
as a teacher, and many of those who have show incredibly 
effective practice, they use them as mentors. As I mentioned 
before, the first few years that mentoring is really important.
    The idea of sending them to their classroom and saying, 
``Good luck,'' is just not enough. We need to do more, and one 
of the reasons that we have seen more districts going to 
memorandum of understandings--of talking about that, it is a 
benefit in two ways. Number one, it brings everyone together, 
management, administration, and the employees and their unions. 
But there is another reason it is so critical. It becomes 
policy.
    And with the in and out of superintendents and building 
principals, what you can't do is change directions every 2 to 3 
years. You have to develop a comprehensive plan, and then go 
with it. And what memorandums of understanding do is allow you 
to keep that going so that one person can't suddenly change the 
direction. Thank you.
    Mrs. Biggert. Thank you. I yield back.
    Chairman Miller. Thank you.
    Mr. Hare?
    Mr. Hare. Thank you, Mr. Chairman. Mr. Van Roekel, 
congratulations on being president of the NEA. And on Sunday 
there was a story on CNN that they ran and I almost had to 
blink--I was blinking twice thinking if I had heard this 
correctly. It said that they were going to be importing 
teachers from overseas to fill shortages of qualified math and 
science teachers in the state of Alabama.
    And just I am sitting there wondering I must have heard 
this incorrectly. But it is clear that we are not doing enough 
to grow our own, and I would like to hear your thoughts on this 
issue. I mean has it become really necessary for schools to 
turn to international teacher recruitment to fill hard-to-fill 
spots? I mean, I just found that to be absolutely amazing.
    Mr. Van Roekel. One of the things that I think we can do to 
reverse that trend--I saw an article in the paper and it showed 
a chart and it had two columns. The first column were those 
students from low income. The second column were from high 
income families.
    And then they divided into the lowest one-third academic 
achievement, the middle one-third, and the highest one-third. 
If you took kids from low income family, in the top one-third 
of academic achievement they had the same probability of going 
to college as the lowest one-third of families with money.
    But I personally believe in the teaching profession there 
are many of us who are first generation college graduates in 
our families. What we see is that many teachers, new teachers 
are from teacher families. I think one of the things we should 
focus on is that top one-third of students who come from 
families where they just don't have the resources to go to 
college and focus on them.
    Many of them are more first generation. They want to go 
back to their communities and do better, and if we did more 
things like for students like me, the National Defense 
Education Act, national defense loans, that if you went to 
teaching you could dismiss part of your loans.
    I think that is a way, in addition to what Congress has 
done in increasing the Pell Grants and so on, I think we should 
actively recruit in that group and get them into teaching. I 
don't think they will just come. I think we have to actively 
recruit them into the teaching profession.
    Mr. Hare. The other problem that I--and just look at the 
numbers, the dropout rate of teachers is alarming. After 3 
years a third of new teacher leave the field. After 5 years 
half of teachers have left. And you know, this even happened 
with my daughter.
    She is--her whole life, she wanted to be a music teacher, 
and you know, from grade school to high school to college got 
her teaching degree and was ready. Taught for 2 years, had 109 
students in band.
    And I mean she would come over to our house and she would 
fall asleep. She was just, you know, she says, ``I can't keep 
doing this.'' And she left after 2 years and she--it is 
something she wanted to do. And I think had she had a teacher 
mentor that first year, and I think this mentoring program is 
incredibly important to be able to give new teachers the 
opportunity.
    And in my district I just kind of--maybe for the panel, but 
for you, Mr. President, if you could comment on this but it 
seems to me that the school districts that I have talked to 
said when you use the mentoring program, and I realize it does 
cost some money, but if that teacher has somebody with them, 
that dropout rate drops to practically, you know, it is less 
than 5 percent.
    So I was just wondering what the panel thought of it and 
Ms. Daniels, in particular you and President Van Roekel, but it 
just seems to me if we are going to keep the teachers, it is 
hard enough to recruit them, to go into areas where we need to 
have them.
    And I think we have to give incentives and perhaps loan 
forgiveness and whatever it is that we need to do. But this 
mentoring program, I think, is tremendously important, and I 
just wanted to get your thoughts on that.
    Mr. Van Roekel. If you asked many teachers who stayed in 
the system, like me, most of us could name you the person who 
was our mentor. Most of us could tell you it was so-and-so down 
the hall who gave us the support that helped us through.
    It has only been in the last few years the districts have 
really stepped up and said let us have a formalized process for 
this. You know, in other professions--in law you become an 
associate. They don't just throw you out there. In medicine, 
you are an intern.
    And one of the things that you see happening that really 
recruit and train teachers for high poverty schools is that 
they go out and they provide internships for a whole year. So 
they learn cultural diversity, an understanding of the students 
that they are going to teach and they have a mentor there. The 
retention rate goes way up.
    So it is those of us, when they didn't have those, we had 
to find our own. Now we are formalizing those, and you are 
absolutely right, the better we do that, the better the 
retention rate. And in any profession when you are recruiting, 
to lose 30 to 40 or 50 percent, that is ineffective.
    You don't want to lose that many. You have already invested 
all the procedures and time and money to recruit and bring them 
in. You want them to stay and be successful. That is what you 
really want. So the better we can do that, and yes it does cost 
money, but I believe it is worth it in the long run.
    Mr. Hare. Ms. Daniels, I know my time is up, but I just 
wanted to get maybe a thought from you on that?
    Ms. Daniels. Honestly, of the 40 percent of the new staff 
we hired I would say 80 percent were brand new staff. Brand 
new, they had only taught 1 to 3 years and it is the support of 
the teacher mentors that were with them along the way, as well 
as the administration, to support them.
    I will not fabricate a story and tell you that the road was 
not rough because it was. However, the mentors supporting, the 
administrators supporting, constantly checking in and it is a 
systematic approach to how we check in and we use rubrics and 
et cetera, we were able to retain, again, all of our new staff.
    And coming into this year we only laid off one new teacher 
and we were able to retain all the new staff that we had 
recruited.
    Mr. Hare. Thank you, Mr. Chairman.
    Ms. Murray. Yes, definitely early mentoring is critical to 
inducting teachers into their profession well. Teachers in 
their first few years of teaching are not very strong in their 
craft. They sometimes feel isolated in our schools, and if they 
don't have support we lose far too many of them.
    And we know, particularly with the distribution of teachers 
being lopsided so that poor schools get more than their fair 
share of inexperienced teachers, if we can't bring them along 
quickly then this cycle of turnover keeps happening over and 
over and over again, and we can't tolerate that.
    And one thing that, you know, we already have federal law 
that says we are not going to tolerate this mal-distribution of 
teachers so that inexperienced teachers end up in our poorer 
schools. It is not right and we need regulations to enforce 
that, I believe, so that it can't continue.
    And that we do have good mentoring programs and that we do 
have the ability to see that the distribution is a fair one and 
make sure that our poorest kids get the best teachers we can 
give them.
    Mr. Hare. Thank you, Doctor.
    Chairman Miller. Thank you.
    Mr. Kildee?
    Mr. Kildee. Thank you, Mr. Chairman. President Van Roekel, 
it was 55 years ago this month, I just figured it out, that I 
began teaching, and I can recall my mentor, Jack Howell at 
Flint Central High School. And he played an enormous role in my 
formation as a teacher.
    I can't think of anyone even at the university I attended 
at played a role as important as his, so I really do believe 
that enhancing this role of a mentor at a school is extremely 
important, one that you are interested in, the school board is 
interested in and we are interested in, and I think we should 
see how we can enhance that role because that is where the real 
growth of teachers took place. That is where my growth took 
place at Flint Central High School.
    Can you--I was pleased that you emphasized the importance 
of building a collaborative workplace culture in our schools. I 
know from my own experience that teaching is a group effort, 
and we must continue to encourage that. Could you provide the 
committee with some guidance on how to preserve that 
collaborative culture as we focus on improving the 
effectiveness of each teacher?
    Mr. Van Roekel. In the last 25 years, as I look at all the 
things I experienced and saw and read about, following ``Nation 
at Risk'' in April of 1983, which was another big push for ed 
reform, the one common thing that I believe is just always 
there, that the necessary component is that collaboration 
between management, the government entity and the employees in 
their union.
    If you don't have that it just can't happen and no two can 
bypass the third, and no one can do it by itself. So that is 
the necessary but not sufficient part. They have to reach out 
to parents in the community. So when that happens, you have an 
opportunity. Where it exemplifies itself in terms of the 
effectiveness of teachers is because it brings them all 
together to a common purpose.
    They don't argue about activities and tactics because they 
have agreed upon a common purpose of what they want to achieve 
for every single student. It is exciting when you see that 
happen; Syracuse, New York, with the Say Yes Foundation. Say 
Yes Foundation had done four pilots, Philadelphia, Harlem, 
Hartford, Connecticut, one other one.
    Then they went to Syracuse, New York and they are doing it 
for an entire district, 22,000 students, and they are all 
working together. They developed memorandums of understanding, 
the budget of the mayor is involved, the county social services 
is involved. Everyone is involved in removing any obstacle that 
stops a student.
    And for the kids in the community they are saying if you 
qualify for college--this is no free ride--if you qualify we 
guarantee tuition, books and fees. Not room and board, but 
tuition, books and fees. So that every single student in that 
entire community, if you work hard and you do well you have got 
an opportunity.
    And their goal isn't to get them to college. It is to 
graduate from college. There is an example of a system-wide 
project.
    In Connecticut, through Compact, which is again, is a 
coalition of all the ones I mentioned plus the University of 
Connecticut, the NEA, college of education, they are all 
working together in eight of the lowest performing schools in 
Connecticut.
    So I think we need to watch very carefully the places where 
they are finding ways to collaborate, ensure the effectiveness 
of a teacher, remove obstacles from students, combine the 
resources of all these different entities and make it happen.
    In Syracuse they believe within 10 years it will be cost 
neutral, meaning that the additional resources from the 
foundation. Wouldn't it be wonderful if the government provided 
that for every school district to build this collaborative 
effort to turn it around for every student in America?
    Mr. Kildee. Where I taught at Flint Central, we had a 
collaborative culture. It had been there for years and we 
shared ideas. We would have regular meetings but even in the 
faculty lounge share ideas, and this culture of collaboration 
was important.
    And what I worry about is that if we make teachers 
individually competitive within a building that perhaps that 
would be a lessening of that collaboration. Could you have any 
comment on that?
    Mr. Van Roekel. I totally agree with you, Representative. 
It must be a collegial effort. They must care about every 
student in the building and work together. It is really hard to 
differentiate what the effect one person has, but if you do it 
collectively. You know, when they talk about effective teachers 
and not effective teachers I always wonder about myself.
    I think if you chose any one of my classrooms over all 
those years and over 3,000 students, any one group of students, 
I think you would find someone in there who said I was the best 
math teacher they ever had. And I think you would find someone 
who didn't like me at all. So I don't know whether I was good 
in that particular classroom.
    I would hope that the majority and by measures that I was 
an effective teacher, but I know not for every single one. And 
those that I didn't have the way of reaching I know it was 
through cooperative work and collaboration with others that we 
found a way to reach the student. Not just Dennis reaching this 
math student, but us as a faculty reaching that student. So 
collaboration, I believe, is the key.
    Chairman Miller. Ms. Titus?
    Mr. Kildee. All right, Mr. President. Thank you very much.
    Ms. Titus. Thank you, Mr. Chairman. I wanted to address 
this question to President Van Roekel and Dr. Murray. I would 
like to go back to the topic of measuring teacher evaluation, 
but I want to focus specifically on the Race to the Top grants 
because of the problems that are created for a couple of 
states, several states, including Nevada, that they would be 
precluded from applying for Race to the Top grants because 
there is a state law in place that prohibits using test scores 
in teacher evaluations.
    Now, in Nevada that law is not just an accident. It came 
after a lot of consideration and we know that from one of the 
big criticisms of No Child Left Behind is trying to measure 
teacher effectiveness based just on a snapshot. There is a lot 
more to teaching than just one test score and children come 
from a lot of different backgrounds with a lot of different 
resources. And so it is not a real fair or accurate reflection.
    Also, I think that there is a problem that if you use just 
standardized test scores to measure teacher effectiveness that 
is going to be a disincentive for teachers to teach, say, 
children who have special needs or children with English as a 
second language or children in these low income schools that 
you were talking about.
    So do you have some reservations about that and is there 
some way we can address that so Nevada and other states can get 
back in the mix because we have given this a lot of thought?
    Ms. Murray. Yes. You know, I think evaluating student 
growth based on teacher performance is at the essence of what 
value added means. It is not a single test score, but it is a 
recognition that growing student learning is what we are all 
about and effective teachers do that well.
    We have to figure out how to measure that better than we do 
now. It shouldn't be a single test score. But the work is 
necessary. We can't have barriers to that work written into 
state law. We have it in California right now and that is 
wrong. It is wrong because we will never get to understanding 
what really makes effective teachers in the classrooms and 
particularly in our lowest performing schools until we can have 
value added models.
    And until we can we need to look at what we know about 
effective teachers and build that into our evaluation systems. 
You know, if a student has three teachers in a row who are poor 
teachers, ineffective teachers, they can go from right on level 
to way behind, way behind. The research is clear about that.
    And for a student who has three effective teachers in a 
row, they soar in their educational attainment. So it is so 
important to tie student learning to teacher performance and we 
have to figure out as a nation and state by state how to do 
that and we have to tear down the barriers that prohibit that 
right now.
    Mr. Van Roekel. I totally agree with you about the 
overemphasis and importance of a single test. But I think the 
challenge to us is, as Dr. Murray mentioned, over time building 
your effectiveness as a teacher, and part of that is getting 
feedback and doing the analysis of the data.
    Right now the way the system is it doesn't make any sense 
in the world, so I test all of my students and then next year I 
get the results for those students but I have a totally 
different group in front of me now.
    In the first run of the guidelines for Race to the Top, 
they had what was called quick time that--and teachers ought to 
have the results within 72 hours. See, then you have the 
possibility of instructing your practice.
    My teacher-made tests and quizzes did that. If I gave a 
quiz on the first three sections and most of my class failed, I 
needed to figure out a way to do that differently. Obviously, 
the way I chose to teach it didn't work so what is a different 
way to make sure they understand it?
    So if we are moving to a larger scale testing it still has 
to have that its purpose ought to be to inform instruction to 
make me better, so that over time I build my practice.
    One of the reasons I talk about national board 
certification so much is because that is what they force you to 
do, to look at your practice. What was it you were trying to 
accomplish? How do you know whether the students learned it, 
and what will you do differently if they haven't learned it?
    It is a focus on the practice of always being better at 
what you do. And I think that is why teachers believe it is 
such a powerful professional development exercise. It is 
focusing on data analysis and just one point on that.
    As a math teacher I always used to stress to my math 
students the difference between high correlation and cause and 
effect. Too often we confuse those. So for example, I could 
probably show you that over 90 percent of every person in a car 
accident for the last 10 years had a cavity or a filling in 
their mouth, but did it cause the accident?
    So there is a high correlation, almost one to one, but it 
did not cause it. So in education we have to be very careful in 
our analysis to separate factors that have high correlation but 
are in no way connected in cause and effect. And over--
ineffectiveness of a teacher that plays a very important role.
    Ms. Titus. I agree and I appreciate that lecture on 
spurious nature of relationships, but still, how would you then 
encourage good teachers to go into the most needy classrooms if 
in places where they use simply a measure of test scores as a 
way of evaluating teachers?
    And that will often be the case because that is the easiest 
thing to do and what legislators tend to do. How are you going 
to argue that they should take that chance that their students 
won't score well unless we are going to really revamp the No 
Child Left Behind?
    Chairman Miller. You are going to have to argue it off the 
record. [Laughter.]
    Because we are going to move on to--we are running out of 
time, sorry. I would hope that you would answer the question of 
Ms. Titus for the record, but Ms. Woolsey is next.
    Ms. Woolsey. Thank you, Mr. Chairman, and thank you 
witnesses. This has been great. We are looking at the teaching 
profession today as a real profession and it feels wonderful. 
We are looking at educating the educators, both existing 
educators and future educators.
    We are looking at recruitment and selection, not of getting 
these teachers into the spot that fits them best, but also 
where they are needed the most and works the best for the 
hiring district or school.
    We are looking at what the support and assistance--what is 
needed for these new teachers or teachers that may be flailing 
at some point along the way, and possibly mentoring being a 
great way to do that. And then what I thought was going to be 
the center of all of this, but it isn't, and I am so relieved, 
we are looking at how we evaluate educators.
    And what is effective, what isn't? And making these 
evaluation systems fair and objective is, of course, number--
one of our number one priorities that can be trusted by the 
evaluee and the evaluator, and what you do with that 
evaluation.
    What new assistance is necessary if you find you have got a 
teacher that--with the right tools, with the right mentoring 
could come along and be the educator you want that person to 
be.
    This is so complete today that this it is really wonderful. 
Something that is missing for me today, though, is what about 
what are we doing--what do you think----
    Chairman Miller. Let the record show we are here to make 
your day, so let us know what it is.
    Ms. Woolsey. Thank you, George. You usually do that for me. 
I appreciate that very much. You are my chairman and you take 
care of me in that regard.
    What are we doing to help--well, Ms. Avila, you talk about 
teachers as widgets. I talk about students as widgets. What are 
we doing to prepare these students so that when they enter the 
classroom they are ready to learn? Are we doing enough so that 
teachers aren't the first step in getting broken widgets back 
together?
    I will start with you, Ms. Avila. Yes.
    Ms. Avila. I am--you are asking what are we doing to ensure 
that children are ready to enter school?
    Ms. Woolsey. They are ready to learn when they enter the 
classroom.
    Ms. Avila. Yes. Well, I can tell you that we definitely are 
focused on entering and providing the right kind of training 
for our teachers because the reality is in the areas where our 
teachers teach a lot of our kids are not ready because they 
haven't done preschool and they haven't done all the things 
that a lot of parents who have had the opportunity to go to 
college often do with their kids, like reading to them at home 
for example.
    And so we ensure that, you know, it is important for 
teachers to understand what our kids come with and what they 
don't, and that that understanding allows them to both figure 
out what it is that they have to do in the classroom, but also 
how to create partnerships with parents because I think I heard 
other people say this.
    You know, it is possible to teach kids at high levels if 
you have parents who are not involved. I didn't have a very 
involved parent, but it is a lot harder to do so, and so they 
really are partners. They were partners to me when I was a 
teacher.
    Ms. Woolsey. Well, shouldn't this be happening before they 
enter, I mean, what is there--should our society be doing 
something prior to their entering the classroom, Dr. Murray?
    Ms. Murray. Definitely we can do much more to prepare 
students before they get to kindergarten to be able learners, 
and certainly quality preschool, universal preschool is a goal 
that I think we should set.
    Kids need solid preschool experiences that relate to 
success in school so that the standards that we have in 
kindergarten back down and build readiness in children.
    Having said that, though, what happens too often is that 
students come to our schools, particularly our highest poverty 
schools, a little bit behind, just a little bit behind. And we 
structure our schools so that over time they get way behind.
    They get less of everything that matters the most, quality 
teachers, the best teachers we can give them, the most 
resources that we can give them and the highest expectations we 
can hold for them.
    So the gap in achievement gets wider and wider and wider, 
so we have got to deal with that. Not just that they are a 
little behind because that is doable in kindergarten. It is 
doable in first grade. It is when we allow our systems to 
promulgate this practice that we give them less. We give them 
the least experienced teachers that it gets to be a problem 
beyond management.
    Chairman Miller. Okay.
    Mr. Tierney?
    Mr. Tierney. Thank you, Mr. Chairman.
    Thank you members of the panel for your testimony and the 
enlightenment today, let me ask a question here. What should we 
do with respect to the student teacher situation that we have 
now?
    A lot of people say that 8 weeks full time isn't really 
working the way it should and others are suggesting something 
like a longer period of time and maybe stipends to help those 
people that need to be working during that period of time. Is 
that something that anybody has a strong disagreement with on 
the panel?
    No. Ms. Avila?
    Ms. Avila. I----
    Mr. Tierney. Avila?
    Ms. Avila [continuing]. While the New Teacher Project 
certainly focuses on one particular pipeline which is the 
career changers, people who are coming from nontraditional 
backgrounds, we are strong advocates in ensuring that every 
school district has multiple pipelines.
    So the student teachers are definitely one of them. I think 
that one of the things that one of our partner school districts 
has done with regard to student teachers is that they have had 
really open and honest communications with the local colleges 
and universities about what they expect from their student 
teachers. They want to get student teachers who actually are in 
their critical shortage areas.
    A lot of the student teacher programs produce a lot of 
elementary school teachers, a lot of high school teachers who 
teach history, which is great but that is actually not where 
the need is. So the school district is actually prioritizing 
the hiring of student teachers and they will say to the college 
or university we will hire your teachers but you need to give 
us more of what we actually need.
    In addition to that, they actually are, you know, the 
district has a very important asset, which is that they have 
these classrooms where these student teachers can actually get 
a good sense of what it is like to teach.
    But they often don't use them, so they allow students 
teachers to come into their classroom, but they don't actually 
track how many of those student teachers become teachers in the 
school system.
    And that is one of the things that school districts on 
their own can do better, in addition to ensuring that colleges 
and universities are producing teachers that school districts 
actually need.
    Mr. Tierney. Thank you. Do you--didn't you want to make a 
comment as well?
    Ms. Roza. I work at a college of education----
    Mr. Tierney. Right.
    Ms. Roza [continuing]. And colleges of education make a lot 
of money off of both teacher candidates and also teachers who 
come back and return and get a master's degree, and quite 
often, and I have written about this, the data are not there to 
map toward the, you know, the people who graduate from these 
programs back into their success in the classrooms either on 
kind of the induction side or on when they return and get a 
master's degree.
    So we obviously needed to figure out whether or not we are 
going to divert cash for these things in this particular way, 
and certainly if we are we have got to go get the data to check 
to make sure that this program is actually producing results in 
classrooms and this one is not, and make sure that the money 
follows those programs.
    Mr. Tierney. Thank you. Okay, I am looking--nobody else 
seems to want to comment on that. The other point that I wanted 
to ask about was we were talking a lot about trying to give 
teachers incentives to go to areas that are difficult. We have 
seen a lot of research lately about the fact that poverty, or 
children in poverty do well if they go to a middle class 
school.
    So what ideas might there be out there for people who are 
thinking of giving incentives for middle class schools to 
invite in some of the children from areas that suffer a lot 
more poverty, whether it is magnet schools or whether it is 
giving them some subsidy to move in that direction?
    Sir?
    Mr. Van Roekel. Representative, one of the strategies we 
have in our report is about improving the working and learning 
conditions, and one of the commitments we made is this coming 
year we are going to survey another 1,000 of these high-needs 
schools and the faculty. Say what is it about the conditions 
there that need to change?
    We believe that that is one of the focuses that has to be 
there. It is not just bringing in different people and it is 
going to change. What is going to happen is changing that whole 
environment of that school and what is it that needs to be 
done? And we are going to focus on that in this coming year.
    Mr. Tierney. Okay. There is already a whole body of work 
out there, I am sure you are aware of?
    Mr. Van Roekel. Absolutely.
    Mr. Tierney. Okay.
    Ms. Murray. I--and----
    Mr. Tierney. Oh, I am sorry. We can go either one.
    Ms. Murray, first if you want and then the doctor after 
that.
    Ms. Murray. Yes. In my experience the reason why poor kids 
do better in school that serve more middle and high income kids 
is because the expectations are higher and that that impacts 
learning.
    And what we need to do is not to think of that as a cause 
of their higher achievement is because they move to a middle 
class school, but how do we create those same high expectations 
in schools and neighborhoods where you serve a lot of poor 
kids. Because I have been through desegregation orders in 
Florida and California, and just moving kids is not the 
ultimate solution to making America's schools better.
    We have got to get high expectations in our schools in poor 
neighborhoods. We need to involve the parents and that is where 
you can involve them, right in their own neighborhoods. And we 
need to make sure that the children in those schools get the 
best teachers we can get them.
    Mr. Tierney. If you have examples of how you would raise 
that expectation level out there would you share them with the 
committee so--I am sure that we would like to see what they 
contain?
    Ms. Murray. Right. Part of it is, of course, professional 
development and giving teachers the tools. I really believe, 
frankly, that teachers have low expectations because in a way 
they are afraid they can't do the job. They are not convinced 
that they have the tools to bring students way--advance them 
significantly in their learning.
    And the culture of the school tends to gravitate toward 
those lower expectations and we need to work on that, school by 
school, faculty by faculty, to help them see success with 
students that perhaps they believed couldn't do much.
    We need to elevate the quality of work that we give to kids 
when we teach to a standard. What we find in our research is 
that----
    Chairman Miller. We are going to ask you to wrap up, 
please.
    Ms. Murray. Oh, okay.
    Chairman Miller. I am worried that we are going to run out 
of time.
    Ms. Murray. High poverty, low poverty schools, kids get 
less expected of them. They are asked to do less. We have got 
to ask them to do as much in a poor school as we do in a more 
affluent school.
    Chairman Miller. And I misspoke in our line up here.
    It is Ms. Chu and then Mrs. Davis.
    Yes?
    Ms. Chu. Well, Race to the Top thus far is predicating 
funding on a system whereby teacher evaluations would be based 
on student test scores, and this is a problem for California in 
that California has a law prohibiting such a thing.
    So Mr. Van Roekel, you are saying that teacher evaluations 
should be based on multiple criteria and you have talked about 
the national board certification as an essential tool for 
improving teacher quality. What I wanted to know was how this 
would work operationally in helping our high-needs schools?
    Mr. Van Roekel. What we believe is that developing an 
effective evaluation system that is tied to professional 
development system is one of the most important ways of 
changing what is happening in high poverty schools. It has got 
to be a cultural collaboration where they are looking at those 
schools and changing the experience of students.
    And I believe that they have to do that together. Student 
testing can be part of assessing the effectiveness of the 
school, but it just can't be the only measure. Where we have 
thought it was what we stated that we were opposed to is that a 
single test be used as the only measure.
    But on the Race to the Top, we have really appreciated the 
access and the opportunity to comment on that. I think they got 
over 1,200 comments on the proposed regulations and those will 
be out sometime in October. So what we are hopeful of is that 
as they listen to this input they find a way of creating a 
little more flexibility so that districts can determine how 
they believe best to do that.
    Some of the examples I cited earlier, those communities got 
together, administration, government entity, employees in the 
school district who said what do we need to do to change what 
is happening to students, and I believe that is part of the 
success.
    Ms. Chu. I am assuming that you would want more teachers 
with national board certification to be at the high-needs 
schools?
    Mr. Van Roekel. Yes, that would be one of the things. The 
other thing we have to determine is what are the indicators of 
student learning? It is more than a test. Maybe it is showing 
examples of student work. Maybe it is building portfolios, but 
how do you measure the evidence of student learning? That has 
got to be part of the evaluation of any school district.
    Ms. Chu. And you are saying that thus far it is incomplete 
in terms of how that is measured?
    Mr. Van Roekel. I think it can be done within those 
guidelines depending on how they are tweaked from the first 
version to the last. We will have to wait and see how much 
flexibility is given to school districts in order to create 
that circumstance.
    Ms. Chu. Dr. Roza, your research showed that once teachers 
gained seniority and experience they tend to transfer from the 
most challenging schools with high poverty and minority 
students to more affluent schools, and in addition you report 
that there are fewer applicants for open positions at these 
challenging schools.
    It is rather stark data. And I was intrigued by your last 
sentence in your report saying, ``that there are many remedies 
that districts could pursue and some are practiced in a few 
districts but local politics serve as a formidable barrier in 
those.'' Could you explain that? In particular, the things that 
are in practice in a few districts?
    Ms. Roza. So it is districts because we have even heard 
today some of the different strategies at play in districts 
that are trying to build up teacher quality in the schools that 
need it the most. There are school districts that are offering 
incentives to go to the schools where they have traditionally 
had a hard time attracting students.
    There is some school districts where they have built that 
into their salary schedule, and there are school districts that 
have moved toward a student-based funding system so rather than 
fund a teacher and then the teacher takes that money with them 
to whatever school that they go to, then there are schools that 
are saying here you have this many kids with this many needs 
and you get this amount of money. Now go hire your teachers and 
use the leftover money that you have saved because you can't 
hire anybody but really junior teachers for something else.
    So there are all those kind of strategies are out there at 
play, and I think that is the thing that we heard here today. 
We are at the level of the federal government, 90 percent of 
the money for education or so comes from state and local 
revenue sources. So to think of all these remedies as things 
that the federal government can pay for it is hard to really 
get our hands around.
    But at the same time there is that 10 percent of the money 
or so that comes from the federal government which is a lot of 
leverage, and if that leverage could be used toward equalizing 
spending in districts with the local and state money, then some 
of these remedies would start to surface around, I think.
    Ms. Chu. Thank you.
    Chairman Miller. Thank you. I just use the prerogative of 
the chair here. There is nothing in the Race to the Top that 
says that you have to agree that a test will be the sole 
factor?
    Mr. Van Roekel. That is correct.
    Chairman Miller [continuing]. Of determination. So let us 
clear the air on that because we keep throwing it out, and I 
appreciate the attractiveness of it. It is simply not the fact. 
There wasn't anything in the discussion draft. There is nothing 
in the TEACH Act because when we negotiated all that we 
understood there had to be multiple factors.
    But if, you know, if you keep sending a lawyer to court if 
you never ask whether or not they win any cases the law firm 
might want to know. Now, there is a lot of ways to judge 
lawyers. Are they good negotiators? Are they talented? Are they 
good arguers on this? They may handle part of the case, the 
whole case, the rest of that, but at some point you want to 
know what is going on out there day in and day out.
    And I think that it is a real disservice to the 
administration because the Secretary obviously is taking that 
argument and trying to broaden that discussion. But the idea 
that you would never be able to connect student performance and 
teacher performance, there is no other system in the world that 
would do that with their employees. Just wouldn't do it. We 
don't do it in our offices. They don't do it anywhere else.
    So I think we ought to clear the air. That is not the 
challenge that the California state legislature has. Quite--the 
challenge for the California is whether it will ever be able to 
be used because that is what the prohibition is.
    Mrs. Davis?
    Mrs. Davis. Thank you all for being here. Thank you, Mr. 
Chairman, for bringing that up as well. I wanted to follow up a 
little bit more, but I just wanted to let you know, and 
especially to Mr. Van Roekel, I am really pleased to hear all 
that you said about national board certification, not because 
it is the panacea and it is going to change the world, but 
because I think that it does provide, just as you said, a 
rigorous assessment and a tool for teachers to identify their 
own teaching strategies.
    What do you--we also talked about evaluations a great deal 
and it was interesting to me. I think to see in this, Ms. 
Avila, I mean the word is perfunctory. Those of us in 
California know the STOL bill. I--when think the first 
legislation that I did when I went to the state legislature in 
1994 was around evaluations.
    And it is a critical, critical area. I am a little 
concerned because you said, you know, I think our role and it 
was asked earlier, Ms. Hirono asked about what is the federal 
role in this? And I would agree. I mean, we are not 
micromanaging this but on the other hand the research and 
development part of it, I don't know if that is enough.
    I mean I am just trying to figure out, you know, I am going 
to think about pushing you a little bit more on that and the 
tie-in then to Race to the Top, and again, a lot of feelings 
about that out there.
    What is it about the reinvestment dollars right now that we 
can look at and build on and do something because there is this 
urgency right now? Is there something that you see that is 
really primary to be able to look at perhaps even it is using 
that in some way?
    Maybe we are going to change some attitudes because of some 
of the ways that some of these dollars are going to be really 
surfacing is--that would be helpful.
    My other question, just briefly, and I don't expect a long 
answer on this, and I think it has been said a number of 
times--school leadership is so critical here, and I worry that 
we miss the boat a little bit on that.
    Again, what can we do in terms of federal legislation to 
bring any great program to scale in terms of school leadership, 
but clearly there are some things that we probably can do. So I 
want you to talk--whoever would like to take that, a little bit 
more on pushing the R&D piece in terms of federal, tying it to 
Race to the Top in any way that you see, and also what really 
can be done to address school leadership?
    Mr. Van Roekel. I will take one small piece of your 
question about when you asked about what about Race to the Top 
could really change? I think the focus on these lowest 
performing schools and what do we do. We cannot tolerate what 
currently exists. What is the new model that we are going to 
create, 50 percent in urban, 20 percent in suburban and 30 
percent in rural? We have got to find that.
    And I think Race to the Top, I am so excited about the 
opportunity and the resources to really tackle that and I think 
that is a very positive impact of the legislation.
    Ms. Roza. I would just add that I know Race to the Top is 
very present in everyone's mind, but in No Child Left Behind 
and Title I there is a provision called comparability, which 
has been around for a long time which has asked that before you 
accept federal money you equalize your state and local funds, 
which if we did--if there wasn't a loophole in it and it 
actually worked, then I think districts would have to go 
address some major changes.
    It would be kind of the levers they need to overcome the 
local politics to really go in and do something and hopefully 
with teacher effectiveness being on the forefront of everyone's 
minds, that is how they would go about reallocating their 
money. But there is some leverage there as well.
    Ms. Murray. And to add to that I think, you know, as I said 
before, we need federal regulations with some teeth in them 
that say that we will honor what has already written into NCLB 
and ARRA, that there will not be a distribution of teachers 
that gives the poorest kids the least effective teachers. We 
can--it is in law. We can enforce that through good federal 
regulation.
    Ms. Avila. I would add that the work that the federal 
government is doing right now to provide cover to various 
states across this country, around insisting that any teacher 
evaluation has to include a component around student growth is 
absolutely right on target. We can't talk about moving teachers 
from one school to another to increase effectiveness when we 
don't even know who our effective teachers are.
    And you know, we talked a lot about retention. We don't 
even know if we are retaining the best teachers. There is no 
way of knowing that and so this move around ensuring that any 
evaluation has to include student outcomes is right on target 
because if you look at the research out there there is a very 
small correlation between having a master's degree, for 
example, and your impact on student growth.
    Very small correlation on how selective the program is that 
you came in through, but there is a huge correlation between 
how you have performed in the past and how you will perform in 
the future. And we can't ignore that if we are looking at 
identifying our most effective teachers.
    And I think that I agree with a lot of what people said 
here today, is that we are not talking about one test because 
actually what we have found in our research is that principals 
are very good at identifying highly-effective from ineffective 
teachers, and so we think that it should include a formula of 
student growth, perhaps principal evaluations.
    Perhaps external evaluators, perhaps portfolio assessment, 
but you have to have student growth in there because it is the 
largest predictor of whether or not you actually will be 
effective in the future.
    Mr. Polis. Thank you, Mr. Chairman.
    My first question is for Ms. Avila. I strongly agree with 
your statement that the widget effect reports that, ``The core 
purpose of evaluation must be maximizing teacher growth and 
effectiveness, not just documenting poor performance as a 
prelude to this missile.''
    And yet your survey found that three out of four teachers 
didn't find any meaningful feedback to improve their 
performance, and less than half the teachers who received 
feedback were provided with useful support to improve, similar 
to if you look, for instance, whether teachers find testing 
useful.
    One of the purposes of testing, certainly not the only 
purpose, should be to inform classroom practices and frequently 
thought--we find a lot might succeed in other areas, fall short 
in that area.
    Can you explain how a credible and rigorous evaluation 
system could be used better to help teachers improve their 
effectiveness as professionals, and how it can enable excellent 
teachers to also assist more novice teachers to grow?
    Ms. Avila. In terms of how you use evaluations, you really 
need to make sure that whatever your evaluation tool, and we 
actually think that, you know, the tool is actually not as 
important as how faithfully it is implemented. There are some 
things that you absolutely do need a tool for. For example, you 
need a pretty large scale.
    In some of the districts that we studied you had either you 
are meeting expectations or not meeting expectations. That kind 
of system doesn't work to identify where teachers really need 
help. You need to be able to ensure that whatever it is that 
you are including in your evaluation, and this should be 
definitely be around student outcomes in terms of what do you 
see in the classroom?
    What is happening in the classroom that students are doing 
and less so on teacher inputs, like, do you have a lesson plan 
for example? So you want to make sure that whatever it is the 
evaluation shows is actually tied to professional development. 
So you will find that unlike what we tell teachers where we say 
you have to differentiate your instruction because not every 
learner is the same, we actually don't do that for our own 
teachers.
    We offer everyone the exact same professional development, 
so you have teachers who are really good at classroom 
management. That is not where they struggle, but they are 
required by a school district to go to a professional 
development session when you are learning about classroom 
management.
    Where you have teachers who are struggling particularly 
with how to educate English language learners, but they are 
required to go to a professional development session on 
something that is completely unrelated or that they are not 
struggling with.
    So that is one of the key things that you have to make sure 
that the data that you get from the evaluation is informing the 
professional development. And I have to say, our school 
districts spend millions and millions of dollars on development 
but it is not tied to the evaluation.
    Mr. Polis. Have you seen this? Are there any instances 
where you can point to this being done well?
    Ms. Avila. Not yet.
    Mr. Polis. Thank you.
    Dr. Murray, clearly the system to improve classroom 
instruction is broken and I applaud the efforts to improve it. 
This year, Colorado was one of 21 states that adopted a teacher 
identifier approach, but as you pointed out, developing these 
longitudinal data systems that link teachers to student growth 
will take some time to design, some time to implement the 
correct strategies.
    And I certainly agree in the meantime we need to enforce 
the requirements, continue NCLB and ARRA that low income 
students not be taught by out-of-field and inexperienced or 
uncertified teachers, but my question is what else can be done 
in the short and medium term, both to shed light on the 
inequity, including increasing transparency or beginning to 
address it while we work to implement a fix that might take 
years to be fully implemented?
    Ms. Murray. Yes. That is one of the things that my 
organization focuses on dearly, is trying to make transparent 
the inequities and to shout as loud as we can that this is not 
tolerable in the short term. In our state work in California 
that is our primary focus is the gap, achievement gap and how 
do we close it and how do we get the best teachers that we have 
in front of the teachers who need them the most?
    So in the short run, I think there we need to build the 
groundswell for doing this work, for making sure that the 
public understands. We do a lot of community building around 
these issues so that there are pressure points on districts to 
make the changes that are necessary.
    I think we need to continue to do that. We need to let 
people know that this is wrong, that we can't tolerate this and 
every way we can expose the fact that district after district 
are allowing the least experienced, least credentialed teachers 
to teach in the schools where students need them the most.
    Mr. Polis. Thank you.
    Does anybody else care to add to either of those questions?
    Thank you. I yield back, Mr. Chairman.
    Chairman Miller. Let me thank all the panelists. Do you 
have anything else?
    Mr. Kline. Could I take 30 seconds?
    Chairman Miller. Yes. Mr. Kline, excuse me.
    Mr. Kline. Yes. Thank you very much, Mr. Chairman. Again, I 
want to thank all the panelists that we have a lot of witnesses 
that come before this committee and other committees. This is 
truly one of the best. A tremendous level of experience and we 
are better for it, so I want to thank you for that.
    It is amazing how much agreement that there was here in 
amongst the witnesses that we need to identify these 
inequities, make sure we have a way of doing it, making sure 
that the pay is recorded appropriately. You know, make sure 
that we have some meaningful way of evaluating these teachers.
    It doesn't do you any good to have a system of getting 
highly-effective teachers in the school if you don't even know 
who they are, and then making sure we have a way of identifying 
and removing the barriers that is keeping that from happening.
    I think all of you did a fantastic job of helping us today, 
and I would just, again, I want to congratulate you and thank 
you.
    And I yield back.
    Chairman Miller. I thank the gentleman, and I want to 
associate myself with his remarks. We have had a number of 
comments from members of the committee about this panel and 
thank you. I think we have developed a great cross section 
here. And I think all of us believe that the success in 
reauthorization, the success in Race to the Top on the other 
side is going to be about teachers, and I welcome that national 
focus and discussion.
    But there are critical decisions that have to be made here. 
I am working on the firm basis that a young person entering the 
teaching profession today wants a workplace that looks a lot 
like their friends' workplace, where people are rewarded for 
their time, their talent, their expertise, their additional 
learning, the responsibilities that they take.
    And if they are they will take more responsibility. They 
will share their talents. They will spend more time on task, 
and I think that is what it is and that is not happening today 
in most settings.
    And I think that those are barriers and we have got to sort 
those out. We have got to sort them out. Mr. Van Roekel has 
made it very clear, and I think everybody on this subject 
matter has made it very clear, you don't do this to somebody. 
It has to be done with somebody. That is the watchword that is 
imposed here.
    But it is also quite stunning that we are still discussion 
this topic at this level of engagement in 2009 because this has 
not been a subject--we have surveyed the teachers why they 
leave, lack of--it is not pay. Lack of professional 
development, isolationism, unable to associate with their 
peers, I mean, it goes on and on and on, so that this is not a 
mystery.
    It may be a mystery how to fix it. I don't think so but the 
fact that it exists and the fact that the children in poor and 
minority communities are being harmed in a disproportionate 
fashion also is well documented and it is our role if Title I 
is to speak to the needs of that community, it is our roles to 
sort this out prior to reauthorization.
    So thank you very much for your participation. The 
committee is going to commit some additional hearing days to 
this subject, and we look forward to continuing this 
discussion. Thank you very much.
    With that, the committee will stand adjourned.
    [Questions submitted for the record and their responses 
follow:]

                                   [Via Facsimile],
                                             U.S. Congress,
                                  Washington, DC, October 13, 2009.
Ms. Layla Avila, Vice President of the Teaching Fellows Programs,
The New Teacher Project, 186 Joralemon Street, Suite 300, Brooklyn, NY 
        11201.
    Dear Ms. Avila: Thank you for testifying at the Committee on 
Education and Labor's hearing on, ``Teacher Equity: Effective Teachers 
for All Children,'' on September 30th, 2009.
    Representative Cathy McMorris-Rogers (R-WA) has asked that you 
respond in writing to the following questions:
    1. This hearing provides an excellent opportunity to talk about 
special education and the quality of classroom instruction for special 
needs children, particularly whether the witnesses believe the theories 
for improving the quality of education remain true for special needs 
students.
    Do special needs students excel under the supervision of teachers 
with years of experience or rather do they succeed under a program that 
can improve the quality of education, despite a lack of experience? 
What role do resources, both monetary and non-monetary, play in 
improving the quality of classroom instruction, particularly for 
special needs students? For example, to what extent have states and 
school districts utilized the Teacher Incentive Fund Act or Race to the 
Top established in the stimulus package for special needs students? Are 
they even able to access funds?
    What additional incentives are necessary to encourage teachers to 
enter teaching field for special needs students?
    2. Last session, Congress passed the Higher Education Opportunity 
Act. I worked with my colleagues to see that language was added that 
would allow school districts to recruit content specialists from among 
mid-career professionals with expertise in math, science, and critical 
foreign languages. This amendment is consistent with the idea that 
effective teaching does not necessarily come from years of teaching but 
from practical or real world experiences. With our students falling 
below many other nations, especially in the fields of math and science, 
I would like to know from our witnesses what is being done at the local 
level to recruit these specialists? Has the Department of Education 
offered guidance or promulgated regulations to school districts on how 
to recruit?
    Please send an electronic version of your written response to the 
questions to the Committee by close of business on 10/21/09. If you 
have any questions, please do not hesitate to contact the Committee.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 

      Ms. Avila's Responses to Questions Submitted for the Record

    Thank you for the opportunity to respond to your questions 
regarding The New Teacher Project's testimony at the Committee on 
Education and Labor's September 30th hearing on, ``Teacher Equity: 
Effective Teachers for All Children.'' Please contact us should you 
require any additional information.
    1. This hearing provides an excellent opportunity to talk about 
special education and the quality of classroom instruction for special 
needs children, particularly whether the witnesses believe the theories 
for improving the quality of education remain true for special needs 
students.
    Do special needs students excel under the supervision of teachers 
with years of experience or rather do they succeed under a program that 
can improve the quality of education, despite a lack of experience? 
What role do resources, both monetary and non-monetary, play in 
improving the quality of classroom instruction, particularly for 
special needs students? For example, to what extent have states and 
school districts utilized the Teacher Incentive Fund Act or Race to the 
Top established in the stimulus package for special needs students? Are 
they even able to access funds?
    What additional incentives are necessary to encourage teachers to 
enter teaching field for special needs students?
    Ensuring that special needs students receive a quality education is 
critically important and integral to the larger effort of closing the 
achievement gap. Special needs and learning disabled students are about 
twice as likely as other students to drop out of high school, and are 
less likely to be taught by qualified teachers. Urban and rural school 
districts, in particular, commonly struggle to attract and retain 
effective teachers for special education classrooms.
    We believe that if they are rigorously selected and trained, new 
teachers are fully capable of having a positive impact on special 
education students regardless of their prior experience in the 
classroom. While the research on teacher effectiveness in special 
education settings is limited, our experience recruiting and training 
new teachers for high-poverty schools nationwide suggests that many 
individuals share a desire to work with special needs students and can 
be effective despite a lack of experience or a traditional education 
background. Our work in New York City provides a good case study.
    Operated in partnership with the NYC Department of Education, our 
NYC Teaching Fellows program recruits, selects and trains accomplished 
career changers and talented recent graduates to teach in the city's 
highest-need schools. In 2009, it accepted just 9 percent of all 
applicants. The program is the largest urban alternate route to teacher 
certification in the country, and has supplied over 9,000 teachers to 
1,100 schools. It is the single largest supplier of new teachers for 
math, science and special education classrooms in New York City.
    There are approximately 3,400 NYC Teaching Fellows working in 
special education classrooms today. They make up almost a quarter (23%) 
of all active special education teachers in the city's public schools, 
and more than a third (38%) of all bilingual special education 
teachers.
    Every year, we ask principals how effective Teaching Fellows in 
their schools were at helping students progress towards their 
Individual Education Plan (IEP) goals. In this year's survey, 87 
percent of principals somewhat agreed, agreed or strongly agreed that 
the Fellows in their schools were effective in this respect.
    New Fellows themselves also indicate that their training prepares 
them to be effective. In survey responses this year, Fellows preparing 
to enter classrooms for the first time expressed confidence in their 
ability to have an impact; 92 percent said they felt prepared to be 
effective as a first-year teacher despite the intensive nature of their 
pre-service training.
    It is also noteworthy that Teaching Fellows assigned to special 
education classrooms have higher retention rates than Fellows teaching 
other subject areas and exceed national estimates for new teacher 
retention in urban schools. On average, 69 percent of all teachers in 
urban schools begin a third year teaching; in comparison, special 
education Teaching Fellows enter their third year at a rate of 81 
percent.
    In sum, the NYC Teaching Fellows program is helping New York City 
public schools meet their needs for special education teachers with 
dedicated individuals who feel well-prepared, are effective according 
to their principals, and stay in the classroom--and doing this at a 
scale of hundreds of teachers per year.
    We believe that our experience in New York City and elsewhere shows 
that encouraging talented people to become special education teachers 
may have less to do with creating additional incentives and more to do 
with removing disincentives and policy barriers. In some states, for 
example, teachers must complete substantial additional coursework or 
costly tests in order to be certified to teach special education. While 
we strongly believe that all teachers need to be selected according to 
high standards and rigorous training, these additional requirements are 
generally not correlated to increases in student achievement, and the 
cost and time associated with completing them may discourage strong 
candidates from entering the field. States should reduce such barriers 
where possible and focus their efforts on ensuring that all teachers, 
including special education teachers, are held to high standards of 
instructional effectiveness as measured by student growth and academic 
progress.
    2. Last session, Congress passed the Higher Education Opportunity 
Act. I worked with my colleagues to see that language was added that 
would allow school districts to recruit content specialists from among 
mid-career professionals with expertise in math, science, and critical 
foreign languages. This amendment is consistent with the idea that 
effective teaching does not necessarily come from years of teaching but 
from practical or real world experiences. With our students falling 
below many other nations, especially in the fields of math and science, 
I would like to know from our witnesses what is being done at the local 
level to recruit these specialists? Has the Department of Education 
offered guidance or promulgated regulations to school districts on how 
to recruit?
    One of the ways that the U.S. Department of Education has 
effectively supported state and school district efforts to attract mid-
career professionals to teaching is through the Transition to Teaching 
grant program. This critical program focuses specifically on serving 
the highest-need schools and shortage subject areas such as math and 
science. It has funded the launch and development of high-quality 
teacher recruitment and training programs in urban and rural areas 
across the country, including many of our Teaching Fellows programs, 
which now operate in more than 20 cities.
    Through these programs and others, The New Teacher Project has 
recruited or trained a total of more than 6,600 math, science and 
special education teachers since 2005. In 2008 alone, TNTP's Teaching 
Fellows programs produced 770 math and science teachers, which amounts 
to more than the number of math and science teachers licensed annually 
by some states, including Washington.
    We employ a wide variety of recruitment strategies to attract 
candidates who are eligible to teach math and science. These strategies 
include the following:
Data-Driven Goals and Targets
    Prior to the start of any recruitment campaign, TNTP staff members 
work backwards from the program's overall hiring target to identify the 
number of applicants the program must attract and estimate conversion 
rates at particular junctures (e.g., out of the total pool of 
applicants, what percentage will be selected for an interview). We work 
closely with our district partners to establish recruitment targets in 
specific subject areas and grade levels to ensure that our efforts are 
meeting the most critical needs of the district. Throughout the 
campaign, we carefully track our progress toward these goals through 
our proprietary TeacherTrack(tm) software, which is capable of 
generating real-time reports and progress assessments as needed.
Distinctive Program Branding
    Major corporations have relied upon brand recognition as a crucial 
marketing strategy for decades. With such success in mind, we build our 
recruitment campaigns around a unique branding effort that draws public 
attention to the program and promotes easy recall of key information. 
Each of our programs receives a unique name, logo, tagline and 
appearance throughout all marketing materials and on the program 
website.
Multiple Marketing Strategies and Trained Recruiters
    To attract the most qualified individuals, we utilize a variety of 
proven recruitment strategies that take the process beyond mere 
advertising, relying on such methods as internet marketing, print 
advertising, grassroots outreach, and the activities of full- and part-
time recruiters who cultivate relationships with community leaders and 
career service offices, make community and campus presentations, and 
utilize a host of other tools to reach out to potential applicants. A 
variety of coordinated recruitment materials (such as flyers, 
postcards, newspaper and radio advertisements, and other marketing 
collateral) support these strategies and encourage interested 
candidates to visit the program's interactive website.
High-Impact Messaging
    The New Teacher Project's experience has shown that clear, 
compelling and honest messages are critical to a successful recruitment 
campaign. Thus, the recruitment messages used will appeal to an 
individual's desire to be part of a significant effort to expand 
educational opportunity and excellence for all students. TNTP's prior 
experience has found that successful recruitment messages also place an 
emphasis on changing the lives of some of the nation's most under-
served students, not solely on addressing teacher shortages; create an 
aura of selectivity around the program; and convey that new teachers 
will have the opportunity to assume leadership roles within their 
schools and district. Finally, effective messages also begin to create 
a sense of identity and connectedness among applicants. Taken together, 
these messages appeal to each individual's sense of personal mission, 
responsibility and challenge.
Advanced Technology
    An interactive, high-quality website functions as the centerpiece 
of the recruitment campaign. Created by professional designers and 
updated regularly by program staff, our programs' websites maintain a 
professional appearance with a direct and easy-to-use format. They are 
also integrated with TNTP's TeacherTrack(tm) applicant tracking 
software, which improves the ability of program staff to monitor key 
data, conduct quality control and communicate with candidates.
Meticulous Cost-Effectiveness Tracking
    The New Teacher Project constantly evaluates its recruitment 
strategies to ensure they are cost-effective. We monitor our results on 
a daily basis, determine a specific return on investment (ROI) for 
every strategy from internet advertising to on-campus recruiting, and 
reallocate recruitment funding to those strategies that demonstrate the 
greatest success.
Targeted Outreach and Cultivation
    To recruit teachers for high-need subject areas, our programs rely 
on targeted campaigns that apply the strategies outlined above with 
even greater intensity. For example, the program may compile an 
extensive list of potential sources for teacher candidates, including 
local organizations such as professional associations, interest clubs 
and academic societies. Efforts focus especially on those sources that 
may generate leads in high-need areas, such as a Latino Society or a 
robotics club. Prospective applicants then receive personal attention 
from program staff or an invitation to attend a special recruiting 
event that generates excitement about the program and creates a sense 
of connectivity among the potential new teachers.
                                 ______
                                 
                                   [Via Facsimile],
                                             U.S. Congress,
                                  Washington, DC, October 13, 2009.
Ms. Latanya Daniels, Assistant Principal,
Edison High School, 700 22nd Avenue, NE, Minneapolis, MN 55418.
    Dear Ms. Daniels: Thank you for testifying at the Committee on 
Education and Labor's hearing on, ``Teacher Equity: Effective Teachers 
for All Children,'' on September 30th, 2009.
    Representative Cathy McMorris-Rogers (R-WA) has asked that you 
respond in writing to the following questions:
    1. This hearing provides an excellent opportunity to talk about 
special education and the quality of classroom instruction for special 
needs children, particularly whether the witnesses believe the theories 
for improving the quality of education remain true for special needs 
students.
    Do special needs students excel under the supervision of teachers 
with years of experience or rather do they succeed under a program that 
can improve the quality of education, despite a lack of experience? 
What role do resources, both monetary and non-monetary, play in 
improving the quality of classroom instruction, particularly for 
special needs students? For example, to what extent have states and 
school districts utilized the Teacher Incentive Fund Act or Race to the 
Top established in the stimulus package for special needs students? Are 
they even able to access funds?
    What additional incentives are necessary to encourage teachers to 
enter teaching field for special needs students?
    2. Last session, Congress passed the Higher Education Opportunity 
Act. I worked with my colleagues to see that language was added that 
would allow school districts to recruit content specialists from among 
mid-career professionals with expertise in math, science, and critical 
foreign languages. This amendment is consistent with the idea that 
effective teaching does not necessarily come from years of teaching but 
from practical or real world experiences. With our students falling 
below many other nations, especially in the fields of math and science, 
I would like to know from our witnesses what is being done at the local 
level to recruit these specialists? Has the Department of Education 
offered guidance or promulgated regulations to school districts on how 
to recruit?
    Please send an electronic version of your written response to the 
questions to the Committee by close of business on 10/21/09. If you 
have any questions, please do not hesitate to contact the Committee.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 

      Ms. Daniels' Responses to Questions Submitted for the Record

    Representative Cathy McMorris-Rogers (R-WA) has asked that you 
respond in writing to the following questions:
    1. This hearing provides an excellent opportunity to talk about 
special education and the quality of classroom instruction for special 
needs children, particularly whether the witnesses believe the theories 
for improving the quality of education remain true for special needs 
students.
    One of the important tenets of the TAP system, and something we 
follow at Thomas Edison High School, is the inclusion of special 
education teachers in the professional development cluster groups 
attended by all teachers in the school. This provides special education 
teachers with opportunities to interact with peers, to compare 
strategies, and to share their unique perspective on adapting 
strategies for individual students with teachers of other students. We 
find that the same qualities of exceptional teaching hold true in 
special education classrooms as well as in other classrooms. And TAP's 
focus on helping teachers to differentiate learning for individual 
students supports special education teachers who must meet this 
challenge every day. Attached is an article discussing how TAP supports 
special education teachers from the February 2007 edition of Special Ed 
Advisor.
    Do special needs students excel under the supervision of teachers 
with years of experience or rather do they succeed under a program that 
can improve the quality of education, despite a lack of experience?
    My experience is that special needs students in TAP schools excel 
under the supervision of both new and veteran teachers. TAP's intensive 
professional development and support help newer teachers to improve 
their instruction more quickly, and the same support helps veteran 
teachers to continue to improve their craft. Considering the shortage 
of teachers being recruited and retained in this hard to staff field, 
it is important to focus resources on supporting both experienced and 
inexperienced teachers at all stages of their careers. TAP's structure 
of support provides all special education teachers with access to 
school-based expert master and mentor teachers to provide coaching and 
feedback. It also provides outstanding special education teachers with 
the opportunity to serve as master and mentor teachers, thus providing 
powerful opportunities for growth and advancement. In fact, we 
currently have two master teachers at Thomas Edison High that are 
licensed special education teachers that are working with our setting 1 
and DCD/autism teachers.
    What role do resources, both monetary and non-monetary, play in 
improving the quality of classroom instruction, particularly for 
special needs students? For example, to what extent have states and 
school districts utilized the Teacher Incentive Fund Act or Race to the 
Top established in the stimulus package for special needs students? Are 
they even able to access funds?
    As noted in the attached article from Special Ed Advisor, February 
2007, TAP schools include special education teachers in performance 
pay, classroom evaluations and professional support. Many of these TAP 
schools are part of Teacher Incentive Fund (TIF) projects, and we feel 
strongly that all teachers in a school should be eligible for support 
using these funds. Special education teachers in TAP schools are 
included in TIF grants in Illinois, Ohio, South Carolina, Texas, 
Pennsylvania and Colorado.
    What additional incentives are necessary to encourage teachers to 
enter teaching field for special needs students?
    The TAP system provides significant and meaningful opportunities 
for career growth, professional support, feedback on classroom 
teaching, help analyzing student data and developing formative 
assessments, collaboration with peers and additional compensation. We 
find that all teachers benefit from these opportunities. In addition, 
the TAP model allows for additional incentives to be provided for 
teachers in hard to staff subjects, and special education could be 
identified by a school as one of those subjects. However, we find that 
it is the support TAP provides that is the greatest incentive for 
special education teachers to begin and remain in that field.
    2. Last session, Congress passed the Higher Education Opportunity 
Act. I worked with my colleagues to see that language was added that 
would allow school districts to recruit content specialists from among 
mid-career professionals with expertise in math, science, and critical 
foreign languages. This amendment is consistent with the idea that 
effective teaching does not necessarily come from years of teaching but 
from practical or real world experiences. With our students falling 
below many other nations, especially in the fields of math and science, 
I would like to know from our witnesses what is being done at the local 
level to recruit these specialists? Has the Department of Education 
offered guidance or promulgated regulations to school districts on how 
to recruit?
    I am not familiar with federal guidance or regulations on 
recruiting mid-career professionals. I am a strong believer in the 
importance of a system of support, accountability and coaching for new 
teachers who enter the field from other careers. These individuals 
offer tremendous promise as content specialists, and as professionals 
with life experiences to bring to students. In my experience, in order 
to keep these new entrants it is critical that they have a system of 
support within the school. TAP provides weekly collaborative sessions 
with fellow teachers, as well as daily support in the classroom from 
master and mentor teachers. This enables these new teachers to be 
successful more quickly, to receive timely and substantive feedback on 
their instruction, and more rapidly understand the use of student data 
and assessment for planning instruction. Without such support, I have 
seen mid-career entrants to teaching quickly become disillusioned and 
leave the classroom.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
                                   [Via Facsimile],
                                             U.S. Congress,
                                  Washington, DC, October 13, 2009.
Mr. Frederick M. Hess, Ph.D, Director,
Education Policy Studies, 1150 Seventeenth Street, NW, Washington, DC 
        20036.
    Dear Dr. Hess: Thank you for testifying at the Committee on 
Education and Labor's hearing on, ``Teacher Equity: Effective Teachers 
for All Children,'' on September 30th, 2009.
    Representative Cathy McMorris-Rogers (R-WA) has asked that you 
respond in writing to the following questions:
    1. This hearing provides an excellent opportunity to talk about 
special education and the quality of classroom instruction for special 
needs children, particularly whether the witnesses believe the theories 
for improving the quality of education remain true for special needs 
students.
    Do special needs students excel under the supervision of teachers 
with years of experience or rather do they succeed under a program that 
can improve the quality of education, despite a lack of experience? 
What role do resources, both monetary and non-monetary, play in 
improving the quality of classroom instruction, particularly for 
special needs students? For example, to what extent have states and 
school districts utilized the Teacher Incentive Fund Act or Race to the 
Top established in the stimulus package for special needs students? Are 
they even able to access funds?
    What additional incentives are necessary to encourage teachers to 
enter teaching field for special needs students?
    2. Last session, Congress passed the Higher Education Opportunity 
Act. I worked with my colleagues to see that language was added that 
would allow school districts to recruit content specialists from among 
mid-career professionals with expertise in math, science, and critical 
foreign languages. This amendment is consistent with the idea that 
effective teaching does not necessarily come from years of teaching but 
from practical or real world experiences. With our students falling 
below many other nations, especially in the fields of math and science, 
I would like to know from our witnesses what is being done at the local 
level to recruit these specialists? Has the Department of Education 
offered guidance or promulgated regulations to school districts on how 
to recruit?
    Please send an electronic version of your written response to the 
questions to the Committee by close of business on 10/21/09. If you 
have any questions, please do not hesitate to contact the Committee.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 
                                   [Via Facsimile],
                                             U.S. Congress,
                                  Washington, DC, October 13, 2009.
Ms. Linda Murray, Acting Executive Director,
Education Trust-West, 1814 Franklin Street, Suite 220, Oakland, CA 
        94612.
    Dear Ms. Murray: Thank you for testifying at the Committee on 
Education and Labor's hearing on, ``Teacher Equity: Effective Teachers 
for All Children,'' on September 30th, 2009.
    Representative Cathy McMorris-Rogers (R-WA) has asked that you 
respond in writing to the following questions:
    1. This hearing provides an excellent opportunity to talk about 
special education and the quality of classroom instruction for special 
needs children, particularly whether the witnesses believe the theories 
for improving the quality of education remain true for special needs 
students.
    Do special needs students excel under the supervision of teachers 
with years of experience or rather do they succeed under a program that 
can improve the quality of education, despite a lack of experience? 
What role do resources, both monetary and non-monetary, play in 
improving the quality of classroom instruction, particularly for 
special needs students? For example, to what extent have states and 
school districts utilized the Teacher Incentive Fund Act or Race to the 
Top established in the stimulus package for special needs students? Are 
they even able to access funds?
    What additional incentives are necessary to encourage teachers to 
enter teaching field for special needs students?
    2. Last session, Congress passed the Higher Education Opportunity 
Act. I worked with my colleagues to see that language was added that 
would allow school districts to recruit content specialists from among 
mid-career professionals with expertise in math, science, and critical 
foreign languages. This amendment is consistent with the idea that 
effective teaching does not necessarily come from years of teaching but 
from practical or real world experiences. With our students falling 
below many other nations, especially in the fields of math and science, 
I would like to know from our witnesses what is being done at the local 
level to recruit these specialists? Has the Department of Education 
offered guidance or promulgated regulations to school districts on how 
to recruit?
    Please send an electronic version of your written response to the 
questions to the Committee by close of business on 10/21/09. If you 
have any questions, please do not hesitate to contact the Committee.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 
                                   [Via Facsimile],
                                             U.S. Congress,
                                  Washington, DC, October 13, 2009.
Ms. Marguerite Roza, Ph.D., Research Associate Professor,
University of Washington Center on Reinventing Public Education, 2101 N 
        34th Street, Suite 195, Seattle, WA 98103.
    Dear Dr. Roza: Thank you for testifying at the Committee on 
Education and Labor's hearing on, ``Teacher Equity: Effective Teachers 
for All Children,'' on September 30th, 2009.
    Representative Cathy McMorris-Rogers (R-WA) has asked that you 
respond in writing to the following questions:
    1. This hearing provides an excellent opportunity to talk about 
special education and the quality of classroom instruction for special 
needs children, particularly whether the witnesses believe the theories 
for improving the quality of education remain true for special needs 
students.
    Do special needs students excel under the supervision of teachers 
with years of experience or rather do they succeed under a program that 
can improve the quality of education, despite a lack of experience? 
What role do resources, both monetary and non-monetary, play in 
improving the quality of classroom instruction, particularly for 
special needs students? For example, to what extent have states and 
school districts utilized the Teacher Incentive Fund Act or Race to the 
Top established in the stimulus package for special needs students? Are 
they even able to access funds?
    What additional incentives are necessary to encourage teachers to 
enter teaching field for special needs students?
    2. Last session, Congress passed the Higher Education Opportunity 
Act. I worked with my colleagues to see that language was added that 
would allow school districts to recruit content specialists from among 
mid-career professionals with expertise in math, science, and critical 
foreign languages. This amendment is consistent with the idea that 
effective teaching does not necessarily come from years of teaching but 
from practical or real world experiences. With our students falling 
below many other nations, especially in the fields of math and science, 
I would like to know from our witnesses what is being done at the local 
level to recruit these specialists? Has the Department of Education 
offered guidance or promulgated regulations to school districts on how 
to recruit?
    Please send an electronic version of your written response to the 
questions to the Committee by close of business on 10/21/09. If you 
have any questions, please do not hesitate to contact the Committee.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 
                                   [Via Facsimile],
                                             U.S. Congress,
                                  Washington, DC, October 13, 2009.
Mr. Dennis Van Roekel, President,
National Education Association, 1201 16th Street, NW, Washington, DC 
        20036.
    Dear Mr. Roekel: Thank you for testifying at the Committee on 
Education and Labor's hearing on, ``Teacher Equity: Effective Teachers 
for All Children,'' on September 30th, 2009
    Representative Cathy McMorris-Rogers (R-WA) has asked that you 
respond in writing to the following questions:
    1. This hearing provides an excellent opportunity to talk about 
special education and the quality of classroom instruction for special 
needs children, particularly whether the witnesses believe the theories 
for improving the quality of education remain true for special needs 
students.
    Do special needs students excel under the supervision of teachers 
with years of experience or rather do they succeed under a program that 
can improve the quality of education, despite a lack of experience? 
What role do resources, both monetary and non-monetary, play in 
improving the quality of classroom instruction, particularly for 
special needs students? For example, to what extent have states and 
school districts utilized the Teacher Incentive Fund Act or Race to the 
Top established in the stimulus package for special needs students? Are 
they even able to access funds?
    What additional incentives are necessary to encourage teachers to 
enter teaching field for special needs students?
    2. Last session, Congress passed the Higher Education Opportunity 
Act. I worked with my colleagues to see that language was added that 
would allow school districts to recruit content specialists from among 
mid-career professionals with expertise in math, science, and critical 
foreign languages. This amendment is consistent with the idea that 
effective teaching does not necessarily come from years of teaching but 
from practical or real world experiences. With our students falling 
below many other nations, especially in the fields of math and science, 
I would like to know from our witnesses what is being done at the local 
level to recruit these specialists? Has the Department of Education 
offered guidance or promulgated regulations to school districts on how 
to recruit?
    Please send an electronic version of your written response to the 
questions to the Committee by close of business on 10/21/09. If you 
have any questions, please do not hesitate to contact the Committee.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 

    Mr. Van Roekel's Responses to Questions Submitted for the Record

    Dear Chairman Miller: Thank you again for the opportunity to 
testify before the Education and Labor Committee last month on the 
important issue of ensuring effective teachers for every student. I am 
pleased to provide the following responses to the follow-up questions 
submitted by Representative McMorris Rodgers.
    1. This hearing provides an excellent opportunity to talk about 
special education and the quality of classroom instruction for special 
needs children, particularly whether the witnesses believe the theories 
for improving the quality of education remain true for special needs 
students.
    Do special needs students excel under the supervision of teachers 
with years of experience or rather do they succeed under a program that 
can improve the quality of education, despite a lack of experience? 
What role do resources, both monetary and non-monetary, play in 
improving the quality of classroom instruction, particularly for 
special needs students? For example, to what extent have states and 
school districts utilized the Teacher Incentive Fund Act or Race to the 
Top established in the stimulus package for special needs students? Are 
they even able to access funds?
    What additional incentives are necessary to encourage teachers to 
enter teaching field for special needs students?
    RESPONSE: First, we believe it is premature to discuss how states 
and school districts have spent funds under the ``Teacher Incentive 
Fund or Race to the Top established in the stimulus package,'' as the 
U.S. Department of Education has not yet released final applications. 
The Department, however, may be able to provide Congress with more 
information about its timetable for release of those applications and 
the timing of availability of funds.
    In response to the remainder of the question, we offer the 
following information. To provide quality instruction for the highly 
diverse population of students with disabilities, educators--including 
general education teachers, special educators, paraeducators, and 
administrators--need specialized, comprehensive preparation to teach 
special-needs students and students in high-poverty, high-minority 
schools effectively. Educational researchers and practitioners agree 
that they also need continuing professional development that is 
intensive and tailored to their specific needs.
    NEA advocated for improvement of the quality of instruction through 
better professional development by clearly earmarking IDEA ``Part D'' 
funds for enhanced professional development and training.
    All students, including students with disabilities, need and 
deserve access to accomplished educators. Experience matters as well as 
the educators' ability to impart their knowledge to all of their 
students, including their students with unique needs.
    The educational research and policy communities increasingly agree 
that quality teachers:
    <bullet> Know their subject matter;
    <bullet> Know how to teach that subject matter; and
    <bullet> Understand how students learn and what it takes to reach 
them.
    To ensure every student the opportunity to learn from a quality 
teacher, we must support teachers along every point in the Teacher 
Development Continuum:
Protect and promote high standards for entry into the profession
    <bullet> Recruit talented and committed professionals to the 
teaching profession and develop a teacher workforce that reflects the 
diversity of the student population and nation as a whole.
    <bullet> All teachers entering the profession must demonstrate 
subject matter competence, pedagogical skills, and teaching ability 
before entering the classroom as a teacher-of-record. Alternative route 
programs must maintain the same standards as other teacher preparation 
programs and must be equal in rigor and content.
    <bullet> Teachers of special-needs students and students in high-
needs schools require specialized preparation that equips them for 
successful practice.
Support and measure new teacher performance
    <bullet> Policies and funding should focus on comprehensive new 
teacher induction systems that treat new teachers as ``residents'' or 
``interns.'' This would mean more support and training, less demanding 
classroom assignments, and significantly more focused performance 
assessments for all beginning teachers, regardless of their preparation 
and routes to licensure.
Improve teaching and learning conditions
    <bullet> Teaching and learning conditions--time, teacher 
empowerment, school leadership, professional development, and 
facilities and resources--are critical to increasing student 
achievement and retaining teachers.
    <bullet> Teachers must be intimately involved in every phase of 
their ongoing training, with high-quality professional development 
programs focusing on pedagogy and helping teachers develop the deep 
understanding of how students learn.
    <bullet> Principals should also be provided with high-quality 
professional development so they can serve as instructional leaders in 
their schools and work collaboratively with teachers to improve student 
learning.
Strengthen teacher evaluation systems
    <bullet> New policies and funding should create teacher evaluation 
systems that are specifically designed to enhance teacher 
effectiveness. Evaluation systems must be based on clear standards, and 
incorporate an array of measures to assess teacher practice and teacher 
contributions to student success. Information from evaluations should 
be used to modify induction practices and professional development in 
order to meet learning objectives for both students and teachers.
Enhance and reward teacher skills and knowledge
    <bullet> Provide teachers with job-embedded professional learning 
opportunities and create systems for regular collaboration among 
educators within schools and districts to improve teaching practice.
    <bullet> Ensure a $40,000 minimum salary for all teachers in every 
school in the country.
    <bullet> Provide financial recognition to individual teachers who 
demonstrate accomplished teaching skills (such as National Board 
Certified Teachers), financial incentives for teaching in high-needs 
schools, additional compensation to those who take on additional 
responsibilities (such as mentor teachers), and school-wide bonuses for 
improved student learning.
Ensure that students in high-poverty and other hard-to-staff schools 
        have access to quality teachers
    <bullet> Provide an array of incentives to attract and retain 
qualified teachers to such schools.
    <bullet> Improve teaching and learning conditions, including by 
reducing class sizes and ensuring safe modern facilities, providing 
state-of-the-art teaching resources, investing in effective school 
leadership training, and assuring teachers the opportunities to work 
together to address student learning needs and challenges.
    2. Last session, Congress passed the Higher Education Opportunity 
Act. I worked with my colleagues to see that language was added that 
would allow school districts to recruit content specialists from among 
mid-career professionals with expertise in math, science, and critical 
foreign languages. This amendment is consistent with the idea that 
effective teaching does not necessarily come from years of teaching but 
from practical or real world experiences. With our students falling 
below many other nations, especially in the fields of math and science, 
I would like to know from our witnesses what is being done at the local 
level to recruit these specialists? Has the Department of Education 
offered guidance or promulgated regulations to school districts on how 
to recruit?
    RESPONSE: As an initial matter, we believe the premise of one of 
the statements in the inquiry presents a false dichotomy--educators may 
have deep content knowledge but that does not mean that they are 
necessarily effective at imparting that knowledge to students. As 
stated above, quality teachers:
    <bullet> Know their subject matter;
    <bullet> Know how to teach that subject matter; and
    <bullet> Understand how students learn and what it takes to reach 
them.
    NEA supports nontraditional routes to teacher licensure as long as 
these different ``pipelines'' are equal in rigor and require that every 
teacher candidate meet identical standards and measures to receive a 
professional teaching license in a given state. While each pipeline 
utilizes different strategies in different sequential order, they all 
share the same core elements:
    <bullet> Adequate basic skills in reading, writing, and 
computation.
    <bullet> Preparation in and demonstration of subject matter 
knowledge in core teaching area, with an academic major in that same 
teaching area.
    <bullet> Preparation in and demonstration of professional and 
pedagogical skills, knowledge, and ability.
    <bullet> Supervised clinical practice via an internship, student 
teaching, and/or mentoring program.
    <bullet> Participation in a new teacher induction program that 
includes mentoring from a qualified teacher in addition to support and/
or mentoring from university faculty, school administrators, and new 
teacher peers.
    <bullet> Full professional licensure only after demonstrating 
effective classroom practice as a teacher-of-record.
    The Department of Education has several initiatives that encourage 
interest in careers in mathematics and science and promote pursuing a 
career as a teacher of mathematics or science.
    For example, in 2006, two student grant programs--the Academic 
Competitiveness Grant (ACG) and National Science and Mathematics Access 
to Retain Talent (National SMART Grant) Programs--were enacted to meet 
the growing need for improved math and science instruction. These 
grants encourage students to take more challenging courses in high 
school--making success in college more likely, according to research--
and to pursue college majors in high demand in the global economy, such 
as science, mathematics, technology, engineering and critical foreign 
languages. The final regulations can be accessed here: http://
www.ed.gov/legislation/FedRegister/finrule/2007-4/102907a.html. 
Additionally, more information can be accessed on the Department's 
website here: http://www.ed.gov/about/offices/list/ope/ac-smart.html#.
    As an example of a program designed to recruit quality educators in 
mathematics and science, we would refer you to the Teacher Education 
Assistance for College and Higher Education (TEACH) Grant Program that 
provides grants of up to $4,000 per year to students who intend to 
teach in a high need field in a public or private elementary or 
secondary school that serves students from low-income families. High 
need fields include mathematics and science, as well as other fields 
such as special education. More information on that program can be 
accessed here: http://studentaid.ed.gov/students/attachments/
siteresources/TEACH%2009-10--tagged.pdf, with more information 
available here: http://studentaid.ed.gov/PORTALSWebApp/students/
english/TEACH.jsp. Regulations for this program were finalized in 2008.
    We would also like to highlight an additional barrier to 
recruitment of mid-career professionals into the teaching field--the 
Windfall Elimination Provision. This unfair offset reduces by as much 
as half Social Security benefits earned in the private sector if the 
worker takes a public sector job not covered by Social Security. 
Educators in 15 states do not pay into Social Security and receive a 
public pension upon retirement. However, any Social Security benefits 
they may have earned in private sector jobs will be subject to this 
offset and significantly cut. Many mid-career professionals knowingly 
take salary cuts when they move into teaching. However, they do not 
expect to jeopardize their retirement security in making this career 
move. As a result, the WEP discourages the very sort of recruitment the 
question seeks to encourage. This offset, along with the equally unfair 
Government Pension Offset, need to be repealed both to ensure 
retirement security for public servants and to help encourage 
recruitment of talented individuals into the teaching profession.
    We thank you for the opportunity to provide this additional 
information. We would be happy to respond to any additional questions 
from the Committee.
                                 ______
                                 
    [Whereupon, at 1:37 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
